<html>
<title> - DOD AND VA COLLABORATION TO ASSIST SERVICEMEMBERS RETURNING TO CIVILIAN LIFE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
DOD AND VA COLLABORATION TO ASSIST SERVICEMEMBERS RETURNING TO CIVILIAN 
                                  LIFE

=======================================================================

                             JOINT HEARING
                                  with
                                  HASC

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 10, 2013

                               __________

                           Serial No. 113-29

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-245                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE MCLEOD, California
MARK E. AMODEI, Nevada               ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 10, 2013

                                                                   Page

DoD and VA Collaboration To Assist Servicemembers Returning To 
  Civilian Life..................................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman,......................................     1
    Prepared Statement of Chairman Miller........................    44
Hon. Adam McKeon, U.S. House of Representatives, (CA-25).........     3
Hon. Michael Michaud, Ranking Minority Member....................     4
    Prepared Statement of Hon. Michaud...........................    45
Hon. Adam Smith, U.S. House of Representatives, (WA-09)..........     6
Hon. Corrine Brown, U.S. House of Representatives (FL-05), 
  Prepared Statement only........................................    46
    .............................................................

                               WITNESSES

Hon. Frank Kendall, Under Secretary of Defense for Acquisition, 
  Technology and Logistics, Department of Defense................     7
    Prepared Statement of Hon. Kendall...........................    46
    Accompanied by:

      Hon. Jonathan Woodson, M.D., Assistant Secretary of Defense 
          for Health Affairs and Director, TRICARE Management 
          Activity, Department of Defense

      Hon. Jessica L. Wright, Acting Under Secretary of Defense 
          for Personnel and Readiness, Department of Defense
Stephen W. Warren, Acting Assistant Secretary for Information and 
  Technology, Department of Veterans Affairs.....................    10
    Prepared Statement of Mr. Warren.............................    53
    Accompanied by:

      Hon. Robert A. Petzel, M.D., Under Secretary for Health, 
          Veterans Health Administration, Department of Veterans 
          Affairs

      Mr. Danny Pummill, Deputy Under Secretary for Benefits, 
          Veterans Benefits Administration, Department of 
          Veterans Affairs

                   MATERIALS SUBMITTED FOR THE RECORD

Letter To: Hon. Dan Beniskek, From: Eric Shinseki, VA............    58

                        QUESTIONS FOR THE RECORD

Post-Hearing Questions and Responses.............................    59


DOD AND VA COLLABORATION TO ASSIST SERVICEMEMBERS RETURNING TO CIVILIAN 
                                  LIFE

                        Wednesday, July 10, 2013

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to call, at 10:02 a.m., in 
Room 2118, Rayburn House Office Building, Hon. Jeff Miller 
[Chairman of the Veterans' Affairs Committee] presiding.

             OPENING STATEMENT OF HON. JEFF MILLER

    Chairman Miller. Thank you, everybody, for being here today 
for this second joint hearing of the Veterans' Affairs 
Committee and the House Armed Services Committee.
    I welcome the Chairman, Buck McKeon, as well as the Ranking 
Member of the HASC, Adam Smith, and of course, my good friend 
from Maine, the Ranking Member of the Full VA Committee, Mike 
Michaud.
    And as I said, this is the second time now that we have 
gotten these two Committees together. And I am proud to serve 
on both of these particular Committees.
    We are going to jointly review the collaborative efforts of 
the DoD and VA, as it pertains to servicemembers and their 
transition from active duty, to civilian life.
    A year ago, we were privileged to have both Secretaries 
Panetta and Shinseki at the witness table, and both of them 
testified at great length regarding the progress VA and DoD 
were making in several key areas.
    And what I would like to do this morning first is to 
revisit those areas in my opening statement. First, the 
progress made in developing an integrated electronic health 
record. Secondly, the progress that has been made in reducing 
the wait times associated with VA disability claims, which 
necessarily does involve cooperation from DoD in the transfer 
of records.
    So let's start, if we can, with the electronic health 
record. In a response to a direct question last year, Secretary 
Shinseki remarked that the two departments had finally, after 
17 months of discussion, agreed on a way forward on a single, 
joint, common-integrated electronic health record that would be 
completed by 2017.
    The Secretary told us that each of those words--single, 
joint, and common--meant something and that finally we were 
breaking through the cultural issues that existed between the 
two departments and that really stifled in the past.
    And we come here today, and I say what a difference a year 
makes.
    Contrary to the Secretary's testimony, two departments are 
once again moving on their own tracks, with promises we have 
heard before about making the two separate systems 
interoperable.
    Pardon my frustration, folks, but it seems the only thing 
interoperable we get are the litany of excuses flying across 
both departments every year as to why it has taken so long to 
get this done.
    In response to this latest course correction, the House 
included an amendment in the national defense authorization 
bill, an amendment that was developed in collaboration with the 
leadership of HASC and VA and to direct the completion of an 
integrated health record by October 1 of 2016. The message of 
the amendment is simple--no more excuses, get it done.
    I am anxious to hear from the witnesses today, to hear how 
they will comply with the mandate of the amendment once it is 
enacted into law.
    The second issue I will briefly touch on is on the 
disability claims backlog. It is interesting to note that the 
progress made in reducing the pending inventory of claims the 
last few months correlates with a heightened Congressional 
oversight and media scrutiny.
    None of us up here are going to take our foot off the gas 
when it comes to ensuring progress is made on the backlog. 
Every member in this room will agree with that statement. And 
although progress has been made lately, VA is woefully short of 
its own goals for this year.
    So going forward, ending the backlog necessarily requires a 
seamless record transfer from DoD. I look forward to hearing 
the status of the efforts and what more can be done. The 
problem of veterans waiting years for their disability claims 
to be decided must remain at the forefront of our consciences, 
especially as further troop draw-downs occur over the next 5 
years.
    It, too, is an example of where the excuses have to end and 
real, sustained progress must occur.
    To accommodate such a large contingent of members that are 
with us this morning, I have agreed to last year's framework 
that limited to 2 minutes each member's time to ask a question 
of the witnesses. Therefore, I ask unanimous consent that each 
member have not more than 2 minutes to question the panel of 
witnesses, starting with my very own question.
    Without objection, so ordered.
    I ask unanimous consent to include all members' statements 
in the hearing record today.
    Without objection, so ordered.
    And I recognize the Full Committee Chairman of the Armed 
Services Committee, Buck McKeon, for his opening remarks, 
followed by the Ranking Member Mike Michaud, and then the 
Ranking Member Adam Smith, for their opening remarks.
    Mr. Chairman?

    [The prepared statement of Chairman Miller appears in the 
Appendix]

      OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON

    Chairman McKeon. Good morning. I join Chairman Miller in 
welcoming everyone here today to the second special joint 
hearing with the Veteran Affairs Committee to continue our 
oversight on the Department of Defense and Department of 
Veterans Affairs collaboration to assist these members' 
transition to civilian life.
    After the successful joint hearing held last year, I want 
to thank Chairman Miller and Ranking Member Michaud for their 
leadership in continuing the shared efforts to provide our 
servicemembers and veterans and their families the assistance 
they need transitioning out of the military and the benefits 
they deserve for having served this Nation.
    At a time when we are rapidly drawing down our military, 
which I strongly oppose, particularly while we are still 
actively engaged in Afghanistan, the latest announcement of the 
Army's plan to restructure the Army below 9/11 force levels is 
another reminder of the impending military draw-down that will 
force an additional 100,000 servicemembers and their families 
on an already overburdened Veterans benefits system.
    Today's hearing will look at the Department of Veteran 
Affairs system for delivering benefits to veterans and the role 
of the Department of Defense, specifically providing 
information and documents necessary for adjudicating a claim 
for benefits.
    It is no secret that the VA has a backlog of well over 
500,000 claims from veterans. A significant portion of these 
claims are more than 125 days old, with some as old as 2 years.
    These claims are not only from recently transitioned 
veterans, but are from Vietnam veterans and veterans of the 
wars since then. It is easy to talk about a claim as if it is 
an impersonal object, but behind each of these claims is a 
veteran.
    You know, each of us, as we go home and talk to our 
constituents, have people come up to us and tell us horror 
stories of things that have happened to them. And we all--
nobody in this room wants to see that happen. It is just a very 
difficult situation to resolve all of these issues with--we are 
talking so many people.
    A veteran who willingly served this country now is asking 
only what was promised for that service. Alongside many of 
these veterans are the families, families who stood by these 
veterans while they served, enduring the hardships of military 
life.
    These are the people behind these claims who are waiting 
for their benefits. We owe them an answer and we owe them our 
commitment to continue to ask the hard questions until we are 
satisfied with the accuracy and the timeliness of the benefits 
system.
    We find ourselves in a situation where it is tempting to 
place blame and look for easy fixes, but that is not our 
purpose here today.
    I want to understand the reasons for the backlog and I want 
to know what is being done by both departments to complete 
these backlog claims and expeditiously provide veterans with 
their benefits. Lastly, I want to know from the witnesses how 
the integrated electronic health directorate will assist each 
department to fulfill its responsibility for timely delivery of 
transition assistance and benefits, and what role, if any, the 
IEHR will play in reducing the VA backlog of claims.
    Furthermore, I understand that DoD already passes a 
significant amount of medical information to the VA and it will 
be useful for all of us to better know how the IEHR will 
improve that sharing of information. I have been encouraged by 
the attention being paid the issue of electronic health records 
by Secretary Hagel since he took office. The DoD acquisition 
decision memorandum issued on June 21st certainly conveys the 
sense of urgency we hope to instill with the amendment to the 
fiscal year 2014 NDAA, that I sponsored with the Ranking 
Member, Mr. Smith, and in collaboration with Chairman Miller, 
Chairman Rogers, Chairman Young and Chairman Culberson.
    Both press for aggressive deadlines for implementation and 
increased oversight to ensure that DoD finally is able to field 
a seamless, integrated electronic health record. What I hope 
today is to see a similar commitment from the VA Department and 
similar mechanisms to address the lack of measurable goals and 
accountability by VA that the GAO pointed out in its previous 
investigations in to the issue.
    It is incumbent on this body to make sure that the 
leadership for both departments see this as an important matter 
deserving their personal attention and guidance. Our veterans 
deserve nothing less for the sacrifices they have made for this 
country.
    With that, I thank you, Chairman Miller, for your 
leadership in pulling this together and look forward to this 
hearing.
    Chairman Miller. Thank you, Mr. Chairman.
    Mr. Michaud?

              STATEMENT OF HON. MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman.
    I, too, want to thank the two chairmen and Ranking Member 
Smith for having this joint hearing today. Transition is a 
critical issue that greatly affects our servicemembers and 
veterans. This hearing is the second joint hearing our two 
Committees have held concerning transitions. The purpose of 
this hearing is to reiterate our joint oversight commitment and 
to ensure that the Department of Veterans Administration and 
the Department of Defense work together on behalf of the men 
and women who are sent into harm's way.
    At last year's joint hearing on this topic, the two 
agencies' secretaries appeared before us sitting side by side. 
I am disappointed to see that neither is here today. I take 
this as a lack of personal engagement, as a sign that they care 
less, that they are not as committed as they have been. My big 
disappointment is solidified by receiving testimony in the 11th 
hour. Clearly, this issue in this hearing is not a priority.
    I would submit to you that the government has struggled to 
fulfill the sacrifice, you know, trust to care for those who 
have served and sacrificed in defense of our Nation. After 12 
years of war, we know transition is the critical first step, 
and it requires the cooperation of many agencies to accomplish 
successfully.
    I do not believe that we have made measurable progress in 
getting the two agencies before us today to work more 
effectively together. The Department of Defense has announced 
it will put out a bid for a new system to manage its health 
records. Such a decision appears to back an interoperable 
approach over an integrated one--and integrated is integrated, 
not interoperable. Electronic health records is something that 
Congress has mandated years ago and we have spent hundreds of 
millions of dollars delaying the delivery of an integrated 
information-sharing system which runs directly against 
congressional intent and ultimately hurts our veterans.
    Also of particular importance to our Committees is the 
claims backlog. Let me be clear. Both the VA and the DoD have a 
responsibility to end the backlog by 2015. The claims backlog 
is not a VA issue alone. The Department of Defense must do a 
better job in transferring information needed for the VA to 
approve or disapprove in a timely manner the claims. This 
includes records of our National Guards and reservists. It also 
includes late and loose records being sent to the VA.
    Because benefits in health care affect so many 
servicemembers and veterans, DoD and VA must put aside their 
parochial differences and work more effectively together to 
ensure an integrated process addressing transition issues.
    Over the course of the last several months, we sent letters 
to the secretaries and the President asking for their personal 
commitment and support. We requested concrete decisions being 
made in a timely manner. What we received in response is a no-
show to this hearing from the secretaries and the press 
conference that kicks the decision down the road once again.
    And it would appear that leadership is lacking not just at 
this hearing. During the recent roundtable on the IEHR, 
industry leaders told us progress is not due to lack of 
availability--available technology solutions, but rather a lack 
of leadership. That is right. Several of the roundtable 
participants said there is a lack of leadership. When two 
divisions in their companies can't or won't agree, the CEO 
steps in and mandates a direction. Where are the DoD and VA 
CEOs?
    Just recently in a bipartisan effort and due to ongoing 
congressional concerns with the backlog, with the lack of 
unified vision between the VA and DoD electronic health records 
programs, language was included in part of the National Defense 
Authorization Act of 2014. This language creates a deliberate 
approach in developing joint electronic health records. I am 
told that strategies have been modified and collaborative 
efforts are ongoing for both records transfer and IEHR. 
However, months continue to go by with seemingly no real 
progress.
    I look forward to hearing from the panelists today just how 
far you have come, and to learn about the path ahead on this 
transition issue, and look forward to those questions that we 
are going to be asking. This is a real important issue that we 
have to deal with, and unfortunately there has been a lack of 
leadership. And I don't only say that without two secretaries--
also the President of the United States who made it very clear 
in this first term he wants both agencies to work together. And 
that leadership has been lacking as well on this particular 
issue.
    So, I look forward to hearing your comments and to 
answering the Committees' questions.
    With that, Mr. Chairman, I yield back.

    [The prepared statement of Hon. Michaud appears in the 
Appendix]

    Chairman Miller. Mr. Smith?

                  STATEMENT OF HON. ADAM SMITH

    Mr. Smith. Thank you, Mr. Chairman.
    I think my three colleagues have correctly raised the three 
issues that we are most interested in today: How do we get 
joint electronic medical records between the DoD and the VA; 
the transfer issue when a veteran goes from being part of 
active duty DoD over to the VA. How do the benefits transfer; 
how seamless is that process--there are challenges there. And 
then, of course, the backlog of claims that we are trying to 
meet. And I share my colleagues' frustration with wanting to 
get answers to that and wanting to make progress on all three 
of those issues.
    But I am also mindful of a couple of other facts. Over the 
course of the last almost 12 years now, there has been a huge 
increase in the number of injured veterans who have come 
through, that DoD has had to process and that VA has had to 
process. The initial determination of whether or not a given 
servicemember can stay within the DoD or transfer is not an 
easy process. It is a difficult one for the servicemember as 
well as their family in making that determination. So that is a 
significant challenge. And the sheer numbers are a significant 
challenge.
    And I would also like to point out that we have had--I have 
lost track now over the course of the last 2-plus years--four, 
five, six threatened government shutdowns which force both the 
DoD and the VA into a position where they don't know how much 
money they are going to have in a matter of weeks. So there are 
things that Congress could do that would be helpful to you as 
well.
    Sequestration certainly doesn't help. I know there are 
aspects of what you do that are exempt from that. There are 
other aspects that are not exempt from that, and you have to 
absorb those cuts while trying to deal with that increased 
number of veterans and while trying to deal with the backlog.
    And then lastly, we have failed to pass appropriations 
bills in anything approaching a timely manner, and in some 
cases, simply outright failed to pass them so that the VA and 
DoD for an extended period of times are operating with a 
continuing resolution which, again, places them at a huge 
financial disadvantage.
    So, I definitely want to see more leadership out of the VA 
and out of the DoD, but I think Congress should also take a 
look in the mirror and pass appropriations bills and fund what 
we claim to be our top priority. If we really want to get these 
systems integrated, if we really want to get the backlog 
cleaned up, then we need to start passing appropriations bills. 
We need to kill sequestration right now and actually fund what 
it is that we claim is such a huge priority for us.
    So I hope all parties involved will work together to 
achieve what is clearly our common goal, and that is that our 
servicemembers who have put their lives on the line to protect 
our country and at our request at our order as policymakers are 
taken care of: that they are not part of a backlog, they do not 
slip through any crack in the system, they get the treatment 
and care that they deserve.
    But this is a collective responsibility between Congress 
and the executive branch to get that done. I hope today we will 
learn more about how we can work together to make that happen.
    I yield back. Thank you, Mr. Chairman.

    [The prepared statement of Hon. Adam Smith appears in the 
Appendix]

    Chairman Miller. Thank you very much, Mr. Smith.
    Ladies and gentlemen, I want to welcome our first panel and 
only panel to the hearing this morning. First of all, the 
Honorable Frank Kendall, Under Secretary of Defense for 
Acquisition, Technology and Logistics at the Department of 
Defense.
    The Under Secretary is accompanied by the Honorable 
Jonathan Woodson, Assistant Secretary of Defense for Health 
Affairs and Director, TRICARE Management Activity, Department 
of Defense; and the Honorable Jessica Lynn Wright, Acting Under 
Secretary of Defense for Personnel and Readiness at the 
Department of Defense.
    And also with us this morning is Mr. Stephen Warren, Acting 
Assistant Secretary for Information and Technology at the 
Department of Veterans Affairs. And Mr. Warren is accompanied 
by the Honorable Dr. Robert Petzel, Under Secretary for Health 
with the Department of Veterans Affairs; and Mr. Danny Pummill, 
the Deputy Under Secretary for Benefits with the Department of 
Veterans Affairs.
    And I would say to Danny, congratulations on your new 
position. And we look forward to working with you in the 
future.
    With that, Under Secretary Kendall, you are now recognized 
for between 5 and 10 minutes. If you can hold it to 5 that 
would be appreciated.

                STATEMENT OF HON. FRANK KENDALL

    Secretary Kendall. Thank you, Mr. Chairman. I will do my 
best.
    Chairman Miller and Chairman McKeon, Ranking Members Smith 
and Michaud, Members of the Committees, thank you for the 
opportunity to discuss the department's effort to improve and 
modernize our existing electronic health care records and our 
legacy health care management systems.
    I am joined by Acting Under Secretary Wright and Assistant 
Secretary Woodson. And we were recently informed that we would 
be doing just one opening statement, so I will only cover the 
information technology part of our testimony.
    If there are questions, obviously, the people who accompany 
me would be happy to answer them in terms of the backlog and 
other elements of health care.
    I would also like to ask, Mr. Chairmen, that our written 
statement be admitted to the record.
    Chairman Miller. Without objection, all statements will be 
entered in the record.
    Secretary Kendall. My personal involvement in our health 
care management programs is relatively recent. In April, I was 
tasked by Secretary Hagel to conduct a review of the 
department's legacy health care management system modernization 
options. The options under consideration were upgrades to DoD's 
legacy ALTA system, an evolved and enhanced version of VA's 
legacy VistA system, or conducting a competition that would 
include modern commercially available heath care management 
systems, as well as potentially systems based on existing 
systems like VistA.
    With Acting Secretary Wright, I formed a team of senior DoD 
stakeholders and a working group of experts to evaluate DoD's 
options and formulate their recommendation. The team worked for 
approximately a month. It benefited greatly from prior 
analyses, including a recent study that the department's cost 
assessment and program evaluation direction had conducted, as 
well as from consultations with VA on the basis of their 
decision to adopt VistA as their future health care management 
system core.
    CAPE's analysis was based on extensive market research. The 
conclusion the working group reached, which was endorsed by the 
senior stakeholders and then forwarded to the secretary, was 
that a competition to select a core set of capabilities out of 
a best value basis was the right business decision for the 
Department of Defense.
    I have made the results of that review available to the 
Committee staffs, and I would be happy to answer your questions 
on the review, or to brief any of the members on the details.
    Secretary Hagel made a decision to adopt the study 
recommendations. After VA's decision a few months ago to stay 
with VistA as the basis of its future health care management 
system core software, DoD had a very different decision to make 
than VA did. VA has a large installed VistA base, a large in-
house staff that maintains and programs software for VistA, and 
a workforce that is experienced and trained with the current 
vision of the VistA system.
    There are sound logical business reasons for VA's decision 
regarding VistA. But DoD is not in the same position.
    The marketplace that provides health care management 
systems has changed significantly in the last few years as we 
have been going through the process that was alluded to in 
earlier testimony. That marketplace provides a range of 
products, modern products, that have advanced significantly 
over the period of time that I mentioned. This is a vibrant 
market, and we would like to be able to have the opportunity to 
select a product that includes some of the offerings from that 
market.
    Our market research also showed that we would likely see 
VistA-based offerings from multiple competitors. The review Ms. 
Wright and I conducted compared cost, risk, performance and 
growth potential and concluded that a sole-source selection of 
either VistA or DoD's ALTA system was not the best business 
decision for DoD.
    A logical and sound business decision for the department 
would be to conduct a competitive source selection on a best 
value basis.
    Let me assure you that nothing in this decision affects 
DoD's commitment to the joint near-term fielding of fully 
seamless integrated health records under the iEHR, our program, 
being conducted by and managed by the interagency program 
office today.
    Health care records and health care management systems are 
not the same thing. DoD and VA can share integrated records 
without having the same software to manage those records or to 
assist conditions as they provide care.
    The secretary of defense has also asked me to take a more 
direct role in the management of our health records and our 
health care management systems. We will continue to work 
closely with VA on all of these efforts.
    At this point, I am still in the process of reviewing and 
assessing the current programs for iEHR. But the DoD's 
commitment to fielding data management accelerators with VA 
this fiscal year and next year is firm.
    Chairman McKeon, you mentioned my acquisition decision 
mandate. That was one of the first steps that I took once the 
secretary asked me to take responsibility. In addition, I have 
appointed some key leaders. Mr. David Bowen is behind me, as 
well as the program manager for our modernization system who 
will be, I hope, executing some of the leadership that was 
mentioned earlier. Compatibility with ongoing joint effort to 
provide seamless, integrated electronic health care records 
between DoD and VA will be a firm requirement as DoD works to 
select a core for its health care management software system.
    I am concerned, the language in the House fiscal year 2014 
NDAA and the House fiscal year 2014 MILCON and Veterans 
Appropriation Act may overly restrict both VA's and DoD's 
options going forward, as well as impose significant oversight 
burdens on the program.
    I understand the members' frustrations--Mr. Chairman, you 
mentioned that, with iEHR--and I have reviewed the history of 
the last few years. But we would like to work with the Congress 
on less restrictive language that would both address your 
concern and allow for efficient program execution.
    I commit to you that DoD will keep the Committees informed 
of our progress and of any major developments in our health 
care record and health care management acquisition programs, 
and that DoD will work closely with VA to ensure that our 
shared goals of a seamless, integrated record in the near term 
and modernization of our health care management systems in the 
mid-term are accomplished efficiently and effectively.
    Our shared mission with the VA is to fundamentally and 
positively impact the health outcomes of active duty military, 
veterans and beneficiaries.
    Every one on the panel before you with one exception is a 
veteran. We understand the needs of these people and we support 
them.
    Health care record and management systems modernization is 
a part of that process. And we believe the course we have 
chosen is a prudent, cost-effective path to achieving our 
mission.
    I will be happy to take your questions.
    I would like to make one comment on sequestration. It was 
brought up by--in two of the opening remarks. I cannot sit 
before this Committee today, 2 days after we started 
furloughing our employees and not mention sequestration.
    The effects of sequestration are real. They are distributed 
all across the department. They are not dramatic in any 
specific instance, but their cumulative impact is dramatic. And 
they are having--and they will have over time, particularly if 
allowed to continue in fiscal year 2014, a devastating impact 
on the department.
    I know I am not here to testify about that, but I can't 
pass up the opportunity to mention that.
    Mr. Chairman, with that I will conclude.

    [The prepared statement of Secretary Kendall appears in the 
Appendix]

    Chairman Miller. Mr. Warren?

               STATEMENT OF MR. STEPHEN W. WARREN

    Mr. Warren. Chairman Miller, Chairman McKeon, Ranking 
Member Smith, Ranking Member Michaud, and Members of the 
Committees, we appreciate the opportunity to appear before you 
today to discuss the collaboration taking place between the 
Department of Veterans Affairs and the Department of Defense.
    I am accompanied today, on my far left, by Under Secretary 
Robert Petzel for Health, and to my immediate left, Mr. Danny 
Pummill, the Principal Deputy Under Secretary for Benefits.
    The efforts of our two departments reflect an unprecedented 
level of collaboration on a number of important goals to ensure 
seamless transition from servicemember to veteran. Through DoD 
and VA channels such as the Joint Executive Committee, the 
Health Executive Committee, the Benefits Executive Committee, 
independent working groups and the day-to-day work of our 
respective hard-working employees, our two departments are 
removing barriers and challenges which impede seamless 
transition.
    Our collaboration efforts with DoD are also helping VA meet 
its goals of increasing access to care, ending the benefits 
claims backlog and ending veterans homelessness. We are making 
progress together in several key areas.
    Thanks to the VOW to Hire Heroes Act, we now enroll every 
new servicemember in eBenefits. Enrollment has grown to 2.6 
million since June 2011, an increase of over 648 percent. We 
now have in place that single portal, whether you are a 
servicemember or veteran, you can, to find out not only what 
your benefits are, but also what the status of your claims are.
    Through eBenefits, the two departments provide veterans and 
servicemembers a central location to research, find, access and 
manage a growing list of benefits. DoD and VA fully implemented 
the Integrated Disability Evaluation System, known as IDES, in 
October 2011.
    IDES is an integrated DoD-VA program for servicemembers 
being evaluated for medical separation from military service 
that leads to faster processing time, increased transparency 
for the servicemember, and a single set of medical exams for 
single-source disability ratings and much more.
    In April of 2009, President Obama directed the DoD and VA 
to work together to define and build a seamless system of 
integration for electronic health records. Today, DoD and VA 
are already exchanging a significant amount of electronic 
information and are taking aggressive action in 2013 to further 
expand these efforts.
    But most of the information today is not standardized. A 
key priority for both departments is to standardize electronic 
health record data and to make it immediately available for 
clinicians so that they have the information they need to make 
informed clinical decisions for our patients.
    A critical mission of both departments is to fundamentally 
and positively impact the health outcomes of active duty 
military, veterans and eligible beneficiaries. As a result, we 
have two distinct goals. Create a seamless health record 
integrating VA, DoD and private provider data, and to modernize 
the software supporting DoD and VA clinicians.
    We are committing to doing both of these in the most 
efficient and effective way possible. VA is still on track with 
your support to deploy our core capability at two sites by 1 
October 2014, and full operational capability by the end of 
2017.
    We are also working closely with our DoD colleagues to 
address the benefits claims backlog. Today, many veterans wait 
too long to receive benefits they have earned and deserve. This 
has never been acceptable to the secretary or the dedicated 
employees of the Veterans Benefit Administration, over half of 
which are veterans themselves.
    VA is implementing a robust plan to ensure we achieve our 
goal of eliminating the claims backlog and improving decision 
accuracy to 98 percent by 2015. We are making progress in 
reducing the processing times for disability claims, and we are 
on track to meet our agency priority goal of eliminating the 
backlog of claims, those pending longer than 125 days, in 2015.
    The total inventory of claims is now below 800,000, the 
lowest since April 2011, and the backlog has been reduced by 
more than 14 percent from its highest point just 4 months ago. 
For the second month in a row, VA claims processors set 
production records by completing more claims than in any 
previous monthly period.
    Collaboration efforts are ongoing with DoD to allow VA to 
receive complete service records, and to receive them 
electronically for faster and more efficient processing. On 
December 6, 2012, VBA reached an agreement with our partners in 
DoD requiring the military services to certify a 
servicemember's service treatment record as complete as 
possible at the point of transition to VA.
    Effective January 1, 2013, all five military services began 
implementation of service treatment record certification. By 
the end of this year, each of the military services will be 
sending all of the service treatment records electronically to 
VA. This will contribute to reducing the time it takes to 
process future disability claims.
    VA and DoD are committed to our collaborations, and we 
continue to look for ways to improve our decision-making, 
achieve greater efficiencies, and accelerate the transition 
process for servicemembers and veterans.
    Thank you again for your support for our servicemembers, 
veterans and their families, and your interest in the ongoing 
collaboration and cooperation between the two departments. We 
appreciate the opportunity to appear before you today, and we 
are prepared to answer any questions you may have.

    [The prepared statement of Stephen W. Warren appears in the 
Appendix]

    Chairman Miller. Mr. Kendall, first question is in regards 
to the bidding process or the request for proposals that DoD 
has done. Do you anticipate VistA being one of the software 
solutions that will be allowed to be reviewed in the process?
    Secretary Kendall. The answer is yes. Our market research 
that was conducted by CAPE, as I mentioned, had a number of 
responses. Fifteen of those responses were fully compliant with 
the request.
    And of those 15, three were VistA-based solutions. So we 
know there are vendors out there. And one of the submissions 
was from the VA itself, and the other two were from commercial 
integrators. So we would fully expect that VistA will be 
included in the things that we have to choose from.
    Also, it won't be today's VistA. It will be a VistA that is 
improved over the course of the time between now and when we 
would actually make the award. So we will have an enhanced 
version of VistA, if you will, at the time we do the source 
selection.
    Chairman Miller. Mr. Warren, I will say that in reviewing 
your testimony talking about the backlog, you talked about 
several reasons that there is a backlog out there. The under 
secretary has talked about the surge of personnel that has been 
used to reduce the backlog.
    Nowhere do I see anything about what VA has done wrong, 
i.e., mismanagement of personnel. And my fear is that we are 
going to end up right back in the same place eventually. We may 
draw the numbers down, but if we don't change the system and 
how it is done, we are going to continue to see the backlog.
    The Nehmer decision and all of the claims associated with 
that decision, I mean, we knew that was coming. The secretary 
knew it was coming. He actually said that by 2013, now, we 
would be right back where we were prior to Nehmer. We are way 
above where we are.
    So, does VA have any culpability in regards to the backlog, 
or is it just things outside their control?
    Mr. Warren. Mr. Chairman, if I could hand that to my 
colleague from the Benefits Administration to respond.
    Mr. Pummill. Chairman Miller, one of the things that we 
have done is the VBMS, the Veterans Benefits Management System. 
We were in a paper system when we started doing the Nehmer 
cases and worked through the Nehmer cases and got the 
additional workload from the current conflict.
    We now have a fully automated system rolled out to all 56 
of our ROs. And by fully automated, I mean that its position at 
the ROs and we are starting to do claims electronically instead 
of paper. Today, about 20 percent of the total workload that we 
have is electronic. Eighty percent is still paper.
    Our goal is to, you know, not only knock out the backlog, 
but to get all of that into electronic format. That will put us 
in a position so that if a claim comes in from Ohio, it doesn't 
have to be done in the state of Iowa by a claims person in 
Ohio. When the claim comes in, the next available person 
anywhere in the country can take that claim and work it because 
all of the records will be electronic, eliminating the need to 
mail records around the country and things like that.
    We believe with the advent of the Veterans Benefits 
Management System and the electronic service treatment records 
that we are going to be receiving from the Department of 
Defense, that that will go a long way to preventing future 
backlogs and ending this backlog right now.
    Chairman Miller. Mr. McKeon?
    Chairman McKeon. Mr. Chairman. Secretary Kendall, Secretary 
Warren, the process for gathering the necessary information to 
complete a veterans claim for benefits requires participation 
by the veteran, the DoD and the VA.
    Some of the information is provided directly to the VA by 
the servicemember. Other information is sent from DoD to the VA 
either in electronic format or hard copy paper documents. I am 
particularly interested in the health care and medical 
information records that the DoD sends to the VA.
    What medical information records are provided by the DoD to 
the VA, and when and in what format are they sent, number one? 
And two, who receives the information at the VA, and how is the 
information then linked to a veteran's claim for benefits?
    Secretary Kendall. Mr. Chairman, information is generally 
sent electronically in digital form. And we have been doing 
that for quite a few years now. We sent about--over a million 
elements of data per day to the VA electronically.
    The problem with those records is, A, that they are 
incomplete. There are some paper files, often paper that is 
produced by commercial providers of health care that our 
servicemen have seen that need to be sent as well.
    There are also problems at VA with how accessible and 
readable some of that information is and how much it can be 
manipulated. But we are sending electronic records, and we have 
been doing that for quite some time. And it is the way the bulk 
of the information goes.
    I am going to turn it over to Ms. Wright and Dr. Woodson to 
give you a more full answer.
    Ms. Wright. Sir, if I can add to Mr. Kendall's statement, 
we have an agreement now with VA that I think is working very 
well. And that is to provide the service treatment records, 
which includes personnel data, it includes administrative data, 
it includes medical data and dental.
    We also certify that at hubs within our services, within 45 
days of the servicemember departing the military system and 
moving into the veteran system. We send that electronically and 
we send it paper-wise to the repository in VA.
    By the 31st of December, we will be sending everything 
electronically to VA, which will increase the speed of 
processing a claim, should that individual choose to file a 
disability claim.
    Chairman McKeon. My time is expired. I don't know if there 
is time for----
    Chairman Miller. Mr. Woodson, would you like to add 
anything?
    Secretary Woodson. I would. Thank you very much for the 
question and the invitation to be here today.
    As Secretary Kendall indicated, we send a lot of health 
record information electronically now. And for anyone who might 
be interested, I will give you a Web site or a CD that shows 
the functionality of the type of data we send that can be used 
in direct patient care, as well as claim adjudication.
    It is rather significant and it really has more information 
and functionality than I would say most private offices in the 
private sector and many of the great hospital systems in the 
private sector.
    By the end of the year, not only will we be able to 
exchange that information so that it is read--it can be read by 
whomever might need the information in the Veterans 
Administration system, but it will be computable data.
    Through the ongoing projects we have, through the inter-
agency program office focusing on this accelerator for this 
data interoperability, which is really an important feature, it 
will be computable data that will be real-time, that allows 
providers as well as administrators to use that information for 
the benefit of the transitioning servicemember.
    And so, I think--I would be happy to make myself available 
to any member or staff member to walk them through what the 
capabilities are. I think if you have a chance to look at it, 
you would be surprised at how much capability is there.
    One last comment is that in trying to assist the Veterans 
Administration in claims adjudication, particularly interfacing 
with the VBA, we have a project, it is called the Health 
Artifacts Information System, which will take care of 
electronically transferring all of that loose and late paper 
that is so--ties up the adjudication of these claims.
    So we will be able to capture all of that information that 
is coming from the private sector on care that was delivered to 
servicemen and women. And remember, from the DoD's point of 
view, about 60 percent of care comes from the private sector. 
But we will be able to capture that and be able to transfer 
that electronically and interface with their VBMS system, which 
is part of their reengineering.
    One more point, perhaps, is that as we have gone through 
this process, we have also learned that it is about not only 
the technology--it is not only about the technology solutions, 
but it is also about the business process reengineering.
    And I want to thank actually our VA colleagues, because we 
have--through information-sharing summits and the like, have 
illuminated areas where the business processing reengineering 
needs to occur so that they can take advantage of the 
technology solutions.
    So thanks very much for the question.
    Chairman Miller. Mr. Michaud?
    Mr. Michaud. Thank you, Mr. Chairman. This question--I have 
got two questions.
    So the first one is for Mr. Warren and Mr. Kendall. When 
will the two departments have the full capabilities of an 
integrated, seamless health care records that can be used as 
the President had envisioned? The first question.
    The second question is for Mr. Kendall. And I would like to 
read to you from the text of a March 28, 2013 memo from the 
Office of the Secretary of Defense, regarding the pursuit of 
the President's open standards for electronic health records.
    And it reads, in part, and I quote--``Throughout the first 
term, the Department's actions have been inconsistent with the 
President's agenda. The Department's past and current desire is 
to completely replace its health care information technology 
package with an existing commercial health care advantage 
package.''
    It goes on to say that, and I quote--``The Department's 
resistance to the President's open standard agenda appears to 
be founded largely on an incorrect assumption.''
    My question to those quotes is, do you believe that the 
President's agenda was worth pursuing, or was there some mix-up 
at the Department of Defense? And please help me understand 
this because this has been going on for 4 years, long before 
sequester. I hoped that you would be able to give us some idea.
    So those are my two questions.
    Chairman Miller. In 25 seconds or less.
    Secretary Kendall. All of these terms have--like integrated 
record, carry an awful lot of weight and are interpreted 
differently by different people.
    My view is that by 2014, we will have integrated records 
that we share with VA. That is what the near-term projects are 
doing. That is what the accelerators, which Dr. Woodson 
mentioned, are doing.
    And it is important for the Committees to distinguish 
between integrated records and health care management software. 
The health care management software doesn't just make a record. 
It helps the physicians do their job. And that is a very 
important reason for us to modernize our systems.
    But as far as the records are concerned, we will have 
records to common standards and they will be movable seamlessly 
between DoD and VA, for use by both benefits adjudication 
purposes and for health care purposes.
    Your second question is about the comments that you made 
about the President's agenda. We are fully supportive of the 
President's agenda. So is VA. We are united in our effort to 
develop common standards and to support the national standards 
that the President articulated as a goal and that we are 
working on with HHS.
    So I don't know what the source of that quote was, but I 
think it is entirely incorrect.
    Mr. Michaud. Actually, the quote was from the Department of 
Defense, the Secretary's office. And I will give you the memo 
from DoD. They made it very clear it is inconsistent with what 
the President directed them to do.
    Secretary Kendall. I understand, but it is not correct.
    Chairman Miller. Mr. Smith?
    Mr. Smith. As following up on the computer records a little 
bit, is it the case that you are going--and I think you 
mentioned this, but I just want to clarify--is it the case that 
you are going to have to develop a brand new system that both 
departments can use, or do you think that there is a software 
fix that can get your two systems to begin to better talk to 
each other?
    Secretary Kendall. We are currently talking to each other. 
I think there is a misconception about this. We are sending 
electronic records today.
    So in that sense, we are talking to each other. VA can read 
DoD's records when we send them, okay. We want to have an 
improved system from that, where we are not just reading the 
records, but actually using them and using the data that is 
provided.
    We also want to eliminate paper that is currently part of 
the records that we are sending, for the reasons that I 
mentioned that were discussed earlier. So we are moving very 
quickly to accomplish those two things.
    That is a separate thing from the software that manages 
health care provision.
    Mr. Smith. Right.
    Secretary Kendall. And that is a distinction I want to 
make.
    Mr. Smith. And the software management system, you are 
saying that you are going to come up with a new, relatively new 
system beyond what you have now?
    Secretary Kendall. Our choices are not between--we were on 
the path at one time to develop an entirely new system.
    Mr. Smith. Right.
    Secretary Kendall. That was the history of this----
    Mr. Smith. That is a tough path.
    Secretary Kendall. It is a tough path, but we decided to 
get off of it.
    Mr. Smith. Yes.
    Secretary Kendall. The costs for that were going to be 
exorbitant. The last estimate that I saw was $28 billion of 
lifecycle cost. So the decision was made a few months ago to 
get off of that path.
    Once we were off that path, VA made a decision that the 
best path for VA was to continue with VistA and evolve and 
enhance VistA to a modern project--a more modern product.
    For DoD, as I mentioned in my opening comments, we have a 
little different situation, we have a very different situation. 
So we are not going to develop a new system. We are going to 
look at a range of options that will include commercial, mature 
products that are modern products that are being used 
throughout the health care industry.
    Mr. Smith. That is where the software improvement comes 
from. We are working with a ton of companies and I think, gosh, 
going back 20 years, we have had this history in a variety of 
different government agencies where they try to come up with 
some brand new system, where what has evolved is software 
solutions to get old systems to better communicate with each 
other. And that is--seems like the better approach.
    Secretary Kendall. For DoD, it is better to have a choice 
among a range of options that includes those types of systems.
    Mr. Smith. Right.
    Secretary Kendall. VA, as I said, is in a different 
position, and I am not--they have VistA and they have in-house 
programs to work with VistA, et cetera. So they have an 
established base they can build on. It is not where we are.
    There is an analogy that you will probably be familiar with 
from your Armed Services Committee activities, with radios, 
tactical radios that DoD acquires. Where we were doing a 
program of records that took years and years and years, and 
meanwhile the commercial industry was moving forward very 
quickly. And we came to a conclusion to cancel some of those 
programs and go out and do commercial like competitions in lieu 
of doing our own development. We are in a little bit of that 
situation here.
    Mr. Smith. The tyranny of the program of record is a phrase 
that occurs to me many times when I look at some of our 
acquisition challenges. And I know you have done a lot of work 
to try to get around that.
    Mr. Smith. I yield back. Thanks.
    Chairman Miller. Mr. Runyan?
    Mr. Runyan. Thank you, Mr. Chairman.
    I know we have been talking here a lot about moving 
forward. I sit on both of these Committees, both HASC and VA, 
and I chaired a subcommittee that deals with disability 
assistance and memorial affairs. My question is really directed 
both at the VA and the DoD. And this comes from a past VA 
hearing.
    In the hearing, it was discovered that VA initially--when 
VA initially requests records from the DoD, and we are talking 
about paper records--we are talking about dealing with the 
current backlog--VA will wait 60 days before sending a follow-
up request. Following that request, VA will wait an additional 
30 days to respond--for DoD to respond before making another 
contact at DoD.
    This is a very large work window. And as VA is trying to 
adjudicate these claims in 125 days or less, that leaves 35 
days before they can actually get their hands on the paperwork. 
It was discovered through the hearing that this rule was 
probably self-promulgated from the VA's adjudication manual.
    Is this window necessarily that large? Does the VA need to 
change their protocols on that? And why does it take the DoD so 
long to get the--request of materials?
    Mr. Warren. If I could hand that to Mr. Pummill to answer.
    Mr. Pummill. Congressman, it is the timeframes that you 
quoted are accurate timeframes. And those timeframes are based 
on the requirement that we have in the Veterans Benefits 
Administration to assist veterans--a duty to assist that says 
that if we get a record and we believe that the record is not a 
complete record, that we have certain timeframes that we have 
to re-request the record again.
    Now, we have actually fixed that in some work that we have 
done with Ms. Wright's office in that the Department of Defense 
has already started, as of January of this year, working to 
give us from the five services certified service treatment 
records. Basically, what they do now is they give us a service 
treatment record with a document on top saying that the 
Department of Defense certifies that this is a full and 
complete record. That means that the record has all of the--we 
have their personnel information, their dental information, 
their medical information, and not just treatment from a 
military treatment facility, but maybe if they went outside for 
TRICARE or something, that eliminates the need for the VA to go 
out and ask for any additional information--no more 60-day 
letter, no more 30-day letter.
    This will improve again when we get to December of this 
year and we start receiving all of that information 
electronically, because we will be able to shift it around to 
different places to adjudicate it. But yes, that was a problem. 
That still is a problem with veterans that are from previous 
conflicts that are not coming directly from the Department of 
Defense, because we still have to go out and request any place 
they may have been for all their records, to ensure that we 
have everything possible to give that veteran every benefit of 
the doubt when we are adjudicating their claim.
    Mr. Runyan. Thank you.
    Mr. Chairman, I yield back.
    Chairman Miller. Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    I am pleased that DoD and VA, along with several other 
agencies, have collaborated to improve and reinvent the 
transition assistance program. However, I heard from the 
California Department of Veterans Affairs that they are being 
excluded from participation in transition GPS, the new program. 
State governments provide key resources and services for 
veterans, and I think it is important that they are included in 
the transition program.
    Can any of you address why the California Veterans Affairs 
Department is being excluded? Or if that is a mistake, what 
will you do to address the issue?
    Ms. Wright. Sir, I would like to address that issue, 
please.
    Any individual that spends 180 days on active duty is--goes 
through the transition assistance program that is now a very 
active program at 206 installations throughout our system. It 
is a collaborative effort between Department of Defense, 
between VA and between Department of Labor.
    The transition GPS will be up and running in the first of 
October of 2013. In fact, we just all had a meeting about that 
yesterday. But there are tracks to that, that those individuals 
that come through the transition program still do. They do MOS 
comparison to civilian. They do a transition plan. They do a 
financial plan. And they do a career readiness solution.
    What will be added onto the transition GPS are three 
additional tracks that could potentially--that are volunteer, 
the individual does not have to go through. So my concern is, I 
don't know if you are talking about a reservist or guardsman 
who is leaving the Guard and Reserve system, or if you are 
talking about somebody who is leaving the active duty system.
    So, what I have explained is for somebody that has been on 
active duty. I would like to make an appointment with you and 
follow up to see if it is clearly on the Reserve and Guard 
side, and then I can answer your question.
    Mr. Takano. I would appreciate that effort. Thank you.
    Chairman McKeon. Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    You have heard both Chairman Miller and Chairman McKeon 
mention the collaborative effort we have with DoD and VA. One 
of the concerns that I have is with these furloughs that the 
secretary of defense has ordered. We know that the VA employees 
are exempt from that, but not DoD employees.
    So my concern is, what impact is that going to have on the 
transfer of this information over from DoD. And if we have a 20 
percent loss in the time that these employees have, are we 
concerned about the messaging that we are sending to our 
servicemembers that after a decade of war that they have served 
their country, that the country is somehow content to give them 
80 percent effort in this transitioning.
    Ms. Wright. Sir, if I may, thank you for the question.
    I would like to piggyback onto what Mr. Kendall said. 
Sequestration is real in our department.
    Mr. Forbes. I understand sequestration is real. Some of us 
didn't support it, but the decision on the furloughs was the 
secretary's.
    Ms. Wright. Absolutely, sir. And furloughs are real and 
they are catastrophic to the department and they are 
catastrophic to the great civilian employees that work for the 
department.
    Saying that, we realize how important this is for those 
individuals that have served our country admirably in the 
military, to transfer their records to VA in a whole certified 
manner, as Mr. Pummill brought up--the agreement that we have 
between the two departments.
    We are making that 45-day window. The reason we have a 45-
day window is to collect all that loose-flowing information 
from TRICARE and other agencies where we can then certify that 
they are correct and send them over to VBA to their repository. 
So, should the individual choose to file a disability, his or 
her records are there and correct.
    So, yes, furloughs are real. Yes, they are damning. But we 
have kind of locked this down as hugely important and we are 
putting a full-court press on it, sir.
    Mr. Forbes. In my 4 seconds, I don't think you have 
answered the question. But if you could at some point in time 
give us a metrics of a plan so that we can measure 
independently that we are reaching our goals.
    And with that, Mr. Chairman, I yield back.
    Ms. Wright. Sir, we have the--if I may?
    Mr. Forbes. Please.
    Ms. Wright. We have a metric of 100 percent. The last 
report from VA, and we get our numbers from VA, we were at 97 
percent success rate of getting our records to VA on time. We 
collaborate every day on this. I can provide you more metrics 
if you choose.
    Mr. Forbes. Thank you. I would love to. Thank you.
    Ms. Wright. Thank you.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Just quickly, since we have little time. How is--how are VA 
and the DoD working together on after-action reports regarding 
suicides? I am familiar that the different services have their 
own ways of doing that, but how are you integrating those 
discussions? And what have we learned from it?
    And secondly, what are we doing to reduce the stigma so 
that people who are having difficulties actually report those 
difficulties so that that goes on their medical reports when 
they do apply for benefits later on? I understand that a number 
of people actually do not, and so when the VA has to rate them 
down the line, they have nothing on which to base it, even 
though they have been serving for a number of years.
    Secretary Petzel. Congresswoman Davis, let me begin, at 
least, to answer that question.
    The VA and DoD have a joint integrated mental health 
strategy. One element of that strategy is suicide. We recently 
jointly developed an integrated recordkeeping system for 
suicide where we collect the data from each one of the states 
as to the rate of suicide, et cetera, amongst veterans; collate 
that data; and then use it to analyze our experiences in the 
DoD on one hand, and in the VA on the other hand.
    The second thing is that we have a number of joint efforts 
going on right now to de-stigmatize suicide. The make-the-
connection campaign and the stand-by-them campaign are two 
efforts to de-stigmatize mental health in general, but suicide 
in particular, and to not glorify suicide.
    The third element is the military-VA crisis hotline, where 
people that are having a difficulty can call. We have received 
almost 900,000 calls since it began almost 4-1/2 years ago; 
26,000 saves from that. That is, people who were in danger of 
harming themselves or someone else that were rescued from doing 
that.
    The suicide work group, the mental health work group of our 
health executive council, that VA and DoD jointly chair, 
regularly reviews the suicide experiences within each 
organization and looks for, in further joint efforts----
    Mrs. Davis. Excuse me, are those shared with the family as 
well? Are those reports shared with the family?
    Secretary Petzel. I can speak only for the VA in terms of 
the family, that when we do a, what we call a psychological 
autopsy on a patient or a review, yes, we would do what we call 
institutional disclosure and discuss that with the family.
    Mrs. Davis. Okay, thank you.
    Chairman Miller. Dr. Benishek?
    Mr. Benishek. Thank you, Mr. Chairman. My question is 
actually for Dr. Petzel.
    In 2008, the NDNA, a joint DoD-VA vision center of 
excellence was established at Walter Reed. The purpose of this 
center, along with two other joint centers of excellence, was 
to improve clinical coordination and best practices between the 
DoD and the VA.
    The center was also tasked with developing a joint trauma 
registry containing up-to-date info on the diagnosis, treatment 
and the follow up for injuries received by our Nation's 
military. The vision center alone was allocated $6.9 million 
over 5 years.
    Apparently, there are two current staff members from the VA 
located at the vision center of excellence, and this is despite 
repeated promises from the Secretary that there would be no 
less than six. Why hasn't more staff been committed to the 
vision center?
    Secretary Petzel. Thank you, Dr. Benishek. My understanding 
is that we have committed the staff that was initially agreed 
to. I will go back, sir, and find out----
    Mr. Benishek. See, I have also heard reports that the VA 
plans to pull out of the centers of excellence. Is there any 
truth to that?
    Secretary Petzel. No, we do not plan on--we fully support 
the concept of the centers of excellence.
    Mr. Benishek. Well, I would like to be sure that there are 
six staff members as the Secretary promised.
    I have also heard reports that the VA has been refusing DoD 
IT personnel with security clearance to access the VA health 
records for purpose of building the trauma registry. Do you 
have any knowledge of that?
    Secretary Petzel. I do not, sir. I would ask Mr. Warren if 
he has any knowledge of that.
    Mr. Warren. I would like to take that for the record, but I 
am not aware of that taking place, sir.
    Mr. Benishek. Well, let's follow up with your staffs, so we 
get these answers, because I have got some credible reports 
that indicate that these questions are valid.
    Mr. Warren. And can we reach out to your staff for further 
information?
    Mr. Benishek. Yup.
    Mr. Warren. Thank you.
    Mr. Benishek. Thank you. My time is up.
    Chairman Miller. Mr. Wilson?
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Chairman Miller, Chairman McKeon, for your 
leadership to promote DoD-VA collaboration on behalf of our 
military servicemembers and military families and retirees.
    Mr. Pummill, how many of the pending claims that VA is 
waiting to process require information to be provided from the 
DoD to be processed?
    Mr. Pummill. About 4 percent. It is not very much.
    Mr. Wilson. That is impressive. That is good.
    Ms. Wright, how many pending claims does DoD need to 
provide the VA information?
    Ms. Wright. Sir, we are working on the 4 percent that we 
are required to provide. We are also providing the current 
service treatment records of those that are leaving. But those 
that are within the backlog is about 4 percent.
    Mr. Wilson. And this 4 percent has been a significant 
reduction apparently, is that correct?
    Ms. Wright. We are working together, sir. We have a team on 
the ground, two teams on the ground at VA at their request and 
they are working hand in glove with VA to bring down that 
number.
    Mr. Wilson. Well, I appreciate very much that information 
and please keep us informed.
    Mr. Pummill, do you believe that a joint DoD-VA integrated 
electronic health care record would substantially aid the VA in 
eliminating the current backlog?
    Mr. Pummill. A joint electronic health record probably 
won't do anything for the current backlog. It would be 
wonderful for the future to have everybody in the government to 
be able to look at one medical record and grab all their 
information.
    Right now, what we need is the electronic personnel dental 
and medical records, which we have got a commitment from the 
Department of Defense to get by the end of this calendar year.
    And for claims purposes, that is what I need. The 
electronic health record, if that ever works out for the 
future, that would be great. That would help in the future. But 
it would not help us in eliminating the current backlog.
    Mr. Wilson. And finally, for the health and safety, I 
certainly hope every effort is made to expedite the electronic 
health care records. It is just got--for all of you, it is just 
so important.
    Thank you very much for your service.
    Chairman Miller. Mr. O'Rourke?
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And for Under Secretary Kendall, I wanted to draw your 
attention to a Reuters investigative piece that was published 
yesterday, entitled ``The Pentagon's Payroll Quagmire Traps 
America's Soldiers.''
    And one of the soldiers that they focus on is based at Fort 
Bliss in El Paso, Texas, the community I have the honor of 
representing. And after returning from two combat tours, 
suffering from severe PTSD, traumatic brain injury, nerve 
damage and chronic pain, his pay is mysteriously garnished, and 
going from $3,300 a month to about $1,000 less, without 
explanation.
    After he complains about it, his pay goes down to a little 
over $115 a month, forcing he and his family to go to food 
pantries to be able to feed themselves. He has three children. 
Having to go through Operation Santa Claus to get Christmas 
gifts for his children.
    And the Reuters reporter was able to find that this is not 
an isolated incident. It is widespread throughout the 
Department of Defense. There was also a GAO report in 2012 that 
cited some of these same problems. The response from the 
Department of Defense was to call the GAO report overblown.
    One of the other findings in the article shows that the 
Department of Defense's system is a jury-rigged network of 
incompatible computer systems for payroll and accounting that 
are obsolete and unable to speak with each other or communicate 
with each other within the DoD.
    And so, I knew we had a problem communicating DoD to VA, I 
didn't know we had a problem communicating DoD to DoD.
    Considering the GAO report, the Reuters report, this case 
of medic Aiken, what is your response to this? How are you 
going to fix this and when will you fix this?
    Secretary Kendall. Congressman, I have to pass that 
question over to Ms. Wright.
    Ms. Wright. I apologize for the microphone.
    First thing I will tell you that I have not seen the 
article, but I will absolutely read it today. It is very 
important. It is catastrophic if this is happening to our 
servicemembers, if it is happening to one or if it is happening 
to a multitude. So I would like to do that.
    I am the personnel and readiness person, so I am not 
responsible for DFAS, but I am responsible for the health and 
welfare of our soldiers and our military members.
    So, sir, I don't have an answer for you. I would like to 
take it for the record, but more importantly, I would like to 
follow up on the one particular person and fix that right away, 
see what we have for the system issues, involve the 
comptroller, and get back to you, if that is okay?
    Mr. O'Rourke. I look forward to following up with you, 
thank you.
    Ms. Wright. Thank you.
    Chairman Miller. Mr. Loebsack?
    Mr. Loebsack. I thank the Chairman. I want to thank the two 
Chairs and the Ranking Members for this hearing. I had seven 
veterans' forums last week at the beginning of the week, and 
what Congressman O'Rourke mentioned is something I hear often.
    I could just spend all of my 2 minutes sort of recounting 
all the stories that I have heard over the 7 years that I have 
been in office, so I won't do that. I just want to broaden out 
the discussion of mental health a little bit, if I may.
    Good to see you again, Dr. Woodson. I hope you will chime 
in on this, as well. And Dr. Petzel, it is really important 
what Congresswoman Davis brought up, the suicide issue, but I 
would like to go a little bit further than that, talk about 
transitioning from DoD to VA, in particular from active duty to 
the VA, and with respect to the mental health care system that 
is in existence now with DoD and then going to the VA.
    Can both of you speak to that issue, please?
    Secretary Woodson. Yes, I would be happy to start and thank 
you again for this question, which is a really important topic.
    As we know, mental health issues have become one of the 
signature health issues out of the decade-plus of war. As Dr. 
Petzel said several moments ago, he and I have worked very, 
very closely together to harmonize and advance the care 
relative to mental health.
    It begins with a group that has been working on an 
integrated mental health strategy, so that we are enhancing the 
practice guidelines even as we hand off servicemembers who are 
transitioning to veteran status.
    We have a robust, collaborative effort on research to 
advance our understanding of treatment strategies that are 
important. We have a significant collaborative effort to insure 
transition is smooth in transition programs. Making sure that 
there is follow up at VA. We have developed a series of 
initiatives that are looking at what kind of care is being 
delivered and its effectiveness. And we discuss this every 
month in terms of how to move this ball forward.
    The development of applications that can be used by 
individuals who might have PTSD to enhance resolution of their 
symptoms. What has been interesting and this goes to a question 
that was asked earlier about suicide, is that we have learned 
something from the studies that have been done in the 
Department of Defense and in the Department of Veteran's 
Affairs. That in fact we have slightly different issues 
relative to the cohorts that we need to focus on and how we 
need to tailor some of our suicide prevention programs and 
campaigns.
    So within the Department of Defense, the biggest profile at 
risk are the young individual, first-time enlisted who has 
financial problems, relation problems, maybe previous family 
problems prior to coming into the service. Whereas in the 
Veteran's Affairs, it is the vet in their 50s or 60s with 
additional qualifiers. And so it has been very important to 
understand that bimodal set of events so that we can 
individually address what might be the factors for the people 
in our society and the people that we are responsible for that 
are most at risk.
    But the bottom line message I want to leave you with is 
that Dr. Petzel and I, as the people principally responsible 
for this, work enormously closely together to try and enhance 
our understanding, treatment strategies, prevention. And I 
would just say that you know, we are doctors, so we don't just 
concentrate on medical issues, we are talking about how to 
develop comprehensive programs writ large to get communities 
involved, crisis line. Try and educate families about risk 
factors and profiles of people at risk. So we co-sponsor 
suicide prevention conferences to bring our people together to 
look at what we should be doing and what advances should be 
made. So difficult problem, but we are 110% after this 
together.
    Secretary Petzel. Thank you. Mr. Chairman could I add just 
30 seconds to what Dr. Woodson said?
    Chairman Miller. Yes sir.
    Secretary Petzel. Thank you. Two things. Number one is that 
we have a series of case managers that we share that transit 
the seriously ill and injured people from the DoD into the VA 
Health Care System. And this includes people with serious 
mental illness. We are hoping that the Transition Assistance 
Program, the new TAP, is going to have in it an even better way 
of making a hot transfer for people that are ill, not 
necessarily in the seriously ill or injured group, but do need 
that kind of transition.
    And the last thing I would comment on, just to reiterate 
what Dr. Woodson said, I have been in the VA for a long time 
and worked with DoD for a long time. The level of collaboration 
and cooperation in the clinical sphere in medicine right now is 
unprecedented. I mean absolutely. We share so much and do so 
many things now jointly that we wouldn't have even dreamed of 5 
or 6 years ago.
    Mr. Loebsack. Thank you. And thank you, Mr. Chair, for 
indulging for such a lengthy period.
    Chairman Miller. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Secretary Wright, 
there has been a three-point series by the Colorado Springs 
Gazette that an investigative report, reporting, that talked 
about soldiers receiving less than honorable discharges due to 
minor infractions. And a lot of those soldiers are combat 
veterans from Iraq and from Afghanistan who also it was 
reported that had TBI and post-traumatic stress disorder in 
some of those instances.
    These, the nature of this discharges, disallowed these 
combat veterans from receiving any care under the VA. And so I 
am wondering if you, I am very concerned about this, and I 
wonder if you can comment on this?
    Ms. Wright. Sir I can comment on the transition portion and 
then I am going to turn it over to Dr. Woodson to comment on 
the medical diagnosis portion. So the minor infraction that you 
talked about could be a multitude of things. These individuals, 
whether they receive an honorable discharge or whether they 
receive a less than honorable, would still go through the 
transition program that all servicemembers leaving the program 
must go through. During that period of time, they receive not 
only counseling from the Department of Defense and Department 
of Labor, they also receive 6 hours of counseling classes from 
the VA.
    So what the Secretary of VA is concerned about is even when 
people leave with a dishonorable discharge, people going into 
kind of the homeless category, and so he wants that warm 
handoff through the VA system and we are working together.
    Now your question involved those that may have PTSD or 
another type of diagnosis that could have related to the 
dishonorable discharge----
    Mr. Coffman. Less than honorable. There is a difference--
less than honorable discharge versus dishonorable. There is a 
pretty significant difference.
    Ms. Wright. Yes sir, less than honorable versus 
dishonorable. So I am going to turn that over to Dr. Woodson 
because we are doing something to review those cases.
    Secretary Woodson. Again, thank you for the question and 
again, just to restate. I think at the heart of your question 
is whether or not some individuals are being discharged with 
less than honorable discharge, being denied benefits, and in 
fact have an injury of war. And so we have enhanced our 
screening and require screening that if someone is being 
discharged for what is considered bad conduct, bad conduct 
discharge, that they have to go through certain screening for 
PTSD and TBI to insure that that is not a contributing factor.
    So you know, heretofore, there were examples of individuals 
because, you know, line leadership just was not clinically 
oriented and someone did a bad thing. But the question was what 
was the root cause of that change in behavior? Was it a brain 
injury or was it PTSD? We now have screening mechanisms to look 
at those issues.
    Ms. Wright. Sir if I can follow up on one more thing. At 
the beginning of a war, we may have diagnosed them as having an 
adjustment disorder, which is different than PTSD or TBI of 
course.
    Mr. Coffman. Right.
    Ms. Wright. So we have rescreened those cases within the 
services. That doesn't mean we can reverse the discharge 
because it may not have been, you know, I don't know what the 
particular issue was that created that particular discharge. 
But we are working through each individual case to see if we, 
if the missed diagnosis was there, which could have resulted in 
the, in an unfavorable discharge.
    Mr. Coffman. Thank you Mr. Chairman I yield back. I would 
just like to see treatment available to these soldiers, 
marines, airmen and sailors who have served this country in 
combat and are being discharged for minor, were discharged for 
minor infractions.
    Chairman Miller. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I was struck by the 
sincerity of each one of your answers, particularly when 
confronted with what appears to be a fail, like Mr. O'Rourke 
was mentioning earlier and wanted to get at. But I would like 
Mr. Kendall and Mr. Warren to think about the word 
accountability.
    Each of you have talked about deadlines and progress to be 
made in the future and those kind of things. If those things 
aren't met, what is, is anybody's performance evaluation 
effected? Are there consequences to anybody in the system for 
failure to meet the deadlines which are being set?
    Secretary Kendall. Absolutely. One of the things I have 
asked for the IPO to do and we will be doing this together with 
Mr. Warren is to lay out a set of commitments, a list of 
deliverables with schedules that we expect them to deliver. 
Those will be shared commitments between ourselves and DoD and 
VA And the IPO will be held responsible. It is similar to what 
we do with all of our Program Managers and Program Executive 
Officers. We are going to be managing this program----
    Mr. Conaway. So a year from now, we would be able to look 
at an evaluation report from somebody who had a standard to be 
met, didn't meet it. There would be a consequence on their 
personnel evaluation and they would either be fired or demoted 
or held accountable some way?
    Secretary Kendall. Yes.
    Mr. Conaway. Okay. Mr. Warren how about your side?
    Mr. Warren. The same sir.
    Mr. Conaway. Say again?
    Mr. Warren. Yes, the accountability and the responsibility 
to perform to the standards and the commitments we have made is 
in the performance plans and individuals are held accountable 
for those sir.
    Mr. Conaway. Okay. You just used the word ``past tense'' 
are or currently. So we could look at your system----
    Mr. Warren. Are and will be, sir.
    Mr. Conaway. But we could look at your system and actually 
see where somebody was disciplined or demoted or fired or 
something because they didn't meet some important deadline?
    Mr. Warren. Or their performance rating was less than 
outstanding. So again, remember the way the performance program 
works is you lay out----
    Mr. Conaway. How many get outstanding?
    Mr. Warren. I will get you back that number for the record, 
sir.
    Mr. Conaway. My issue is if everybody gets an outstanding, 
then that doesn't mean anything. So if----
    Mr. Warren. I will assure you, sir, that in the senior 
executive cadre at the VA, the number of outstandings has 
steadily decreased over the last couple of years as a result of 
the system of accountability that Secretary Shinseki has 
brought to the department, and not just for the senior execs 
but in other areas. And we are glad to get that to you for the 
record, sir.
    Mr. Conaway. I appreciate that.
    I yield back. Thank you.
    Chairman Miller. Which means there are a lot of bonuses 
being given out.
    Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chair. And I also wanted to 
sort of follow up on this accountability issue and benchmarks, 
et cetera.
    So you are saying that you have provided them, and I want 
to know how you are going to report back to us and your process 
by which you are meeting those benchmarks, how--what is your 
recommendation and the best ways for us to hold--to monitor 
what you are doing over the course of the next 18 months, I 
think you said.
    I wasn't here for part of the testimony, but my 
understanding was that you would have this complete by 2014, 
the integrated system--health system.
    Secretary Kendall. We have a set of near-term goals that we 
share that the IPO is executing. I haven't reviewed them in 
detail yet, but I will be doing that very shortly. And we will 
have commitments on what we will deliver and when. I don't 
think it will change substantially from the current plan.
    I am concerned about some of the schedule risk in some of 
the things we are doing. We will be in close contact with the 
Committees and their staffs as we go throughout this process. 
We know there is a lot of interest in these programs and in 
their success for very good reasons. And we also know that the 
history has been a source of some frustration.
    So we are going to keep in close contact. We will have 
specific benchmarks that we have to met, and we will inform you 
of how we are doing against them.
    Ms. Brownley. And you will have those complete by?
    Secretary Kendall. I should have some of those in place 
within the next few months from my perspective, although I 
think some already exist from the perspective of the VA that 
they are more confident of than I am right now.
    Mr. Warren. The VA has commitments in place. In fact, the 
near-term accelerators that we have been speaking about today, 
there are sites where we are deploying the integrated viewer. 
It is taking place during the month of July. At the end of the 
month of July, we will have it all--the polytrauma units. So we 
will complete that.
    By the end of December, we will have built that viewer. 
Where today you are seeing the information separate, but as a 
result of the work on data translation, you will be able to see 
a blended view. That will be by the end of December. So that is 
on the joint side. We are still finalizing the deployment 
schedule of that joint viewer at different facilities and 
capabilities in 2014. That is the piece Secretary Kendall was 
referring to.
    On the VA side, we have a commitment to ensure that we are 
deploying the core capability, which is about 15 percent of the 
IHR that the VA made the decision on back in September, by 1 
October next year at two locations, Hampton Roads and San 
Antonio.
    So there is a set of near-term that we are making great 
process on, and there are some out-year commitments that we 
have made in terms of deploying systems and making the 
necessary enhancements.
    Ms. Brownley. Thank you. I yield back.
    Chairman Miller. Ms. Tsongas?
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you all for 
being here today. I am glad that this joint Armed Services-
Veterans Affairs hearing is becoming an annual exercise. This 
is our second, and I hope we continue to have it in the coming 
years.
    There are a wide number of continuum of care issues which 
we have been discussing here today. So I think it just shows us 
how obvious it is and how little sense it makes to treat DoD 
and the VA as two separate stovepipes, when it comes to 
addressing some of the most critical health challenges our 
veterans are facing. And I appreciate all the work that you are 
putting into it.
    Certainly, survivors of military sexual assault are among 
the most vulnerable members of this population, and I greatly 
appreciate the efforts over the last several years by both DoD 
and the VA to improve the treatment of the victims of this 
crime within the Armed Services.
    I was heartened to learn yesterday in a meeting with senior 
representatives from the VA, including Assistant Secretary 
Mooney, that the documentary film ``The Invisible War'' is now 
mandatory viewing for senior VA managers. This is a movie that 
has really helped to draw very important attention to the great 
challenge of this issue.
    Among its many ways in which it did do so, it also 
painfully highlighted the multiple bureaucratic hurdles that a 
survivor of such assault has to endure to prove that their 
physical and mental health symptoms are connected to an 
incident of military sexual trauma within the VA, and shows 
that too often, victims are unsuccessful in pursuing their 
claims for assistance.
    So to address one aspect of this problem, the fiscal year 
2012 defense authorization included language that required the 
secretary of defense, in consultation with the secretary of the 
VA, to develop a comprehensive policy for the Department of 
Defense on going about the retention of and access to evidence 
and records relating to sexual assault involving members of the 
Armed Services, because that was one of the issues that we have 
come to understand.
    So my office continues to closely monitor implementation of 
this and other vital measures. I want to honor the 2-minute 
time limit. I will submit some questions for the record. But 
just to let you know that this is an issue that this Committee 
takes very seriously.
    And I look forward to--I heard some feedback yesterday as 
to the work you all are doing, and we will continue to monitor 
it closely. Thank you, and I yield back.
    Chairman Miller. I thank the gentlelady for yielding. Dr. 
Heck?
    Dr. Heck. Thank you, Mr. Chairman. Thank you all for taking 
the time to be here. My question has to do with the Integrated 
Disability Evaluation System, which attempts to take what was 
an almost 540 day process and get it down to about 295 days 
from profile initiation to either unit reintegration or 
separation.
    Can you give me an update on the progress of IDES and the 
cooperation between both DoD and the VA, specifically phase 
one, the MEB process, and phase two, the PEB/PDA process?
    Secondarily, do you believe that when an integrated 
electronic health record is finally achieved that that will 
help expedite the process even further? And what more, if 
anything, can Congress do to help the IDES process along?
    Secretary Woodson. Thank you, Congressman, for that 
question. Obviously, the Integrated Disability Evaluation 
System has been troublesome, particularly over the early parts 
of the war. Since we have brought a collaborative effort to 
looking at the process from beginning to end, I think a lot of 
improvement has been made.
    So that if you look particularly in the Navy and the Air 
Force, they are meeting standards relative to the MEB and the 
PEB process. The Army still has some outlier sites. And the 
reason of course is they have got the bulk of the wounded 
warriors and the folks in the IDES system. There still are 
about 36,000 folks in the IDES system.
    But we have made a commitment to improving the process of 
that information. So the single disability rating and the 
information flowing back from the VA to inform the final 
narrative summaries has improved tremendously.
    And so most of the medical boards are now meeting 
standards, and most of the PEB boards are now meeting 
standards. We have increased of course the number of personnel 
assigned, and we continue to refine the information management.
    So to the last part of your question about electronic 
transfer of information, it is not only about transfer of the 
health information, which most of the current-era servicemen 
and women have electronic records, but it is about getting that 
loose paper that we have talked about. And we have got a 
solution for that which will be in place in the near term 
basically.
    So my expectation is that we will be able to drive down 
even more the number of days relative to that particular 
process. There are some things that contribute to the total 
number on the periphery which are probably not as important, 
such as the number of leave days that are accrued and those 
kinds of things.
    But I don't know that that impacts sort of the quality of 
the experience and the fairness of the process. But there have 
been a significant improvement in the overall system.
    Chairman Miller. Dr. Wenstrup?
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Dr. Wenstrup. A couple questions on the health electronic 
medical records, if you will. And I am just curious how much 
provider input is being given as to how this system is set up. 
Is there an ease for them? And is there anything being done to 
reduce some of the administrative load to the providers so that 
they can see more patients?
    And then lastly, I just want to clarify. Hopefully, we are 
headed towards a goal of not just sharing two systems and 
having access to two systems, but actually having one DoD-VA 
record.
    And I will address that to both doctors. Thank you.
    Secretary Woodson. So, thank you so much for that question, 
because I want to point out a couple of things that in the 
proposed legislation, I was struck by the fact that as the 
Congress was requiring us to set up this advisory committee, 
there was no requirement for clinical input on that advisory 
board. And so I am taking you have some experience with 
electronic health records from the provider point of view.
    Let me assure you that Dr. Petzel and I represent the 
functional community and we have extensive integrated clinical 
informatics boards made up of clinicians that help develop the 
requirements. So it is functional community-driven, even as we 
know that the system has got to support other administrative 
processes.
    But it is not the pyramid turned upside-down where the 
administrative process, which is probably the mistake we made 
earlier in the Department of Defense, where the administrative 
process drives the development of the record so that it becomes 
difficult to use by the provider.
    So, I wholeheartedly accept your challenge in your 
question, and I think Dr. Petzel and I are meeting that in 
terms of how we are developing the requirements.
    Secretary Petzel. Thank you. I would echo what Dr. Woodson 
has said. And I would also point out that the VA record was 
really developed by a group of clinicians as a clinical 
management platform. It had nothing to do with the 
administrative functions.
    And the tradition within our organization is that the 
clinicians set the requirements and really drive the process of 
developing the record. And the IPO, with its clinical advisory 
board, has really adopted that principle. The two groups of 
clinicians from DoD and VA have worked very well together 
developing the requirements for the various packets of 
applications that are going to eventually hang on this record.
    And I would also point out that it is my sincere desire 
that we have a single record between these two organizations, 
as well as eventually across the Federal government.
    Dr. Wenstrup. Thank you.
    Secretary Woodson. Sir, if I might just add one particular 
point. I would be very happy to work with any clinicians or 
members of Congress who want to look at the functionality of 
what we are rolling out this year, to make sure that you 
understand what we are really delivering on in terms of that 
integrated interoperability piece. It is usable. That is the 
key thing. It is usable. So we would be happy to demonstrate it 
to you.
    Dr. Wenstrup. Thank you. And I would like to get that Web 
site you mentioned earlier.
    Chairman Miller. Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman.
    As a veteran and a citizen, thank you all for what you do. 
I appreciate the Chairman for holding this, again getting us 
together, and echo my colleagues' statement this is important.
    Mr. Pummill, two questions to you. I will ask them both 
together and get my response. You have the authority to issue 
interim, partial or temporary disability benefits. That 
obviously speeds the process along. It gets important things 
like voc-rehab to our folks right away before these become 
chronic problems.
    I have to tell you it doesn't appear to be happening in 
southern Minnesota, and when I check around the country. My 
question to you is: Are VA opposed to interim ratings and 
compensation that has been determined there is going to be at 
least 30 percent? Because I don't see it happening.
    My other question deals with private medical evidence. You 
use them for--DBQs, but we are having a problem getting that in 
to get some of the ratings done. I have a piece of legislation, 
along with Mr. Denham, to try and use that. Let's maximize our 
resources. Let's have a force-multiplier and use this medical 
evidence. Get them in. You already use them for DBQs, why not 
further them along?
    Those are my two questions.
    Mr. Pummill. The first question, are we opposed to the 
interim ratings? No, we are not. And I will have to check and 
find out what is going on.
    On the second one, we do have a problem getting private 
medical evidence. A lot of the raters that are out there that 
are actually doing the rating of the servicemembers, when I go 
around and talk to them, tell me that, you know, sometimes you 
have to query a doctor's office three, four times trying to get 
the private medical evidence. So, anything that we can get that 
would help us speed up getting that private medical evidence. 
We are hoping that the DBQs will be a big step in that, where 
the servicemember can walk in and say, ``Doctor, could you 
please fill out this DBQ?'' It is pretty self-explanatory; easy 
to fill in the blanks. And they can do it electronically or by 
hand, and get that from the doctor. And that would forego the 
need for those private medical records. But in the cases where 
we need them, it is tough.
    Mr. Walz. We have got folks that wander off. Anecdotally, 
there seems to be that the thought is that there is a bias 
against using that outside information, which always sticks in 
the craw of my folks because it is Mayo Clinic in some of 
those. I hope that is not the case.
    Mr. Pummill. No, it is not the case. From VBA, not only are 
we not opposed to the private medical records, we actively seek 
those private records and we are required by law to contact 
those doctors and attempt to get those records.
    Mr. Walz. I am glad to hear it. Thank you.
    I yield back.
    Chairman Miller. Mr. Barber?
    Mr. Barber. Thank you, Mr. Chairman. Thank you for 
convening this important hearing.
    I join with my colleagues in wishing that we were listening 
also to the secretaries of defense and veterans affairs, but I 
am pleased, of course, that the witnesses are here.
    I represent a district where there are about 90,000 
veterans, one of the largest in the country. I also represent 
the men and women of two military installations, Fort Huachuca 
and Davis-Monthan Air Force Base.
    The veterans' caseload is the highest of any in our office. 
I think that is probably true of all of my colleagues. And the 
frustration that they feel, the veterans that come to us, and 
my staff feel, in getting progress is never-ending.
    And while I understand and appreciate your efforts to 
develop systems that will take care of this backlog, I think 
one of the ways that you might understand our frustration is to 
spend an hour in one of our offices taking calls from veterans 
and listening to their frustration and their concerns. It is 
very enlightening and obviously a very emotional experience.
    So, my question to you is this. What are leaders of DoD and 
the Veterans Administration doing to set measurable progress 
metrics and holding people accountable? Leadership is about 
setting goals, holding people accountable, measuring progress. 
And I would like to know concretely from both of the 
departments what concrete measurements are you putting in place 
and how are you holding your staff accountable for meeting 
those measurements.
    That is the only way we are going to get this job done, and 
I would appreciate your answers. Thank you.
    Mr. Pummill. Congressman, from the benefits side, the 
compensation side and the backlog, we now, at the behest of 
Under Secretary Hickey, have some very strong and stringent 
metrics in place for not only the individual raters, but their 
coaches, their supervisors, the regional office directors, all 
the way up through the leadership.
    We know it is--you can look at the math. You can see what 
we have to do to knock out the number of claims that are coming 
in and the backlog. And we have set standards that people have 
to do that.
    We in VBA didn't meet what we were supposed to meet last 
year. We were--the backlog grew for a lot of reasons. We pushed 
our automation program, VBMS. We now have it out there. As a 
result of our performance last year, no senior executives in 
VBA received a performance award at the end of the year because 
we felt that it was an overall goal of our administration, of 
VBA, to make positive progress on the backlog. We didn't get 
there, so no performance awards were paid out.
    This year, we will look at the standards. We do see that 
some of the regional offices have really turned the corner. The 
ones that have got--some are really embracing VBMS and starting 
to churn out the claims. Thus, 2 months in a row of breaking an 
all-time record, but it is still not enough. We are still not 
where we need to be. We have a higher standard that we need to 
reach and we will hold people to that standard.
    Mr. Barber. Thank you.
    And from Defense?
    Ms. Wright. Thank you, sir, for the question.
    As we talked about before, we are the providers of 
information so VA can process the claims. We are not the claims 
processor. So it is our responsibility to provide that 
information.
    So, working with VA, there was about 4 percent that we owe. 
We have--and those are for the backlog--so we have two teams on 
the ground that are hands-on going through these records, 
calling back, and getting--seeing if this information is in DoD 
and providing that to the disability claims adjusters so they 
can adjust the claim.
    We also, according to VA, they said the single most 
important thing that we can do to assist them was to provide 
them with the certified service treatment records. So to hold 
people accountable, both myself as the Acting Under Secretary 
and the Vice Chairman of the Joint Chiefs of Staff, receive 
reports weekly to make sure that we are working towards the 
metric of 100 percent. We are at the 97 percentile now and we 
are working towards the metric of 100 percent within a 45-day 
window of when the servicemember departs DoD.
    Mr. Barber. Thank you.
    Mr. Chairman, I yield back.
    Chairman Miller. Mr. Scott?
    Then Dr. Roe?
    Mr. Scott. Thank you, Mr. Chairman.
    And ladies and gentlemen, thank you for being here.
    And I do believe you are sincere in trying to cure this 
backlog. And my questions will be more for Dr. Petzel and Mr. 
Warren, if you will.
    And we all know, as I just said, that the veterans are 
waiting too long to have their benefits processed and receive 
the benefits. And in the private sector, beneficiaries would 
actually be receiving an interest payment for the time between 
when the claim should have been adjudicated and when it 
actually was, and that is something that we may need to look at 
from our side.
    I am glad to hear about the VBMS software, the continued 
progress there that is going in. And my concern comes from the 
reports and the delays--and I know you have addressed this--
just the months that may take place before the veteran's 
records are processed into that VBMS system.
    And I know many of them have to be manually scanned and 
many of them probably have to be transcribed, and that 
contributes to the delay. But some of the things that I think 
also contributes to the confusion, the delays, veterans, 
because they are unable to track their records, resubmit their 
records, which means there is more paper coming into the system 
and more files.
    And so what is being done to speed up that or at the least 
track the records? And I think if there was a tracking system 
so that the veterans could go online and see that all of the 
paperwork had been received and that their claim was in process 
and where it was in line in being processed that may resolve 
some of that. And if you would speak to that I would appreciate 
it.
    Mr. Pummill. Yes, Congressman, I will answer that question.
    You hit the nail right on the head. Our big problem in VBA 
is always going to be--for the next few years, we are gonna 
receive a million claims a year. Most of those claims are gonna 
come from outside the Department of Defense. The Department of 
Defense claims that we are gonna get from servicemembers that 
are leaving active Guard and Reserve will have the electronic 
personnel, dental and medical records, so we will be able to do 
exactly what you say.
    For all the other veterans that send us in the paper and 
multiple copies of the paper, we are still going to have to 
take those records, ingest them through some scanning system 
that we have in place and put them into VBMS.
    Right now, as I stated before, we are only at 20 percent 
done with that right now. We still have 80 percent to go, and 
it is probably gonna take us about a year to get the ones that 
we have in. Meantime, a million new ones are gonna come in, in 
the same status. So it is a never ending problem that is always 
gonna be there.
    One of the future things that we have in VBMS is if you go 
into my eBenefits right now and you file a claim, you can see 
when your claim is filed. But what you can't see is, have we 
received your records, what is the status of your claim. Future 
upgrades of VBMS--I think it is December, 6.0, will allow the 
veteran to see when the claim arrived, what the status of their 
claim is, and the VBMS software has built into it right now for 
the scanning--if you--scan a document and a medical record and 
then 6 months later you send us the same medical record, the 
system will identify it that there is a duplicate of that 
record, because it is a semi-intelligent system, and will 
prevent that new record from going in.
    What it doesn't prevent is when it arrives, the clerk that 
gets it doesn't know that it is already in there, so somebody 
has to take that record and get it to the scanning operation, 
re-scan it, and then once it is there we realize we already 
have it.
    It will prevent having extra records, but we don't know how 
to prevent the work in the first place other than to notify the 
veterans, please go online, my eBenefits, register, look. You 
will see that we did get your file. You will be able to 
actually go online and look at your file.
    Right now I can go into my eBenefits--I went in there last 
week--and I was missing one of my personal files from my time 
in the Army. And through my eBenefits, I linked into my Army 
electronic record, was able to get the personal file downloaded 
and ship it over to the VA.
    It is still a little complicated, but we are getting better 
and better at it, Congressman.
    Chairman Miller. Dr. Roe?
    And then Mrs. Kirkpatrick.
    Dr. Roe. Thank the Chairman.
    And thank you all for being here. It is good to see you all 
again.
    And just a couple or three quick things. One of the--as Mr. 
Scott and Barbara both mentioned, the most common thing that a 
Congressman, probably everybody up here has, are a backlog of 
VA claims--why can't they get adjudicated quicker?
    And I know these 800,000 claims are likely a hodge podge of 
World War II, Korea, Vietnam, Desert Storm and so forth. So I 
think that is correct.
    How many of those are in an electronic format where you 
could actually look at them, that you have scanned them in? 
Where are they? That is one.
    And then the second question that I still want to get an 
answer to that I am still not sure I do. I know that the DoD 
has an orphaned electronic health system, and they are going to 
have to replace either the software or do new hardware 
upgrades.
    I think what everybody has asked but is still not clear to 
me is that when a young soldier, an 18-year-old soldier takes 
the oath and goes into the military, will that system that the 
DoD has, is an electronic record, be able to transfer directly 
to the VA and speak seamlessly to the VA when we have spent 
billions of dollars--we just spent a billion and we couldn't do 
that. It just didn't happen.
    So is that gonna happen? Because it is not clear to me--I 
have heard yes or no on that yet. So those are two questions I 
have.
    Secretary Woodson. So maybe I can respond to the last 
question first and then my VA colleagues can respond to your 
questions to them.
    The answer is yes. And that is why we have got to 
concentrate on the data interoperability.
    Dr. Roe. Yes. And then when?
    Secretary Woodson. So, again, by the end of 2013 and 
rolling out in 2014. And, again, I will show you the 
functionality if you would like, as to what that means.
    So the answer is yes.
    It is important to understand that we will always be 
evolving system, and we have to communicate, again, with the 
private sector. Many times this morning we have talked about 
the loose paper and issues relative to what we need to capture 
from the private sector. So it has got to be about data 
standards so that we can transfer information rather than what 
systems and when it is on, because we will never get the entire 
Nation to be on the same system.
    Dr. Roe. Correct.
    Secretary Woodson. But we do need to capture that data.
    Dr. Roe. One last thing, Mr. Chairman, just--and I will 
yield my time back--is one of the things the VA is doing I 
think is very good is the video conferencing for VA--for 
veterans who want to appeal. We did our first one in the 
district the other day. So that a disabled veteran doesn't have 
to go to Nashville and then drive to Washington, D.C. You can 
video conference that.
    And that will save tons of money, make it much easier. So I 
want to commend you on doing that and encourage you to continue 
to do that.
    I yield back.
    Chairman Miller. Ms. Kirkpatrick--then Mr. Kilmer.
    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    My question to the panel has to do with immediate mental 
health treatment. Twenty-two veterans commit suicide every day. 
Every time a new patient goes to the VA they have to go through 
the enrollment and eligibility process, which includes a 
physical exam. Oftentimes, this physical exam takes 2 months or 
more to set up, and this includes patients who need immediate 
mental health treatment.
    My VA caseworker is contacting hospitals directly to 
schedule these emergency physicals for these veterans who need 
immediate treatment.
    I know the Department of Defense does a quick evaluation 
before discharge, but there is no direct handoff of that 
evaluation to the VA. So my question is, how can the VA and the 
Department of Defense work together? What kind of system has to 
be put in place as soon as possible to make sure that these 
veterans get their immediate mental health treatment?
    Secretary Petzel. Congresswoman Kirkpatrick, let me just 
address the emergency part of this. If someone has an urgent or 
emergent medical--mental health condition, they will be seen 
immediately. They don't have to have a physical, they don't 
have to have anything else. They will be seen and evaluated for 
that mental health condition.
    And if it should transpire that they need to be admitted, 
et cetera, they can be admitted. The rest of the work in terms 
of determining eligibility, et cetera, will occur.
    I would like to talk personally with you about the specific 
cases. If they are something less than urgent or emergent, 
then, yes, there is a step process that one goes through, but 
it can be done in a pretty expeditious way.
    Ms. Kirkpatrick. Let's follow up, because evidently it is 
not happening. And it may be the criteria that is used for what 
is an emergency. So----
    Secretary Petzel. I would be delighted to talk with you 
about it.
    Ms. Kirkpatrick. The response from the Department of 
Defense, please?
    Secretary Woodson. Yes, I think previously in testimony, 
both Dr. Petzel and I talked about integrated mental health 
strategy, warm hand-off, case managers that handle 
servicemembers with identified mental health problems that need 
immediate and follow-up care.
    So I think over the last couple of years, we have really 
enhanced greatly identifying individuals who have particular 
mental health problems that need to be seen right away, and 
making sure that they get to those----
    Ms. Kirkpatrick. Doctor, let me ask, with that evaluation 
that is done right before discharge is there any way to make a 
quick hand-off of to the VA of that information and the results 
of that?
    Secretary Woodson. Absolutely. We do that. We transfer----
    Ms. Kirkpatrick. That is being done?
    Secretary Woodson. Yes. We transfer those----
    Ms. Kirkpatrick. It--okay.
    Secretary Woodson. --records.
    Ms. Kirkpatrick. I yield back. Thank you for the courtesy, 
Mr. Chairman.
    Chairman Miller. Mr. Kilmer and then Mr. Nugent.
    Mr. Kilmer. Thank you, Mr. Chairman.
    My question is for Dr. Petzel and Mr. Pummill. Obviously, 
admirably, many employers have shown leadership in hiring those 
who served.
    But I want to raise a concern that I have heard over the 
years from servicemembers reintegrating into civilian life who 
have reported that their military or veteran status has 
occasionally been used against them in the pursuit of 
employment or in the pursuit of housing, with employers or 
landlords raising concerns--raising from fears that someone 
would potentially get redeployed or--and in some cases, folks 
raising concerns about things like post-traumatic stress.
    In my state, I work with a coalition of veterans' groups 
and a bipartisan group to try to address this and expand 
nondiscrimination protections in our state.
    I was hoping if you could briefly tell us if you are aware 
of this type of discrimination against veterans and returning 
servicemembers?
    Mr. Pummill. Congressman, I have heard that kind of stuff 
anecdotally, but I can't relate a specific incident. I do know 
that there was a bill being pushed forward about 
antidiscrimination against veterans.
    And from a VA perspective, we are advocates of veterans. We 
are very supportive of any efforts in that area. We haven't had 
a chance to study the bill yet.
    I haven't actually seen it, but because of the subject 
matter discretion--discrimination, it would probably be an 
Office of Personnel Management and Department of Justice would 
have to be giving the opinions on that. But from a VA 
perspective, we support it.
    Mr. Kilmer. Thank you.
    Secretary Petzel. I would, Congressman, just make a 
comment. The VA has developed an educational package for 
employers that we use often at the employee forums that we have 
around hiring veterans that tend to debunk, if you will, the 
myths about veteran employees around mental health issues, as 
well as the rest of the issues that might arise, as you say, 
because of someone's veteran status.
    We are trying, working very hard to have employers 
understand that these are excellent employees. They are very 
well trained. They are disciplined. They are used to working 
hard and they are bright and they can contribute tremendously 
to a workplace.
    Mr. Kilmer. Thank you. I certainly agree with you and I am 
hopeful we can have more comprehensive protections. We will be 
getting a copy of that bill to you. Senator Blumenthal and I 
are working on a bill together and we will get that to you. 
Thank you.
    Chairman Miller. Mr. Nugent and Ms. Duckworth.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
this panel for your service to our country and what you do for 
our veterans. And being a father of three veterans currently 
serving, I do appreciate it.
    But one of the things I hear, and I have about 100,000 
veterans in my district, is that the vernacular between doctors 
and claim processors sometimes does not match up, which causes 
them issues when it goes to VBA, because they are looking for 
certain key words as they are scanning through it, because 
there is so much there.
    And I understand that. So my question to you is what are we 
doing to try to marry up or delineate the vernacular so it 
doesn't cause our veterans the problem? Because we know what 
the doctor's intent is. They go to the VA, but they haven't 
filled out the form with the proper wording and then it gets 
kicked.
    What, if anything, are we doing to address that?
    Secretary Petzel. Thank you, Congressman Nugent. And you 
have articulated an issue which, in the most part, is in the 
past.
    The development of the disability questionnaires, we call 
them DBQs, that are to be filled out by the VA doctor or the 
private doctor, basically answer all the questions. So there is 
no ambiguity in terms of the language. And a rater can take 
that DBQ and can do the rating basically from the DBQ, because 
it forces the clinician to answer the questions in a fashion 
that will be understood by the rater. I would ask Mr. Pummill 
if he has any other comment about that?
    Mr. Pummill. I would agree with Dr. Petzel.
    Mr. Nugent. Let me ask you this question I have. I don't 
mean to interrupt, we have a short time. Is that currently 
being done, particularly with docs at the VA, believe it or 
not, that is part of the problem. We are hearing that 
specifically today, still.
    Secretary Petzel. Yes, it is. And the other thing that I 
wanted to add is that we have, in the main, a separate group of 
physicians that do--and providers that do pension and 
compensation exams that are trained in the vocabulary, if you 
will, of claims and adjudication.
    I can't say that there isn't an occasional issue or 
problem, but in the main, these two systems I think work very 
well together.
    If you have a specific instance, I would love to talk to 
you about it and see if we can find out what happened.
    Mr. Nugent. Thank you, sir, very much. I yield back.
    Chairman Miller. Ms. Duckworth? Then Mr. Gibson.
    Ms. Duckworth. Thank you, Mr. Chairman. Well, I first want 
to just note that it is very clear that this panel is very much 
dedicated to our military men and women and to our veterans. 
Many of you have your own military service, decades of military 
service, as well as your decades in civilian service.
    I just have to note that we have in our midst General 
Wright, who is the first female helicopter pilot in the 
National Guard. And women in aviation stand on your shoulders. 
So thank you for that.
    Mr. Warren, I think it is widely known that VA's chief 
information office has had many successes in terms of the 
delivery of PMAS and other cost-saving measures and new 
systems.
    I want to make sure that we, as members of Congress, are 
doing the right thing in terms of how we work with you, both 
Mr. Warren and Mr. Kendall, in developing the electronic--
integrated electronic records system.
    I would like Mr. Warren to answer first and then, if we 
have time, Mr. Kendall. What can we do to help with this 
process as members of Congress? Are there--you mentioned, 
specifically Mr. Warren, there are a lot of reports that you 
have to do that take up a lot of time.
    But are there other things--restrictions on decisions you 
are making, budget authority? Are there different colors of 
money, developmental money versus acquisition money? What is 
there that Congress can do to help you move forward with this 
effort?
    Mr. Warren. Thank you for that question and the offer. I 
would say that holding--continuing to hold us accountable for 
progress is key. And I think a lot of the effort and a lot of 
the overcoming of institutional barriers has been a result of 
the interest and the desire to make sure we do not only what is 
right for our servicemembers and for our veterans. So thank you 
for that and I believe that is important.
    The challenge we are facing today is that there is language 
that constrains where we can execute dollars. It is pretty 
acute on the VA side. We have made a commitment to make 
deliveries by the end of December and by 1 October next year. 
Those are at risk because of some of the constraints on us with 
respect to execution.
    There is an ask for plans. Those are in process to be 
delivered up to the appropriate Committee staff for their 
review. And any help that we could get on making sure those get 
cleared so we can continue to make that critical progress would 
be greatly appreciated, ma'am.
    Ms. Duckworth. Could you provide that information to my 
office in writing at a later time?
    Mr. Warren. I would be glad to, ma'am.
    Ms. Duckworth. Thank you.
    Mr. Kendall, just----
    Secretary Kendall. If I may, Mr. Chairman, what I would ask 
from you is that you not over-constrain us. So I am very 
concerned, as I mentioned in my opening statement, about some 
of the language in various bills right now.
    But essentially we have to take some steps to get this 
program on track, these programs on track, that if we are 
overly constrained it will be very, very difficult for us. I 
need a little bit of time to sort a few things out. I have just 
recently been asked to take over this by the Secretary.
    For example, tying us to a strategic plan that was written 
last fall, which is very much overcome by events now, is not 
particularly helpful, I am afraid. It was only submitted to 
Congress relatively recently, but that plan does not really 
reflect some very fundamental changes that have been made since 
it was initially written.
    So there are things like that that would--that kind of tie 
our hands. There are also a lot of reporting requirements. We 
have no problem with keeping the Committees informed. We are 
happy to do that.
    The withholds that are in some of the language, I think, 
also, are becoming increasingly problematic for us. And 
particularly, right now for VA, that is a concern we have that 
is somewhat imminent.
    So I am--we are very happy to work with the Committees, 
very happy to work with the members and their staffs, and to be 
very transparent about what we are doing, but we ask that, in 
return, you be--relieve some of the constraints that you have 
in mind right now and allow us to take the best path forward 
and give us the opportunity to explain that to you.
    Ms. Duckworth. Thank you. I yield back, Mr. Chairman.
    Chairman Miller. Mr. Kendall, I appreciate your comments 
and the fact that you just came on board, but there were people 
before you, there is time before you, and there were billions 
of dollars spent before you.
    Mr. Gibson? Then Mr. Johnson.
    Mr. Gibson. Thank you, Mr. Chairman. I appreciate very much 
your leadership and I found this hearing very helpful this 
morning. Thank you to the panelists for your leadership and 
your commitment.
    The single integrated health care record, something that we 
are all endeavoring towards. I am the author of a bipartisan, 
bicameral bill to hold us towards that end, towards Mr. 
Warren's comment just moments ago.
    And my question may have been answered, but I want to just 
offer it again to see if there might be further clarification. 
It has to do with Mr. Kendall's opening remarks where he 
alluded to onerous language. And I just heard a listing.
    And I also heard Mr. Woodson, earlier he mentioned that it 
would have been helpful if the language included clinical 
input. I appreciate those remarks. And so, I guess I will ask 
Mr. Kendall, is there anything else that you want to highlight 
when you were talking about onerous language?
    Because we are trying to strike a balance here between, you 
know, not getting in the way of somebody trying to get to where 
we all think we need to go, and at the same time what Mr. 
Warren said, that we have got to hold everyone accountable 
because the American people expect it, and of course they 
should. So Mr. Kendall?
    Secretary Kendall. Thank you, Congressman. It is a good 
question. I would like to take it for the record in order to 
give you a more detailed answer. We have been reviewing the 
language. I am a lawyer. I respect lawyers more than most 
people perhaps. I would like to have our lawyers have a chance 
to take a look at it because there is some language in there 
that isn't quite clear to us what the intent is or what it 
really does to us.
    I would like to give you a response for the record that 
just kind of lays out specifically what it is that we might 
have a problem with, if that is all right with you.
    Mr. Gibson. I do appreciate it, and of course that would be 
fine. I just want you to understand that part of the reason why 
we are concerned is because we think we are all moving towards 
that same objective, and then we get these comments that, well, 
we are--it appeared to us like we are taking a step back. Now 
we have gotten some further context about that. But what we 
really want to do is just make sure we all get up on the 
objective because we know we need to get there. So thank you. I 
look forward to receiving that for the record. And with that, I 
yield back, Mr. Chairman.
    Chairman Miller. Mr. Johnson, then Mr. Wittman.
    Mr. Johnson. Thank you, Mr. Chairman. And thank you all for 
your service to the Nation. Mr. Petzel and Pummill, I would 
like to ask, are you aware of the situation in Atlanta where 
three mental health patients were--ended up dead and poor 
recordkeeping and poor management has been cited as one of the 
reasons for that?
    Secretary Petzel. Yes, sir. I am aware.
    Mr. Johnson. And are you aware of the allegation--and it 
may be a fact--that a former top administrator at the Atlanta 
VA medical center received performance bonuses over a 4-year 
span as internal audits revealed lengthy wait times for mental 
health care and mismanagement that led to the deaths?
    Secretary Petzel. I am not specifically aware of the track 
record or the award record for senior managers there, but I 
certainly can find out.
    Mr. Johnson. How about you, Mr. Pummill?
    Mr. Pummill. No, Congressman. I wouldn't be involved in the 
Veterans Health Administration. I work over at the Veterans 
Benefit Administration.
    Mr. Johnson. Okay. Well, Dr. Petzel, do top administrators 
at the VA still receive bonuses?
    Secretary Petzel. Congressman Johnson, yes. Some of the top 
administrators in the VHA, which is what I can speak for, do 
receive bonuses. They have been dramatically reduced. We call 
them awards, not bonuses. They have been dramatically reduced 
by almost I believe 50 percent over the last 3 years. But yes, 
there are some people who do receive awards.
    Mr. Johnson. And those awards would be based on what?
    Secretary Petzel. On their performance. They have--all 
senior executives have a performance contract and the awards 
have to be based upon the performance in relationship to their 
performance contract.
    Mr. Johnson. And who or what entity determines who gets the 
awards?
    Secretary Petzel. Well, the recommendation for an award, 
sir, is made by the supervisor of the individual. And that then 
works its way up through the administration. It would pass in 
the case of the Veterans Health Administration through me up to 
the department level. And eventually, all the awards are signed 
off on at the department level.
    Mr. Johnson. I see. And so approximately how many awards 
have been granted for the 2013 fiscal year?
    Secretary Petzel. I would have to take that for the record, 
Congressman. But the awards I think that we are talking about 
would be administered after the end of the fiscal year. They 
are based upon the performance during this fiscal year, which 
would be 2013. So technically there would be no awards that 
have been administered yet.
    Mr. Johnson. I see. What about 2012?
    Secretary Petzel. I would have to take that back for the 
record, sir. I do not have that on my mind.
    Mr. Johnson. All right. And I yield back. Thank you.
    Chairman Miller. Mr. Wittman?
    Mr. Wittman. Thank you, Mr. Chairman. Panelists, thank you 
so much for joining us today. I want to ask, if you would, to 
just limit your responses to yes or no so I can get through 
these questions.
    I will begin with Secretary Pummill. With appropriate 
privacy release consent, are you willing to work with pro bono 
law schools like the College of William and Mary's Veterans Law 
Clinic and let them inside the benefit claims process?
    Mr. Pummill. Yes.
    Mr. Wittman. Secretary Warren, is a recently discharged, 
combat-wounded soldier flagged in a system in a way that their 
claim is streamlined electronically for immediate review and 
processing?
    Mr. Warren. Sir, I can't answer that question. But I will 
get it for the record, sir.
    Mr. Wittman. Okay. Thank you. Secretary Warren, again, you 
know, you heard from Mr. Runyan, with today's technology, we 
can pull records faster than we can in the past. The VA's 
internal procedure is to wait 60 days after requesting a 
record, and then an additional 30 days to follow up. Ninety 
days of waiting. This is your procedure. Yes or no. Can you 
change it and reduce the time?
    Mr. Warren. I believe testimony will show that for 
individuals on active duty that are going through the 
transition, we have changed that. But because of the duty-to-
assist requirements--and Mr. Pummill can answer that better 
than I can in terms of what legal and legislative requirements 
are with respect to that. But glad to get you a more detailed 
answer for the record.
    Mr. Wittman. Okay. I would like just a straightforward yes 
or no. Seems to be pretty significant. Can you or can you not 
reduce the time?
    Mr. Pummill. Yes.
    Mr. Wittman. Okay. Thank you. Secretary Woodson, you are 
discharging servicemembers who you know have serious injuries. 
Amputees, suicidal PTSD patients. Yes or no. Do you communicate 
with the VA to prioritize these veterans and ensure they have 
the proper paperwork transitioning to the VA?
    Secretary Woodson. Yes.
    Mr. Wittman. Also, can a veteran with no recorded--and I 
will ask this of the VA panel members--can a veteran with no 
recorded medical history documenting a service-connected 
disability claim something as service-connected in a VA claim 
years, even decades after the fact, for an injury that very 
well could be connected with aging?
    Mr. Pummill. Congressman, I can't answer that with a yes or 
no. Sorry. You could have something in our personnel record or 
your dental record or a buddy statement, or in the case of 
military sexual trauma, change in performance that would allow 
you to make a claim later on in your life.
    But for most cases, unless you have something in your 
medical record that is--substantiates a disease, injury or 
illness that occurred during active duty or a period of active 
duty for the Guard or Reserve, you would not be able to file a 
claim.
    Mr. Wittman. Okay. Very good. Thank you, Mr. Chairman. I 
yield back.
    Chairman Miller. Mr. Langevin?
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for their testimony today, and especially appreciate 
the update on the move to complete the project of transitioning 
over to electronic medical records and hopefully once and for 
all significantly reducing or eliminating the backlog that our 
veterans are facing.
    It is one of the number-one complaints and problems that I 
hear from among veterans in my district. So I do thank you for 
your work on that, and I hope that the project is completed as 
expeditiously as possible. The--obviously, the issues that are 
under discussion today are of course of critical importance and 
interest to all of us, and we certainly appreciate our 
witnesses sharing their expertise with us today. I want to 
focus on the path through the DoD and VA system for veterans 
suffering from neurological traumas such as TBI and spinal cord 
injury.
    And I wanted to ask if you can describe for us how their 
treatment and benefit trajectory varies from the baseline and 
what supplemental assistance is available other than normal 
benefits for those no longer able to move around comfortably in 
their homes.
    And let me say that in response to unmet needs that 
veterans organizations throughout--that are brought to my 
attention, I have introduced what is called the Veterans Home 
Buyer Accessibility Act last Congress to aid our injured 
servicemembers, modify their homes to ensure that they are 
accessible. And I certainly plan to introduce it again in this 
Congress. Has there been an examination of benefits shortfalls 
specific to neurological traumas, particularly with regard to 
adaptive modifications to homes? So if you could take both of 
those questions.
    Secretary Petzel. Congressman, I can begin. The VA does 
have an adaptive home modification program. Substantial--
thousands, I think even tens of thousands of dollars can be 
spent on modifying a veteran's home for mobility with, you 
know, within that home. I am not aware of the fact that there 
are restrictions or shortfalls in the benefit. And I would 
certainly like to work with you directly to find out exactly 
what those shortfalls are. We are not aware of them.
    And I would ask Mr. Pummill if he has any other comments, 
because VBA does administer some of those programs.
    Mr. Pummill. No, Congressman, I am not aware either. But 
what I will do is I will get with our veterans service 
organizations, our partners out there. They are our eyes and 
ears in America, provide us good information on veterans, and 
see what they have to say and what they can provide back to us.
    And I would just like to add, too, that, you know, as we 
are making progress on the backlog because of the assist we are 
getting from DoD, it is tri-fold. It is VA. It is DoD. And it 
is the veterans service organizations helping us get DBQs, 
fully developed claims, talking to veterans, doing the things 
that we need to do. So, they help us a lot and I will see what 
they can provide me.
    Mr. Langevin. That would be very helpful. I appreciate 
that. Thank you.
    I yield back.
    Chairman Miller. Thank you very much, Mr. Langevin.
    Thank you to the witnesses for being with us for a little 
over 2 hours. We certainly appreciate that.
    I thank all the members that were here today to ask some 
very pertinent questions. I would ask unanimous consent that 
all members would have 5 legislative days with which to revise 
and extend their remarks and add any extraneous material, 
subject to the hearing topic today.
    And without objection, so ordered.
    And with that, this hearing is adjourned.

    [Whereupon, at 12:11 p.m., the Committees were adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jeff Miller, Chairman

    Good morning. Welcome to this joint hearing of the Committees on 
Veterans' Affairs and Armed Services. I also welcome Chairman Buck 
McKeon and Ranking Member Adam Smith and, of course, my friend from 
Maine the Ranking Member of the Veterans' Affairs Committee, Mike 
Michaud.
    This is the second time in two years that these two Committees on 
which I am proud to serve have met jointly to review the collaborative 
efforts of the Departments of Defense and Veterans Affairs in assisting 
servicemembers with their transition from active duty to civilian life.
    A year ago we were privileged to have Secretaries Panetta and 
Shinseki at the witness table. Both of them testified at length 
regarding the progress VA and DoD were making in several key areas. I'd 
like to revisit two of those areas in my opening statement. First, the 
progress made in developing an integrated electronic health record. 
Second, the progress made in reducing the wait times associated with 
veterans' disability claims, which necessarily involves cooperation 
from DoD in the transfer of records.
    I'll start with the electronic health record. In response to my 
direct question at last year's hearing Secretary Shinseki remarked that 
the two departments had finally, after 17 months of discussion, agreed 
on a way forward on a ``single, joint, common Integrated Electronic 
Health Record'' that would be completed by 2017. The Secretary told us 
that each of those words - single, joint, and common--meant something, 
and that finally we were breaking through the cultural issues between 
the two departments that had stifled progress in the past.
    What a difference a year makes. Contrary to the Secretaries' 
testimony, the two departments are, once again, moving on their own 
tracks, with promises we've heard before about making two separate 
systems ``interoperable.'' Pardon my frustration, but it seems the only 
thing interoperable we get are the litany of excuses flying across both 
departments every year as to why it's taking so long to get this done.
    In response to this latest course correction, the House included an 
amendment to the National Defense Authorization bill, an amendment 
developed in collaboration with the leadership of the Armed Services, 
Veterans' Affairs, and Appropriations Committees, to direct the 
completion of an integrated health record by October 1, 2016. The 
message of the amendment is simple: No more excuses, get this done. I'm 
anxious to hear from our witnesses how they'll comply with the mandate 
of the amendment once it is enacted into law.
    The second issue I'll briefly touch on is the disability claims 
backlog. It's interesting to note that the progress made in reducing 
the pending inventory of claims the last few months correlates with the 
heightened Congressional oversight and media scrutiny. Well, none of us 
up here are going to take our foot off the gas when it comes to 
ensuring progress on the backlog. And although progress has been made 
lately, VA is woefully short of its own goals for the year.
    Going forward, ending the backlog necessarily requires a seamless 
records transfer from DoD. I look forward to hearing the status of 
those efforts and what more can be done. This problem of veterans 
waiting years for their disability claims to be decided must remain at 
the forefront of our consciences, especially as further troop draw 
downs occur over the next five years. It, too, is an issue where the 
excuses must end, and real, sustained progress must occur.
    Very quickly, just a bit of housekeeping before we proceed. To 
accommodate such a large contingent of members we have agreed to last 
year's framework that limited to 2 minutes each member's time to ask 
questions of the witnesses. Therefore, I ask unanimous consent that 
each member have not more than 2 minutes to question the panel of 
witnesses, starting with my own questions. Without objection, so 
ordered.
    Further, I ask unanimous consent to include all Member statements 
in today's hearing record. Without objection, so ordered.
    I now recognize Chairman Buck McKeon for his opening remarks to be 
followed by Ranking Member Mike Michaud, and then Ranking Adam Smith 
for their opening remarks.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud

    I want to thank the Chairs of the House Committee on Veterans' 
Affairs and Armed Services for holding this joint hearing today. 
Transition is a critical issue that greatly affects our servicemembers 
and veterans.
    This hearing is the second joint hearing our two Committees have 
held concerning transition. The purpose of this hearing is to reiterate 
our joint oversight commitment, and ensure that VA and DoD work 
together on behalf of the men and women who are sent into harm's way.
    At last year's joint hearing on this topic, the two Agency 
Secretaries appeared before us, sitting side by side. I am disappointed 
to see that neither is here today. I take this lack of personal 
engagement as a sign that they care less, that they are not as 
committed, that they have delegated - abdicated - ownership of this 
issue. My disappointment is solidified by receiving testimony in the 
eleventh hour. Clearly, this issue, and this hearing, is not a 
priority.
    I would submit to you that the government has struggled to fulfill 
the ``sacred trust'' to care for those who have served and sacrificed 
in defense of our Nation. After twelve years of war, we know transition 
is the critical first step, and it requires the cooperation of many 
agencies to accomplish successfully. I do not believe we have made any 
measurable progress in getting the two agencies before us today to work 
more effectively together.
    The Department of Defense has announced it will put out to bid for 
a new system to manage its health records. Such a decision appears to 
back an interoperable approach over an integrated one. An integrated - 
integrated, not interoperable - electronic health record is something 
that Congress mandated years ago. We have spent hundreds of millions of 
dollars. Delaying the delivery of an integrated - that is integrated, 
not interoperable - information sharing system runs directly against 
Congressional intent, and ultimately hurts our veterans.
    Also, of particular importance to our Committees is the claims 
backlog. Let me be clear, both VA and DoD have a responsibility to end 
the backlog by 2015. The claims backlog is not a ``VA issue''. DoD must 
do a better job of transferring veteran and servicemember's records to 
VA in a timely and complete manner.
    This includes the records of our National Guard and Reservists. It 
also includes late and loose records being sent to VA.
    Because benefits and health care affect so many servicemembers and 
veterans, DoD and VA must put aside their parochial differences and 
work more effectively together to ensure an integrated - that's 
integrated, not interoperable - process addressing transition issues.
    Over the course of the last several months we sent letters to the 
Secretaries, and the President, asking for their personal commitment 
and support. We requested concrete decisions be made in a timely 
manner. What we received in response is a no-show to this hearing, and 
a press conference that kicks the decisions down the road . . . again.
    And, it would appear that leadership is lacking not just at this 
hearing. During a recent Roundtable on the iEHR, industry leaders told 
us progress is not due to a lack of available technology solutions, but 
rather a lack of leadership. When two divisions in their companies 
can't - or won't - agree, the CEO steps in and mandates a direction. 
Where is DoD and VA's ``CEO''?
    Just recently, in a bi-partisan effort and due to ongoing 
congressional concerns with the lack of a unified vision between VA and 
DoD electronic health record programs, language was included as part of 
the National Defense Authorization Act for 2014. This language created 
a deliberate approach in developing a joint electronic health record.
    I am told that strategies have been modified and collaborative 
efforts are ongoing for both records transfer and iEHR. However, months 
continue to go by with seemingly no real progress.
    I look forward to hearing from our panelists today just how far 
they have come, and to learn about the path ahead on the transition 
issues that are the focus of this hearing today.
    Thank you and I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Corrine Brown

    Thank you, Messrs. Chairmen and Messrs. Ranking Members, for 
calling this hearing today.
    I believe it is our duty as Americans to provide proper care for 
our veterans and servicemen who have unselfishly put their lives on the 
line for our wellbeing. This starts with health care. Time has shown 
that we, as Members of Congress, and Senior Leadership of the 
Department of Defense, and Department of Veterans Affairs' have not 
been able to provide timely compensation for the work our servicemen 
and women did to defend this Nation from all enemies. While the VA has 
made incredible progress with its initiative to resolve all claims 
older than two years and now one year, there are still too many claims 
not being resolved in a timely manner.
    Secretary Hagel has stated that with the majority of claims being 
made for those veterans who served previous to Iraq and Afghanistan 
both the DoD and VA need to:

    <bullet>  Certify service treatment records so that claims 
processors know not to hold up processing to request additional 
records.
    <bullet>  Hold data-sharing summits every six weeks to look for 
ways to improve DoD and VA practices.
    <bullet>  Conduct separation health assessments to establish 
baseline medical conditions, which will speed future disability 
benefits claims.
    <bullet>  Improve the format of DoD service treatment records so 
that they are portable and can be quickly scanned by other users.

    I am concerned that while talking about pursuing these goals, the 
DoD is not fully behind the plan. Earlier this year, the DoD pulled out 
of joint program with the VA to develop one computer system that would 
be able to be used by both departments.
    Just the other day, there was an article in the Washington Post 
regarding a company that created a back-end computer program to have 6 
separate accounting programs be able to talk to each other. It cannot 
be that difficult to do what you each propose.
    Both the DoD and VA have a full understanding of what needs to be 
done to fix this issue with the integrated electronic health record 
program (iEHR), but, efforts to progressively move this program forward 
have proven diligently slow. You must put forth a greater effort to 
ensure that these veterans are awarded their benefits in a timely 
manner and their health care is seamless. I am resolute in my 
commitment to ensure the DoD and VA work toward their shared goal of 
achieving full interoperability of health care records. It is 
imperative that the DoD and VA make progressive moves together to 
ensure an effective system is ran between both agencies that will 
produce consistent service for our current servicemen and veterans.

                                 <F-dash>
                Prepared Statement of Hon. Frank Kendall

    Chairman McKeon, Chairman Miller, Ranking Member Smith, Ranking 
Member Michaud, and distinguished members of the Committees, thank you 
for extending the invitation to discuss the recent actions that the 
Department of Defense (DoD) has taken to assist the Department of 
Veterans Affairs (VA) to eliminate the disability benefits claims 
backlog and our collaboration on the integrated Electronic Health 
Record (iEHR) program. Although DoD is currently operating under 
significant resource constraints as a result of sequestration, 
including civilian furloughs, DoD will continue to work in conjunction 
with VA to provide exceptional care and services for America's service 
members and veterans. Thank you for your attention to this issue and 
for your continued support of our active and reserve component military 
members, and their families who serve with distinction every day and 
who deserve the best medical care and treatment as both service members 
and as veterans.

BACKGROUND - VETERANS' DISABILITY BENEFIT CLAIM BACKLOG
    Veterans' benefits are a vital extension of a holistic benefits 
package to sustain an all-volunteer force. DoD and VA are committed to 
working together to provide continuous, accessible, and quality health 
care for America's active duty military and veterans. When a service 
member completes his or her service obligation and separates from the 
military, DoD is responsible for ensuring that they are seamlessly, 
efficiently, and quickly transitioned to the care of Veterans Affairs - 
with all of their records.
    DoD currently provides VA with electronic access to approximately 
98 percent of the required personnel and administrative data for claims 
adjudication, including electronic ``read-only'' health records, and we 
meet together on a regular basis to close the gap on the remainder. We 
provide VA access to scanned images of all personnel records (including 
available DD Form 214) through a DoD data system web portal, and we are 
taking action to provide Veterans Benefits Administration employees 
with enhanced access to our electronic medical record data. DoD has 
electronically provided VA with the health data of more than 5.9 
million servicemembers who have separated since 1989. The ability to 
access and view this data has existed between all DoD and VA medical 
facilities on 4.7 million shared patients since 2007. Building upon 
past successes in real-time data exchange, the Departments have sought 
to go beyond point-to-point interfaces between their systems and to 
establish full data interoperability. Achieving interoperability will 
mean the Departments will use a common taxonomy that provides access to 
human and machine-interpretable data by doctors and patients anywhere, 
anytime. Health care record transfer from DoD is not a major factor in 
VA's current backlog.
    Over the last few months, both Secretary Hagel and Acting Under 
Secretary Wright have met with and listened carefully to the concerns 
and input from DoD's health care providers, leaders from the VA, and 
Veterans Service Organizations and Military Support Organizations. 
Their input has been vital to ensuring that our service members and 
veterans receive quality care, and their input has been very helpful in 
defining a path forward.
    On May 22, 2013, the Secretary of Defense and the Secretary of 
Veterans Affairs met with Senator Mikulski and the Senate 
Appropriations Committee on Defense in a roundtable discussion 
regarding the disability benefits backlog and we provided an overview 
of our actions to support VA.
    Most recently, on July 2, 2013, the Secretary of Defense, Under 
Secretary Kendall and Acting Under Secretary Wright met with Secretary 
Shinseki, Dr. Robert Petzel, the Director of the Veterans Health 
Administration and Ms. Maureen Coyle, the VA Deputy Chief Information 
Officer, to ensure that the efforts of both of our Departments are 
aligned and that appropriate progress is being made to address the 
backlog issue. Our meeting agenda specifically focused on our mutual 
efforts to help VA reduce the veteran disability benefit claim backlog, 
veteran homelessness, and our electronic health record systems.

DOD EFFORTS TO ASSIST VA WITH THE BACKLOG
    The most important thing DoD does to help VA process claims is to 
provide VA with the information that it needs. DoD provides information 
to VA in both electronic and paper form. With the exception of some 
records from visits to private health care providers since 2004, 
medical records have been transferred as electronic records. DoD 
provides Service Treatment Records (STRs), personnel and administrative 
data within 45 days from when a Service member separates from the 
military.
    The Department of Defense is working closely with VA to provide any 
information VA needs to enable them to complete the processing of 
disability claims. In collaboration with VA, we are also refining our 
processes by which we provide information to ensure future disability 
benefit claims can be processed by in a shorter time.
    For example:

    <bullet>  DoD has agreed to provide VA with certifications that 
STRs are complete with all known information at the time they are sent 
to VA. VA claims processors, following established VBA claims 
processing protocols, will not have to delay processing to request 
additional medical records when the service members' claim is not 
substantiated in the record VA has received from DoD. This will reduce 
one source of additional claims from adding to the current backlog and 
reduce future processing time. Certification began in earnest in April 
2013, and, with input from the Director of the Veterans Benefits 
Administration, we continue to refine this process.
    <bullet>  DoD provided a team of subject matter experts to the 
Veterans Benefits Administration in January 2013 to review the 
disability claims backlog to analyze cases where DoD has information 
that can assist VA in processing claims. The team has been assisting VA 
with the most difficult cases. The team has recently shifted to assist 
with the oldest claims, those that have been in process for over one 
year.
    <bullet>  Enhancing direct access to DoD electronic medical record 
data is extremely useful to VA in preparing claims for decisions. 
Enhanced access can increase VA production rates for any claims which 
are awaiting STR information - not just claims in the backlog, but at 
any stage in the process. We are fielding the Janus Joint Legacy 
Viewer, which will allow both DoD and VA to be able to access and read 
the other Department's electronic health records. The Joint Legacy 
Viewer is in operation now and will be fully deployed by December 2013. 
On July 1, 2013, a DoD Liaison cell comprised of senior military 
personnel with medical, administrative and personnel expertise was 
placed at VA to assist in the reduction and elimination of the backlog. 
This cell was requested by the Secretary of Veterans Affairs and agreed 
to by the Secretary of Defense to operate for six months.
    <bullet>  DoD has provided VA with approximately 5,000 accounts 
giving direct access to the Defense Personnel Record Information 
System, which allows disability claims adjudicators access to Official 
Military Personnel Files. Additionally, VA also has been provided with 
access to 300 accounts giving direct access to the Defense Finance 
Accounting Service to validate pay and retirement information. This 
same pay and retirement information is also provided daily to the VA 
Data Information Repository system.
    <bullet>  DoD also provided 15 Service members to the VA Seattle, 
WA, Disability Rating Activity Site, in support of an Integrated 
Disability Evaluation System (IDES) backlog in May 2013. These service 
members provide administrative assistance, which frees up disability 
benefits claims processors to speed up the overall IDES process.
    <bullet>  DoD and VA convene an Information Sharing Summit (usually 
80+ participants from all Services, Coast Guard, DoD and VA) every 6 to 
8 weeks to further the electronic exchange of personnel, medical and 
administrative information between the two Departments. This summit has 
met 5 times since January 1, 2013, to monitor process improvement 
events and major system developments to ensure alignment of all efforts 
in support of reducing the disability claims backlog and evolving this 
interchange to a truly paperless environment.

    The Department of Defense has also initiated the following actions 
to streamline processes for exchanging information, but these actions 
will assist with reducing the processing time for future claims, not 
claims in the current backlog:

    <bullet>  In January 2013, DoD initiated the establishment of a 
Separation Health Assessment (SHA) for all service members who do not 
request a disability claim upon their separation from the military. 
This assessment will provide VA with the ability to better assess the 
basis for a service connection on future disability benefits claims. VA 
will continue to conduct the assessment for those service members who 
do make a disability benefits claim at the time of separation. DoD will 
make the required policy changes associated with this action by the end 
of fiscal year (FY) 2013. We have begun to implement the SHA at some 
locations and we plan to complete implementation by the end of FY 2014.
    <bullet>  In January 2013, DoD committed to accelerate the 
deployment of the Health Artifact and Image Management Solution (HAIMS) 
in support of a move to a digital environment. Deployment is planned to 
be complete by December 2013. HAIMS will consolidate military and 
private sector treatment and medical images and artifacts and make them 
available for use by VA medical clinicians and VA disability claims 
processors, who will be provided with direct access. Once deployed, 
this will allow for electronic processing of information; lower 
storage, mailing requirements, and manual processing and facilities 
costs; and accelerate future claims processing.
    <bullet>  DoD and VA will conduct a pilot, beginning in September 
2013, whereby a version of the STR will be sent to VA in an electronic 
document format at the time a service member attends mandatory 
Transition Assistance Program in addition to the certified copy which 
is sent within 45 days from when the Service member separates from the 
military. This will give VA an archived version of the STR, which VA 
believes may reduce the time required to process a future disability 
claim by as much as 50 days.

SERVICE MEMBER TRANSITION ASSISTANCE PROGRAM
    In compliance with the Veterans Opportunity to Work (VOW) to Hire 
Heroes Act of 2011 (Public Law 112-526), and in accordance with the 
recommendations of the Veterans Employment Initiative Task Force, the 
Department of Defense, Military Departments and our interagency 
partners are successfully implementing the redesigned Transition 
Assistance Program (TAP). The redesigned TAP, including a new 
curriculum called Transition GPS (Goals, Plans, Success), is aligned 
with the VOW Act, as codified in in Chapter 58, title 10 United States 
Code, which requires all eligible Service members discharged or 
released from active duty after serving their first 180 continuous days 
or more (including National Guard and Reserves) to participate in Pre-
separation Counseling, Department of Veterans Affairs (VA) Benefits 
Briefings and the Department of Labor (DOL) Employment Workshop. While 
some Service members may be exempted from attending the DOL Employment 
Workshop, as allowed by Congress, every Service member will attend Pre-
separation Counseling and the revised VA Benefits Briefings.
    Additional components of the redesigned TAP include specialized 
tracks developed for Service members to tailor their transition program 
to correspond with their expressed interest in achieving their future 
employment goals through Higher Education, Career Technical Training, 
or Entrepreneurship. These specialized tracks are being piloted this 
summer and will be implemented across the Department of Defense by 1 
October 2013. The cornerstone of the redesigned TAP is the concept of 
Career Readiness Standards. These standards correspond to deliverables 
that all Service members are to meet prior to separation. The value of 
the Career Readiness Standards is ensuring we equip our service members 
with the tools they need to become valued, productive and employed 
members of our labor workforce cannot be overstated. We are, and have 
been, fully engaged in implementing the redesigned program.

BACKGROUND - INTEGRATED ELECTRONIC HEALTHCARE RECORDS (iEHR)
    In March 2009, President Obama directed the Department of Defense 
and the Department of Veterans Affairs to ``work together to define and 
build a seamless system of integration with a simple goal: When a 
member of the Armed Forces separates from the military, he or she will 
no longer have to walk paperwork from a DoD duty station to a local VA 
health center; their electronic records will transition along with them 
and remain with them forever.'' This directive built on the 
Congressional requirement established in the National Defense 
Authorization Act for Fiscal Year 2008 for the two Departments to 
``jointly develop and implement electronic health record systems or 
capabilities that allow for full interoperability of personal health 
care information between the Department of Defense and the Department 
of Veterans Affairs.'' Our Service members, Veterans, retirees, and 
eligible family members deserve nothing less than the best possible 
care and service our two Departments can provide. Successfully 
achieving the goals articulated by Congress and the President is 
fundamental to delivering on our promise to them and we are fully 
committed to doing so.
    In March 2011, DoD and VA agreed on a joint approach to develop a 
single longitudinal health record to be used by both Departments: the 
``integrated electronic health record'' or ``iEHR.'' This approach was 
intended to meld the Departments' ongoing efforts to improve their 
health information technology: firstly, by achieving interoperability 
of health data, as sought by the President and the Congress; secondly, 
by modernizing their respective healthcare management systems, which 
were each in need of replacement or upgrade (i.e., replacing the DoD's 
Armed Forces Health Longitudinal Technology Application (AHLTA) and 
replacing or upgrading the VA's Veterans Health Information Systems and 
Technology Architecture (VistA)). Acting on this decision, the 
Departments re-chartered the DoD-VA Interagency Program Office (IPO) -
established by Congress in the FY2008 NDAA to oversee joint data 
interoperability efforts - to accomplish this expanded mission.
    Together, the two Departments have made important steps toward 
achieving health data interoperability between DoD and VA and procuring 
the foundations of an underlying joint IT infrastructure. Specifically, 
we have:

    <bullet>  Made the DoD Health Data Dictionary (HDD), the common 
data model used by all DoD medical treatment facilities, openly 
available to the nation and initiated VA data mapping to ensure 
integrated, common data for all patient information across DoD and VA;
    <bullet>  Established the Development Test Center to provide a 
testing configuration that emulates the operational healthcare 
environment and infrastructure;
    <bullet>  Selected a joint DoD-VA Single Sign On / Context 
Management (SSO / CM) solution. ``Single Sign-On'' enables a user to 
access multiple applications after logging in only once. ``Context 
Management'' allows clinicians to choose a patient once during an 
encounter and ensure all required applications are able to present 
information on the patient being treated. This capability was 
successfully deployed to the Development Test Center and is now being 
deployed at San Antonio;
    <bullet>  Implemented a joint Graphical User Interface (GUI) pilot 
at North Chicago, Tripler, and San Antonio that displays information 
from both DoD and VA systems;
    <bullet>  Completed business process mapping for initial clinical 
capabilities;
    <bullet>  Developed integrated Program Level Requirements (iPLR), 
which detail the functional requirements for the program, e.g., 
laboratory, pharmacy, etc.;
    <bullet>  Developed and published the iEHR architecture and 
Technical Specifications Package that provide high-level technical and 
business requirements to enable a standardized and interoperable 
solution.; and
    <bullet>  Begun work on a number of data interoperability 
``accelerators.''

A SHIFT IN STRATEGY FOR iEHR
    In December of last year, Secretaries Panetta and Shinseki directed 
a joint review of the iEHR program to simplify and accelerate the 
achievement of data interoperability while reducing the cost and 
technical risk of what had proven to be a complex and expensive joint 
IT development program. This February, they agreed to specific actions 
for each Department; these agreements have since been reinforced by 
Secretary Hagel. While some may have interpreted this shift in strategy 
as backing away from our commitment to achieve an integrated electronic 
health record, that is not the case.
    For the remainder of this calendar year, the two Departments are 
focused on achieving full interoperability of health data through a 
series of near-term ``Accelerator'' efforts. These efforts will result 
in each Service member and Veteran having a single, seamless, shared, 
integrated healthcare record. All patients, and the clinicians serving 
them, will be able to access all of their health data, whether the 
patient is currently a military member or Veteran and treated at a DoD 
or VA hospital. This interoperability will be achieved without 
replacing the healthcare management software system for either 
Department.
    In 2012, DoD made its Health Data Dictionary data model openly 
available for use by VA and other interested parties including non-
government healthcare providers. VA will map their data to this 
standard, thereby contributing to the establishment of an authoritative 
health data source for both Departments by January 2014. This will 
fully realize the health element of the President's vision for a 
Virtual Lifetime Electronic Record, incorporating all clinical care for 
Service members and Veterans into a common, computable and 
interoperable health record, accessible wherever care is provided.
    For the DoD, achieving data interoperability is also the path 
forward to exchanging health information with private healthcare 
providers. Today, 65 percent of all Service members', dependents' and 
beneficiaries' healthcare is provided outside the military health 
network through private providers. Capturing this health information 
can only be accomplished through interoperability standards championed 
by the Department of Health and Human Services and being adopted by 
commercial health care providers. The use of open national standards to 
express the content and format of the information, not a single 
healthcare management software system, is the cornerstone of seamless 
exchange of health information.
    Secretaries Panetta and Shinseki also announced that the two 
Departments were revising their strategy for modernizing their legacy 
healthcare management software systems to use existing EHR technologies 
rather than bearing the cost and risk of designing, building and 
implementing an entirely new system. The two Departments agreed instead 
to use a ``core'' set of applications from existing EHR technology. 
Based on this core concept, VA determined that its best course of 
action would be to evolve its legacy system, VistA, to serve their 
modernization purposes. This decision left DoD with the need to 
determine whether modernization based on VA's existing VistA system, 
DoD's legacy AHLTA system, or one of the several commercially available 
modern healthcare management systems was the best course of action for 
DoD.

DoD'S DECISION MAKING ON iEHR
    In testimony before the House Appropriations Committee and the 
Senate Armed Services Committee on April 16-17, 2013, Secretary Hagel 
committed to provide Congress his decision on the Department's 
modernization strategy within thirty days. Under Secretary Kendall and 
Acting Under Secretary Wright commissioned a team of senior 
stakeholders and technical experts to review and assess the options and 
to recommend a course of action for modernization. After confirming 
that further evolving AHLTA, DoD's legacy healthcare IT system, was not 
a viable alternative, the group focused on two alternative courses of 
actions: (1) pursue an evolution of VistA as the DoD ``core'' 
capability or (2) compete a modernization solution from a broader field 
of options. This team reviewed existing artifacts, studies and analyses 
and received briefings from the IPO and from VA/VHA leadership.
    The team concluded and recommended that the DoD and VA continue 
their ongoing near-term efforts to develop data federation, 
presentation and interoperability, particular through the completion of 
ongoing ``accelerator'' efforts. The team recommended that DoD select a 
core healthcare management system on a ``best value'' basis.
    The DoD assessment characterized the alternatives based on 
estimates of life cycle cost, schedule, performance, risk and capacity 
for further modernization and growth. The assessment leveraged data 
from a formal Request for Information conducted by the OSD Cost 
Assessment and Program Evaluation (CAPE) organization. This market 
research identified a broad field of existing EHR capability providers, 
with exiting commercial products that spanned a range of maturity, 
capability, cost and implementation risk. The responses to the RFI 
included commercial offerings as well as vendors offering an evolved 
VISTA solution, as well as a VA proposal for an evolved VistA offering.
    The assessment concluded that a competition provided the best 
opportunity for the Department to identify the best value solution - 
one that offered advanced clinical capabilities, low adoption risk, the 
potential to evolve further as new innovation enters the EHR 
marketplace and the potential for significant cost savings.
    The Department recognizes that adopting and evolving VA's current 
VistA software was a reasonable and sound business decision for VA. The 
Department of Veterans Affairs already employs a substantial workforce 
and infrastructure supporting the VistA system; VA caregivers are 
already trained on the system and its processes reflect the VA's 
organization and business practices. Adopting VistA would require the 
Department to duplicate these ``sunk cost'' investments by the VA. 
While evolving and enhancing VistA was a logical business decision for 
VA, DoD faces a very different situation.
    The DoD study confirmed that the Department requires a healthcare 
software management solution that can operate in its unique medical 
environment, interfacing with VA and private sector providers using 
open national standards and providing operational medicine capabilities 
in a variety of environments, often with limited or no connectivity. 
The Department will also require the capability to easily add 
specialized modules to address DoD needs, such as battlefield casualty 
care, in a timely manner. Given the options available to DoD, the best 
course of action for DoD is to conduct a ``best value'' competition 
acquisition of a core healthcare management software system.

THE DoD WAY AHEAD ON iEHR
    The study team reported its findings and recommendations to 
Secretary Hagel in May. This was formalized on May 21, 2013, with a 
memo to the Department outlining the way ahead for integrated 
Electronic Health Records, and reinforcing DoD's commitment to 
providing high-quality healthcare for current Service members, their 
dependents and our nation's Veterans. The Department informed the 
Congress of the Secretary's decision on May 22, 2013. In his memo, the 
Secretary directed the USD(AT&L) to assume direct responsibility for 
DoD healthcare records related acquisition programs and to conduct a 
full and open competition for the core set of capabilities for DoD 
Healthcare Management System Modernization. USD(AT&L) was tasked to 
lead DoD coordination with VA on the technical and acquisition aspects 
of healthcare records and healthcare management systems.
    USD(AT&L)'s first step was to restructure the Department's health 
care IT efforts. The former iEHR program is being refocused on two 
separate but related healthcare information technology efforts: the DoD 
Healthcare Management System Modernization (DHMSM) program, and the 
joint DoD/VA iEHR program. Both efforts will be conducted as highly 
tailored Major Automated Information System (MAIS) programs. USD(AT&L) 
will serve as the DoD Milestone Decision Authority (MDA) for both 
programs.
    The revised iEHR program will remain focused on the near term goal 
of delivering the tools and supporting data infrastructure to ensure 
integrated health data can move seamlessly between VA, DoD, and 
commercial healthcare providers with initial fielding targeted for 
early CY 2014. The IPO is taking the following steps to deliver 
seamless, shared integrated health information on an accelerated basis:

    <bullet>  Developing and deploying a data management service to 
give DoD and VA clinicians access to integrated patient health record 
information by the beginning of CY 2014.
    <bullet>  Accessing data through a single integrated view to nine 
high priority sites by the beginning of CY 2014.
    <bullet>  Making standardized, integrated clinical record data 
broadly available to clinicians across the DoD and VA later in CY 2014.
    <bullet>  Enhancing ``Blue Button'' functionality, which will give 
patients the ability to download and share their own electronic medical 
record information, enabling them take greater control of their own 
healthcare.

    The DoD Healthcare Management System Modernization program will 
focus on competitively acquiring a core set of capabilities to replace 
the DoD legacy Military Health System (MHS) clinical software systems, 
including the Armed Forces Health Longitudinal Technology Application 
(AHLTA), Essentris, Composite Health Care System (CHCS), and Theater 
Medical Data Store (TMDS) systems. The objective is to field a 
modernized replacement for legacy systems by 2017.
    The USD(AT&L) has designated a Program Executive Officer (PEO) to 
oversee both iEHR, which will continue to be executed by the Integrated 
Program Office (IPO), and DHMSM. A Program Manager (PM) has also been 
designated for the DHMSM program. The PEO will ensure that DHMSM works 
in close collaboration with iEHR to ensure compatibility and 
interoperability with the standardized healthcare data framework, 
infrastructure, and exchange standards being made available via the 
iEHR program.
    The PM for DHMSM is initiating internal planning activities for 
release of a Request for Proposals (RFP) that supports an objective to 
achieve full fielding of core DHMSM capabilities. It is crucial to note 
that a seamlessly integrated and interoperable electronic health 
records with full data exchange and read/write capability can be 
achieved without DoD and VA operating a single healthcare management 
software system. Just as someone can send and receive the same e-mails 
from a range of different e-mail software clients, health record 
information can be made available to patients and physicians without 
every hospital in the nation moving to a single healthcare management 
software system. In fact, private sector experience shows using the 
same software does not guarantee information can be shared. By 
competitively selecting a core to replace its Legacy Systems, DoD will 
have an opportunity to evaluate a range of modern commercial 
alternatives in order to determine a best value approach.

FY14 LEGISLATIVE IMPACTS FOR iEHR
    Current legislation passed by the House of Representatives 
addressing iEHR include Sections 713 and 726 of the National Defense 
Authorization Act (NDAA). The Department interprets Section 713 as 
requiring a report describing the Secretary's basis for selecting the 
preferred alternative. With this interpretation, the Department has no 
objection to Section 713 since it allows the flexibility to implement 
the Secretary's direction as outlined in his May 21, 2013, memo. 
Section 726, however, imposes extensive governance, design, schedule 
and reporting requirements and funding withholds that will impede the 
Department's ability to compete a full range of commercial solutions 
and significantly increase schedule risk and cost. In particular, the 
requirement to execute a joint iEHR development program per the Joint 
Strategic Plan is counter to the Department's competitive approach. 
Setting a deadline for deploying an integrated electronic health record 
could preclude a best-value solution. Overly restrictive criteria for 
meeting open architecture standards could also disqualify some 
effective, commercially developed solutions. The Department has similar 
concerns with the Military Construction, Veterans Affairs, and Related 
Agencies Appropriations Act which constrains VA funding for electronic 
health records. The proposed language, as written, constrains the VA 
funding to agreements established prior to the Secretaries new 
direction. The Department seeks to work with the Congress to streamline 
the multiple reporting mechanisms, conditions and oversight and 
advisory functions directed in Sections 713, 726, and the MILCON/VA 
Appropriations Act.

CONCLUSION
    Chairman McKeon, Ranking Member Smith, Chairman Miller, Ranking 
Member Michaud, and members of these distinguished Committees, again, 
thank you for the opportunity to testify today. The Secretary of 
Defense has taken very seriously the needs and responsibilities of the 
Department of Defense to provide first-class healthcare to our Service 
members and their dependents, and to enable the seamless sharing of 
integrated healthcare records between the Departments of Defense and 
Veterans Affairs. The Department is committed to ensure that our 
Service members receive the best service we can provide while in 
uniform. As importantly, we also have the responsibility to ensure that 
this same quality of health care and service is carried through to the 
end of a Service members' career when their status changes to civilian 
status as a Veteran.
    The Secretary remains committed to fully cooperating with the 
Department of Veterans Affairs to continue ongoing efforts to create a 
seamless electronic health record integrating VA and DoD data in the 
near-term. In addition, the Secretary believes a competitive 
acquisition to acquire a healthcare software modernization solution 
will achieve the best value for the Department's Service members by 
evaluating all potential solutions and considering the costs and risks 
of the options that will be offered to the Department.
    The Secretary and the Department greatly appreciate the Congress' 
continued interest and efforts to help us deliver the healthcare that 
our nation's Veterans, Service members, and their dependents deserve. 
Whether it is on the battlefield, at home with their families, or after 
they have faithfully concluded their military service, the Department 
of Defense and our colleagues at the Department of Veterans Affairs 
will continue to work closely together, in partnership with Congress, 
to deliver benefits and services to those who sacrifice so willingly 
for our Nation.
    We look forward to your questions.

                                 <F-dash>
                Prepared Statement of Stephen W. Warren

    Chairman McKeon, Chairman Miller, Ranking Member Smith, Ranking 
Member Michaud, and Members of the Committees, we appreciate the 
opportunity to appear before you today to discuss the Department of 
Veterans Affairs' efforts to reduce the backlog of disability 
compensation claims and to develop an Electronic Health Record (EHR) 
with the Department of Defense (DoD).
Disability Compensation Claims Backlog
    Today, many Veterans wait too long to receive benefits they have 
earned and deserve. That has never been acceptable to the Secretary, or 
the dedicated employees of the Veterans Benefits Administration (VBA); 
over half are Veterans themselves. VA is implementing a robust plan to 
ensure we achieve our goal of eliminating the claims backlog and 
improving decision accuracy to 98 percent in 2015.
    Over the last 3 years, the claims backlog has grown from 180,000 at 
the end of fiscal year (FY) 2009, to approximately 530,000 claims as of 
June 19, 2013. To meet the goal of eliminating the backlog by 2015, we 
have set to transform VBA into a 21st century organization. VBA's 
transformation is demanded by a new era, emerging technologies, and the 
latest demographic realities
    As background, it is important to note that over 60 percent of the 
pending claims are ``supplemental'' claims from Veterans seeking to 
address worsening conditions or file for new conditions (``issues''). 
Seventy-seven percent of these Veterans are already receiving 
disability compensation and are eligible for VA health care. 
Additionally, as VA does not limit claims submissions, Veterans can 
continue to apply for additional service-connected disabilities while 
their claims are pending.
    There are several factors that have impacted on the volume of 
incoming claims. In 2009, based on all available scientific evidence 
and the Institute of Medicine's Veterans and Agent Orange: Update 2008, 
VA made the decision to add three presumptive conditions (Parkinson's 
disease, ischemic heart disease, and B-cell leukemias) for Veterans who 
served in the Republic of Vietnam or were otherwise exposed to the 
herbicide Agent Orange.
    Due to this policy change, the number of compensation and pension 
claims received increased from 1 million in 2009 to 1.3 million in 2011 
(a 30 percent increase). In addition, beginning in October 2010, VBA 
identified these claims for special handling to ensure compliance with 
the provisions in the Nehmer court decision that requires VA to re-
adjudicate claims for these three conditions that were previously 
denied. VBA dedicated over 2,300 claims staff to re-adjudicating these 
complex claims, which required time-consuming and detailed review. 
Nehmer claims for all live Veterans were completed as of April 2012 and 
Nehmer survivor claims were completed in October 2012. The claims staff 
previously focused on these Agent Orange claims are now working on 
reducing the backlog. As of June 19, 2013, VA has processed 
approximately 280,000 claims and awarded over $4.5 billion in 
retroactive benefits for the three new Agent Orange presumptive 
conditions to more than 166,000 Veterans and survivors. Our focus on 
processing these complex claims contributed to a larger claims backlog, 
but it remains the right thing to do for our Vietnam Veterans, many of 
whom waited a long time for these benefits. In 2010, VA also made an 
important decision to simplify the process to file disability claims 
for combat Post-traumatic Stress Disorder. These decisions expanded 
access to benefits for hundreds of thousands of Veterans and brought 
significantly more claims into the system.
    There are several other factors that have resulted in the 
submission of more disability claims and contributed to the backlog. 
These include VA initiatives to increase access and externally driven 
demand to address unmet disability compensation needs such as: 
increased use of technology and social media by Veterans, families, and 
survivors to self-inform about available benefits and resources; 
improved access to benefits through the joint VA and DoD Pre-Discharge 
programs; and increased outreach programs to inform more Veterans of 
their earned benefits, which can include compensation claims. The 
demand for disability compensation has also been impacted by: ten years 
of war with increased survival rates for our wounded; an aging 
population of previous era Veterans such as Vietnam and Korea, whose 
conditions are worsening; a difficult economy, and the growth in the 
complexity of claims decisions as of result of the increase in the 
average number of medical conditions for which each claimant files.
    The current composition of the inventory and backlog also includes 
claims from Veterans of all eras - from Veterans of the current 
conflicts to World War II Veterans who are just now filing a claim for 
the first time. The largest cohort of claims comes from our Vietnam-era 
Veterans who filed 448,000 claims in FY 2012, and made up 36 percent of 
the inventory and 37 percent of the backlog as of May 31, 2013. Gulf 
War Era Veterans make up 23 percent of the total inventory and 22 
percent of the backlog. Veterans of Iraq and Afghanistan conflicts make 
up 20 percent of the total inventory and 22 percent of the backlog. 
Veterans of the Korean War, World War II and all other eras make up 
less than 10 percent of both total inventory and backlog. The remainder 
of the inventory and backlog is from peacetime era Veterans.
    To meet the goal of eliminating the backlog, VBA is aggressively 
implementing its Transformation Plan, a series of tightly integrated 
people, process, and technology initiatives designed to achieve our 
goal of processing all claims within 125 days with 98 percent accuracy 
in 2015. VBA is retraining, reorganizing, streamlining business 
processes, and building and implementing technology solutions based on 
the newly redesigned processes in order to improve benefits delivery.
    VBA is deploying technology solutions that improve access, drive 
automation, reduce variance, and enable faster and more efficient 
operations. VBA's digital, paperless environment also enables greater 
exchange of information and increased transparency to Veterans, the 
workforce, and stakeholders. Our technology initiatives are designed to 
transform claims processing from the time the Servicemember first 
enrolls in the joint VA and DoD eBenefits system and submits an online 
application, to the issuance of the claims decision and receipt of 
compensation payments.
    VBA's major technology initiative to reduce the backlog is the 
Veterans Benefit Management System (VBMS). VBMS is a powerful 
paperless, Web-based, and electronic claims processing solution 
complemented by improved business processes. It is assisting in 
eliminating the existing claims backlog and serves as the technology 
platform for quicker, more accurate claims processing.
    National deployment of VBMS began in 2012, with 18 regional offices 
(RO) operational by the end of calendar year (CY) 2012. As of June 10, 
2013, all 56 ROs and our Appeals Management Center have fielded the 
first generation of VBMS paperless processing capabilities. All new 
incoming claims are being established and processed using the new 
system, which will gradually eliminate paper processing of claims. We 
estimate that with the development of additional automated 
functionality in the future generations of VBMS, it will help improve 
VBA's production by at least 20 percent (in each of FYs 2014 and 2015) 
and accuracy by at least 8 percent.
    There are over 12,400 users of VBMS to include Veterans Health 
Administration (VHA) staff and VSO representatives. VBMS has also 
successfully converted 133 million documents to images, which is the 
main mechanism for transitioning from paper-based claim folders to the 
new electronic environment. Veterans enrolled in the VA/DoD portal, 
eBenefits, receive electronic notification of changes in status of 
their disability claims, including notification of the claims decision 
and any benefit payments due.
    In addition, through the Veterans Relationship Management (VRM) 
process VBA engages, empowers, and serves Veterans and other claimants 
with seamless, secure, and on-demand access to benefits and military 
service information. Veterans have access to benefits information 
through multiple VA sources or channels - on the phone, online, or 
through eBenefits. VRM provides multiple self-service options for 
Veterans and other stakeholders.
    Also, as part of VBA's technology initiatives, the Veterans On-Line 
Application (VONAPP) Direct Connect (VDC) incorporates a complete 
redesign of the legacy Veterans On-line Application (VONAPP) system, 
leveraging the eBenefits portal. Claims filed through eBenefits use VDC 
to load information and data directly into the new VBMS application for 
paperless processing. Veterans can now file both original and 
supplemental compensation claims through VDC.
    Support from our partners and stakeholders is critical to better 
serving our Veterans, Servicemembers, and their families. VA's claims 
transformation changes our interactions with employees, other Federal 
agencies, Veterans Service Organizations (VSO), and state and county 
service officers.
    Fully Developed Claims (FDC) are critical to achieving VBA's goals 
and provide a method for our VSOs, DoD, and State and county partners 
to assist in gathering the necessary evidence to decide a claim. An FDC 
is a claim submitted to VA with all the material required for VA to 
make a decision, along with the Veteran's certification that nothing 
further will be provided. An FDC is critical to reducing ``wait time'' 
and ``rework.'' VBA currently receives 9.5 percent of claims in fully 
developed form. When a qualified FDC is received, VBA is able to 
discharge its evidence-gathering responsibilities under the Veterans 
Claims Assistance Act much more efficiently than in traditional claims. 
VA currently completes FDCs in about average time to complete all other 
claims. VBA's target for FY 2013 is to receive 20 percent of claims in 
the fully developed format with the help of our DoD and VSO partners.
    In addition, collaborative efforts are ongoing with DoD to allow VA 
to receive complete service treatment records (STR) - and to receive 
them electronically for faster and more efficient claims processing. In 
December 2012, VBA reached agreement with DoD to require the military 
services to certify a Servicemember's STRs as complete at the point of 
transfer to VA. The final medical treatment facility at each military 
service, including the National Guard and Reserve component, will 
certify the completeness of all STRs at the point of separation from 
military service. This will further increase the number of FDCs. This 
action has potential to cut as much as 60-90 days from the ``awaiting 
evidence'' portion of claims processing, and reduce the time needed to 
make a claim ``ready for decision'' from 133 days currently to 73 days 
for departing Servicemembers.
    We are working with DoD to be able to view DoD electronic health 
records information, which will enable VBA to review any DoD records 
that VBA does not already possess in order to complete claims. We are 
also working with DoD on a capability to provide information in the 
Armed Forces Health Longitudinal Technology Application system (AHLTA) 
as a print-to-portable document format (PDF). A pilot of this 
capability will begin in September 2013 to provide VA electronic data 
(PDF) of information contained in AHLTA at the time a Service member 
separates from the military. DoD will deploy the Healthcare Artifact 
and Image Management Solution (HAIMS) to provide a mechanism for 
scanning and uploading paper documents to make them readily available 
to VA. Additionally, the technology could also be used to scan and 
upload paper medical record items received from private-sector 
providers. DoD has initiated an accelerated deployment schedule for 
HAIMS with a goal of stopping the flow of paper STRs to VA by December 
2013.
    On April 19, 2013, VA announced a new initiative to expedite 
compensation claims decisions for Veterans who have waited 1 year or 
longer. VA claims raters are making provisional decisions on the oldest 
claims in inventory, which allows Veterans to begin collecting 
compensation benefits more quickly, if eligible. Veterans are able to 
submit additional evidence for consideration a full year after the 
provisional rating, before VA issues a final decision. Provisional 
decisions are based on all evidence provided to date by the Veteran or 
obtained on their behalf by VA. If a VA medical examination is needed 
to decide the claim, it is ordered and expedited.
    As a result of this initiative, more than 65,000 claims - or 97 
percent of all claims over two years old in the inventory - have been 
eliminated from the backlog. VBA staff are now focusing their efforts 
on completing all disability claims of Veterans who have been waiting 
over one year for a decision.
    It is important to understand that as a result of this initiative, 
metrics used to track the timeliness of benefit claim decisions will 
fluctuate. The focus on processing the oldest claims will cause the 
overall measure of the average length of time to complete a claim to 
rise in the near term because of the number of old claims that are 
being completed. VA's average time to complete claims will improve as 
the backlog of oldest claims is cleared and more of the incoming claims 
are processed electronically through VA's new paperless processing 
system. In addition, the average days pending metric - or the average 
age of a claim in the inventory - will decrease, since the oldest 
claims will no longer be part of the inventory.
    The Department already prioritizes processing of some claims, 
including the claims of seriously injured and Servicemembers separating 
through IDES as well as those of Medal of Honor recipients, former 
prisoners of war, the homeless, terminally ill, and those experiencing 
extreme financial hardship. The Department also prioritizes FDCs.
    VA has made huge strides in its journey to improve technology and 
provide all generations of Veterans the best possible health care and 
benefits that they earned through their selfless service. VA is 
committed to continue that journey, especially as the numbers of 
Veterans using VA services increase in the coming years.
Electronic Health Records
    In April of 2009, President Obama directed the DoD and VA to, 
``work together to define and build a seamless system of integration 
with a simple goal: When a member of the Armed Forces separates from 
the military, he or she will no longer have to walk paperwork from a 
DoD duty station to a local VA health center; their electronic records 
will transition along with them and remain with them forever.''
    The mission of both Departments is to fundamentally and positively 
impact the health outcomes of active duty military, Veterans, and 
eligible beneficiaries. As a result, VA and DoD are committed to 
creating a seamless health record integrating VA and DoD data, while 
modernizing the software supporting VA and DoD clinicians in the most 
efficient and effective way possible.
    Today, DoD and VA are already exchanging a significant amount of 
electronic information and are taking aggressive actions in 2013 to 
further expand these efforts. But, most of the information shared today 
is not standardized to support use in electronic clinical decisions. As 
an example, different names for ``blood glucose'' in the DoD and VA 
systems make it impossible to integrate and track blood sugar levels 
for diabetics across the two systems. Once this data is mapped to 
standard codes it will be possible to chart and track blood sugar 
levels across DoD and VA records. A key priority for both Departments 
is to standardize electronic health record data and make it immediately 
available for clinicians so they have the information they need to make 
informed medical decisions for our patients.
    In December of 2012, when presented with the revised cost and 
schedule information, the Secretaries directed that the Interagency 
Program Office (IPO) Advisory Board Co-Chairs and the Health Executive 
Committee (HEC) Co-Chairs prepare and provide ``quick win'' 
recommendations to accelerate interoperability and recommend changes to 
the governance structure and budget impacts. As a result, the IPO 
Advisory Board Co-Chairs and HEC Co-Chairs provided a plan which the 
Secretaries approved that included:

    Program Strategy: Adjusted the March 2011 iEHR acquisition business 
rules from ``buy'' commercially available solutions for joint use, 
``adopt'' a Department-developed application if a modular commercial 
solution is not available and one Department has a solution, ``create'' 
a joint application on a case by case basis if neither a modular 
commercial or Department-developed solution are available, to ``adopt, 
buy, create'' to leverage existing capabilities for joint use. The 
Departments will also define a ``core'' set of iEHR capabilities that 
would allow us to evaluate the selection of existing EHR products to 
reduce program risks and costs while accelerating implementation.
    Quick Wins: On February 5, 2013 VA and DoD agreed to four 
accelerators. First, VA and DoD clinical health data will be made 
interoperable and available in near real-time using translation 
mechanisms such as the Health Data Dictionary and DoD's adoption of 
Blue Button. This data interoperability work will be completed by 
January 2014. Second, we approved deployment of the presentation 
software called JANUS Graphical User Interface to five VA polytrauma 
rehabilitation centers and two associated Military Treatment 
Facilities. JANUS is the tool clinicians use to view VA and DoD health 
data simultaneously. Third, the Departments will create a VA-DoD 
Medical Community of Interest network and security infrastructure to 
enable the creation of a logical ``single medical enclave'' that meets 
both Departments' security requirements, provides equal access to iEHR 
services by both Departments, leverages existing DoD and VA existing 
infrastructure, and provides connectivity between DoD and VA medical 
networks. Fourth, the Departments will rapidly adopt an identity 
management solution to establish consistent methods for identifying 
patients across the two organizations.

    Under this plan, VA has committed to deploying an iEHR ``core'' 
based on VistA while DoD committed to evaluating available alternatives 
in order to make a ``core'' technology selection that will best fit its 
needs. In order to achieve the desired data interoperability between 
both Departments, both ``cores'' will conform to an agreed-upon set of 
standards that enable the secure and interoperable exchange of 
information.
    While the immediate focus is on accelerating data interoperability 
between the two Departments, the end goal remains the same - to make 
certain that VA and DoD are creating a seamless health record 
integrating VA and DoD data and modernizing the software supporting DoD 
and VA clinicians. As a result of a DoD review directed by Secretary 
Hagel to determine the best way forward for improvements in 
interoperability and EHR modernization, DoD has decided that they will 
use a competitive process in choosing their ``core.'' This will allow 
DoD to consider commercial alternatives that may offer them reduced 
cost, reduced schedule, and technical risk and access to increased 
current capability and future growth in capability by leveraging 
ongoing advances in the commercial marketplace.
    In today's world that means that VA and DoD don't have to utilize 
the same EHR software. Health record data integration and exchange is 
possible regardless of the software systems. In fact, as private sector 
experience has shown, using the same system does not guarantee that 
information can be shared. The important thing is that both systems use 
national standards and a common language to express the content and 
format of the information they share.
    To achieve the goal, the Departments are taking the following steps 
that will deliver seamless, integrated health information on an 
accelerated basis: We are creating a Data Management Service that will 
give DoD and VA clinicians access to integrated patient health record 
information. The service will retrieve data from across DoD and VA for 
a given patient in seven critical clinical areas-- medications, 
problems, allergies, lab results, vitals, immunizations, and note 
titles--representing the vast majority of patients' clinical 
information. The data will be mapped to open national standards--the 
same as those being adopted by the private sector--making the data 
computable and supporting health information sharing not only across 
DoD and the VA, but also with private sector providers. The data will 
be available in near real-time, so clinicians can rely on it for urgent 
clinical decisions. The standardized, integrated data will fuel a 
variety of apps, tools and views supporting clinicians.
    The Data Management Service will be developed and deployed by the 
beginning of CY 2014. Nine high priority sites will have access to 
these data through a single integrated view. DoD and VA intend to make 
standardized, integrated clinical record data broadly available to 
clinicians across DoD and VA later in CY 2014. We are also enhancing 
``Blue Button'' functionality, giving patients the ability to download 
and share their own electronic medical record information (in 
structured and coded format), helping them take control of their own 
health.
    Efforts to deliver the Data Management Service are currently funded 
through FY13 and are in the President's FY14 budget submission. This 
work leverages previous health data interoperability efforts funded 
through the Joint DoD/VA Interagency Program Office (IPO). The IPO's 
efforts to date to standardize data and provide the infrastructure to 
integrate and view electronic health information across the Departments 
are the foundation for the efforts to create a seamless health record 
by 2014.
    In the mid-term, both VA and DoD have identified the need to update 
their respective healthcare management systems, replacing or enhancing 
existing legacy systems to give clinicians and patients the best 
healthcare software support, including state-of-the-art clinical 
decision support and analytics, to provide our Servicemembers, their 
dependents and our Veterans with the best healthcare possible. VA with 
its large installed base, trained workforce and in-house development 
and support capacity has chosen to enhance its healthcare management 
system core capability based on an evolved VistA. This is a logical 
choice and a sound business decision for VA. But, the Departments will 
ensure that the acquisition of their respective healthcare management 
systems will deliver the capabilities needed to meet each Department's 
clinical requirements, while delivering the best value to the American 
taxpayer.
    The Departments intend to jointly determine and then leverage open 
standards, open architecture, and open published application 
programming interfaces (API), while still ensuring accessibility for 
users with disabilities, that will provide a strong shared foundation 
for both healthcare management systems. The Departments will also use 
mature solution approaches and will apply acquisition best practices 
(to include maximum use of competition) to efficiently address clinical 
needs. Where appropriate, VA and DoD will jointly acquire capabilities.
    To meet its need for modernized software to support clinicians and 
Veterans VA chose the ``core'' technology of VistA to reduce the costs 
and risks associated with the selection and implementation of a 
different technology. Most importantly, while we are engaged in 
continuously improving VistA, it is still one of the best electronic 
health record systems available worldwide. Because the source code to 
VistA is available via Open Source, we know that we will be able to 
achieve competitive pricing for any changes we need to make. The basis 
of the decision to utilize an evolved VistA as the iEHR core include: 
VistA satisfactorily meets the majority of the core criteria; VistA has 
an enormous investment of clinical and business knowledge imbedded into 
the system; VistA is able to be progressively modernize the system 
module by module with less risk; and a thriving and growing Open Source 
community exists to engage in evolving VistA to meet future needs.
    Through the President's leadership and the strong support of 
Congress, VA has made huge strides in providing all generations of 
Veterans the best possible health care and benefits through improved 
technology. VA in concert with its DoD partners is committed to 
creating a seamless record and to modernizing its health record 
software, in order to realize the President's vision of healthcare 
records that can be used across the range of national healthcare 
providers, including Defense, Veterans Affairs and commercial 
providers. This course of action will also ensure that we meet our 
commitment to providing our active duty military, Veterans, and 
beneficiaries with the healthcare they deserve now and in the future.
    VA and DoD are committed to our collaborations, and we continue to 
look for ways to improve our decision-making, achieve greater 
efficiencies, and accelerate the transition process for Servicemembers 
and Veterans. Thank you again for your support to our Servicemembers, 
Veterans, and their families and your interest in the ongoing 
collaboration and cooperation between our Departments. We appreciate 
the opportunity to appear before you today, and we are prepared to 
respond to any questions you may have.

                                 <F-dash>
                   Materials Submitted For The Record

        Letter To: Hon. Dan Beniskek, From: Eric Shinseki, (VA)

                   THE SECRETARY OF VETERANS AFFAIRS
                               WASHINGTON

                            January 4, 2014

    The Honorable Dan Benishek
    U.S. House of Representatives
    Washington, DC 20515

    Dear Congressman Benishek:

    Thank you for your cosigned letter regarding the Department of 
Defense (DoD) Centers of Excellence (CoE) for Vision and Hearing, and 
the Department of Veterans Affairs (VA)/DoD Extremity Trauma and 
Amputation Center of Excellence.
    Congressionally-directed CoEs work collaboratively to address the 
needs of Servicemembers and Veterans. The three CoEs you write about 
each receive guidance and direction through a joi nt DoDNA CoE 
Oversight Board. The Board consists of members from each of the 
military services, DoD Health Affairs, VA, the Joint Staff, and the 
Uniformed Services University of Health Services. This Board helps to 
ensure that the missions and goals of the CoEs are well-defined and 
create value by achieving improvement in outcomes through clinical, 
educational, and research activities.
    For fiscal year (FY) 201O through 2014, VA allocated $6.9 million 
to the Vision CoE. For FY 2012 through 2014, VA allocated $1.65 million 
to the Extremity Trauma and Amputati on CoE, and $1.74 million to the 
Hearing CoE. VA funding requirements for FY 2015 through FY 2018 are 
currently under review and planning.
    VA has contributed 6.6 full-time equivalent employees (FTEE) for 
the Vision CoE; 2.6 FTEE are currently filled, and four FTEE are in the 
hiring process. VA provides four FTEE for the Extremity Trauma and 
Amputation CoE, for which two positions are presently filled and 
individuals have been selected for the other two positions. VA staffing 
for the Hearing CoE is four FTEE for which one position is currently 
filled, and three FTEE are in the hiring process.
    The current governance agreements are Memorandums of Agreement 
(MOA) signed by the Acting Assistant Secretary of Defense (Health 
Affairs) and the VA Under Secretary for Health for the Vision CoE 
(signed October 2009), and for the Extremity Trauma and Amputation CoE 
(signed August 2010).
    There are 17,375 Servicemember records entered in the Defense and 
Veterans Eye Injury and Vision Registry as of August 28, 2013 . 
.Development of the joint military Hearing Loss and Auditory System 
Injury Registry by DoD is underway and should be completed in FY 2015. 
VA will provide data, in accordance with existing data sharing 
agreements between VA and DoD, to help populate this registry once it 
is completed by DoD. Although the Extremity Trauma and Amputation CoE 
does not have a requirement for a patient registry, this Center has 
used an online database to track all DoD amputee patients from 
Operation Enduring Freedom, Operation Iraqi Freedom, and Operation New 
Dawn (OEF/OIF/OND) since 2003. There have been a reported total of 
1,626 amputee patients from the OEF/OIF/OND cohort treated in all 
military treatment facilities. As of April 2013, a total of 1,265 OEF/
OIF/OND amputees have been provided some level of prosthetic services 
and health care by VA. Not all injuries to these patients were 
necessarily combat related; some are due to motor vehicle accidents, 
training accidents, and other causes.
    VA remains committed to partnering with DoD to provide 
comprehensive high-quality care and services to Servicemembers, and to 
our Nation's Veterans. If you have additional questions, please have a 
member of your staff contact Mr. Omara Boulware, Congressional 
Relations Officer, at (202) 461-6468 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e21030f1c0f402c011b02190f1c0b2e180f4009011840">[email&#160;protected]</a> A similar letter has been sent to the other 
cosigners of your letter.
    Thank you for your continued support of our mission.

    Sincerely,

    Eric K. Shinseki

                                 <F-dash>
                        Questions For The Record

                    QFR submitted by Thornberry, Mac
                   House Committee on Armed Services
    Question for: Honorable Frank Kendall

    1) Please describe the process that led to SECDEF's electronic 
health record (EHR) procurement decision. What steps is DOD taking, 
both internally and jointly with VA, to improve oversight and 
management to support the effective implementation for this decision?

    The Secretary of Defense convened an internal Department of Defense 
(DoD) review following his April 2013 budget hearings to examine the 
current state of the iEHR program and identify a way ahead for future 
EHR development and deployment. Based on the results of this internal 
review, which included inputs from previous analyses performed by the 
Director, Cost Analysis and Program Evaluation, as well as an 
assessment of the current Department of Veterans Affairs (VA) internal 
information technology, the Secretary of Defense issued a memorandum on 
May 21, 2013, reinforcing DoD's commitment to working with VA to 
establish healthcare data interoperability and directing the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) to oversee a competitive acquisition to modernize DoD 
healthcare management systems.
    Following the issuance of the memorandum, USD(AT&L) restructured 
DoD's health care information technology (IT) efforts to focus on both 
the DoD Healthcare Management System Modernization program and the 
joint DoD/VA iEHR program. By pursuing these efforts separately, the 
Interagency Program Office is able to focus near-term efforts to 
establish standards-based healthcare data interoperability between DoD 
and VA. Concurrently, DoD can pursue a competitive acquisition, 
consistent with sound acquisition business practices, to obtain the 
most capable clinical support system for our Service Members at the 
best value to American taxpayers.

                    QFR submitted by Thornberry, Mac
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren

    2) Please describe the decision-making process the VA used to 
determine that maintaining the existing Veterans Health Information 
Systems and Technology Architecture, or VistA, was the best approach 
for your organization.

    See attachment

                  QFR submitted by Langevin, James R.
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    3) I want to focus on the path through the DoD and VA system for 
our veterans suffering from neurological traumas, such as TBI and 
spinal cord injury. Can you describe for us how their treatment and 
benefit trajectory varies from the baseline, and what supplemental 
assistance is available other than normal benefits for those no longer 
able to move around comfortably in their homes?

    Outcomes data collected in the VA Spinal Cord Injury/Disorders 
(SCI/D) and Polytrauma/Traumatic Brain Injury (TBI) Systems of Care 
show that Veterans with SCI/D and TBI that receive rehabilitation in VA 
medical centers meet or exceed external non-Veteran benchmarks in 
functioning, community participation, and satisfaction with life. These 
outcomes reflect the outstanding rehabilitative care, prosthetic 
services, benefits, and adaptive modifications to the home and 
automobile that help Veterans with these severe disabilities to 
overcome common obstacles to achieve personal independence, positive 
life adjustment, and opportunities in meaningful areas of life. VA 
provides a wide variety of mobility aids for eligible Veterans with 
functional limitations due to neurological traumas and other health 
conditions. Mobility aids, like all other prosthetic devices and 
sensory aids, are made available based on a treatment plan developed by 
health care providers to address the specific needs of the Veteran to 
optimize independent mobility and home and community accessibility, and 
assist with other activities of daily living. Mobility aids provided by 
VA range from simple items, such as transfer boards and canes, to 
complex devices and installations, such as wheeled mobility and 
overhead lift systems that can help maneuver Veterans with severe 
mobility limitations around the home. Mobility aids are often augmented 
by devices that support activities of daily living such as 
environmental controls for activating home mechanisms and appliances, 
adaptive bathroom equipment to support self-care, and alternative 
communication devices and adaptive computer access for persons with 
communication challenges. Supplemental adaptations and specialized 
devices are provided for Veterans with cognitive difficulties such as 
memory lapses due to TBI. The Veteran and caregivers receive 
comprehensive education and training from VA clinical providers to 
ensure the provided equipment is used effectively and safely. 
Additionally, VA has a robust Housing Adaptation program that serves to 
modify certain Veterans or Servicemembers residences to accommodate 
their disabilities. Such adaptations afford individuals with functional 
limitations the capability to live at home in a barrier-free 
environment.
    Disability compensation claims for neurological conditions such as 
TBI and spinal cord injury receive expedited processing for seriously 
injured and very seriously injured Veterans. A large portion of these 
claims are handled through the joint VA/DoD Integrated Disability 
Evaluation System, resulting in disability compensation awards for 
separating Servicemembers at the time of discharge from military 
service. In addition to compensation, Servicemembers with a traumatic 
brain or spinal cord injury who meet certain criteria may be eligible 
for additional assistance for home adaptations and modifications, 
automobile allowances and adaptations, and statutorily-authorized 
special monthly compensation.

                  QFR submitted by Langevin, James R.
    House Committee on Armed Services
    Question for: Mr. Danny Pummill

    4) I want to focus on the path through the DoD and VA system for 
our veterans suffering from neurological traumas, such as TBI and 
spinal cord injury. Can you describe for us how their treatment and 
benefit trajectory varies from the baseline, and what supplemental 
assistance is available other than normal benefits for those no longer 
able to move around comfortably in their homes?

    Outcomes data collected in the VA Spinal Cord Injury/Disorders 
(SCI/D) and Polytrauma/Traumatic Brain Injury (TBI) Systems of Care 
show that Veterans with SCI/D and TBI that receive rehabilitation in VA 
medical centers meet or exceed external non-Veteran benchmarks in 
functioning, community participation, and satisfaction with life. These 
outcomes reflect the outstanding rehabilitative care, prosthetic 
services, benefits, and adaptive modifications to the home and 
automobile that help Veterans with these severe disabilities to 
overcome common obstacles to achieve personal independence, positive 
life adjustment, and opportunities in meaningful areas of life. VA 
provides a wide variety of mobility aids for eligible Veterans with 
functional limitations due to neurological traumas and other health 
conditions. Mobility aids, like all other prosthetic devices and 
sensory aids, are made available based on a treatment plan developed by 
health care providers to address the specific needs of the Veteran to 
optimize independent mobility and home and community accessibility, and 
assist with other activities of daily living. Mobility aids provided by 
VA range from simple items, such as transfer boards and canes, to 
complex devices and installations, such as wheeled mobility and 
overhead lift systems that can help maneuver Veterans with severe 
mobility limitations around the home. Mobility aids are often augmented 
by devices that support activities of daily living such as 
environmental controls for activating home mechanisms and appliances, 
adaptive bathroom equipment to support self-care, and alternative 
communication devices and adaptive computer access for persons with 
communication challenges. Supplemental adaptations and specialized 
devices are provided for Veterans with cognitive difficulties such as 
memory lapses due to TBI. The Veteran and caregivers receive 
comprehensive education and training from VA clinical providers to 
ensure the provided equipment is used effectively and safely. 
Additionally, VA has a robust Housing Adaptation program that serves to 
modify certain Veterans or Servicemembers residences to accommodate 
their disabilities. Such adaptations afford individuals with functional 
limitations the capability to live at home in a barrier-free 
environment.
    Claims for neurological conditions such as TBI and spinal cord 
injury receive expedited processing for seriously injured and very 
seriously injured Veterans. A large portion of these claims are handled 
through the joint VA/DoD Integrated Disability Evaluation System, 
resulting in disability compensation awards for separating 
Servicemembers at the time of discharge from military service. In 
addition to compensation, Servicemembers with a traumatic brain or 
spinal cord injury who meet certain criteria may be eligible for 
additional assistance for home adaptations and modifications, 
automobile allowances and adaptations, and statutorily-authorized 
special monthly compensation.
    The Veterans Benefits Administration (VBA) and Veterans Health 
Administration are also working together to revise the sections of the 
VA rating schedule for disabilities pertaining to neurological 
conditions. As part of the upcoming revisions to the schedule, VBA is 
considering how best to address the issue of neurological traumas.

                  QFR submitted by Langevin, James R.
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    5) In response to unmet needs that veterans organizations brought 
to my attention, I introduced the Veterans Homebuyer Accessibility Act 
last Congress to aid our injured servicemembers modify their homes to 
ensure they are accessible, and I plan to introduce it again this 
Congress. Has there been an examination of benefit shortfalls specific 
to neurological traumas, particularly with regard to adaptive 
modifications to homes?

    The Veterans Health Administration (VHA) has a number of housing 
adaptation programs that serve to adapt and/or modify a Veteran's/
Servicemember's residence to accommodate their disability or 
disabilities. These programs are managed under the Home Improvements 
and Structural Alterations grant; or the Veterans Benefits 
Administration (VBA) under the Specially Adapted Housing (SAH), Special 
Housing Adaptation, Temporary Residence Adaptation; or Vocational 
Rehabilitation & Employment Independent Living program.
    Adaptations and/or modifications are individually determined based 
on the medical feasibility for the Veteran/Servicemember to reside in 
their home, continuation with medical treatment and rehabilitation, and 
capability to live independently in a barrier-free environment. VBA's 
SAH program may assist with the purchase of a home to accommodate a 
Veteran's/Servicemember's disability or disabilities. VBA routinely 
reviews the program to ensure the program is meeting the needs of 
eligible Veterans. VBA also works closely with Veterans Service 
Organizations to incorporate their feedback.
    Veterans with neurological traumas such as traumatic brain injuries 
or spinal cord injuries may be eligible for SAH grants if they meet the 
statutorily defined medical eligibility criteria. Specifically, the SAH 
grant is available to Veterans and Servicemembers who are entitled to 
disability compensation for a service-connected, permanent and total 
disability due to: <bullet> Loss or loss of use of both lower 
extremities, such as to preclude locomotion without the aid of braces, 
crutches, canes, or a wheelchair; <bullet> Blindness in both eyes, plus 
loss or loss of use of one lower extremity; <bullet> Loss or loss of 
use of one lower extremity together with: 1) residuals of organic 
disease or injury, or 2) the loss or loss of use of one upper 
extremity, affecting balance and propulsion as to preclude locomotion 
without the aid of braces, crutches, cases, or a wheelchair; <bullet> 
Loss or loss of use of both upper extremities at or above the elbows; 
or <bullet> A severe burn injury.
    Additionally, Public Law 112-154 authorized a temporary expansion 
of eligibility for a Veteran or Servicemember who served after 
September 11, 2001, and is entitled to compensation for permanent 
service-connected disability that was incurred on or after September 
11, 2001, and that is due to the loss or loss of use of one or more 
lower extremities which so affects the functions of balance or 
propulsion as to preclude ambulating without the aid of braces, 
crutches, canes, or a wheelchair. This expansion is set to expire on 
September 30, 2014, and VA may not approve more than 30 applications 
for assistance in fiscal year 2014.

                  QFR submitted by Langevin, James R.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    6) In response to unmet needs that veterans organizations brought 
to my attention, I introduced the Veterans Homebuyer Accessibility Act 
last Congress to aid our injured servicemembers modify their homes to 
ensure they are accessible, and I plan to introduce it again this 
Congress. Has there been an examination of benefit shortfalls specific 
to neurological traumas, particularly with regard to adaptive 
modifications to homes?

    The Veterans Benefits Administration's Specially Adapted Housing 
(SAH) staff routinely review the program to ensure the program is 
meeting the needs of eligible Veterans. SAH staff also work closely 
with Veterans Service Organizations to incorporate their feedback.
    Veterans and Servicemembers with neurological traumas such as 
traumatic brain injuries or spinal cord injuries may be eligible for 
SAH grants if they meet the statutorily defined medical eligibility 
criteria. Specifically, the SAH grant is available to Veterans and 
Servicemembers who are entitled to disability compensation for a 
service-connected, permanent and total disability due to: <bullet> Loss 
or loss of use of both lower extremities, such as to preclude 
locomotion without the aid of braces, crutches, canes, or a wheelchair; 
<bullet> Blindness in both eyes, plus loss or loss of use of one lower 
extremity; <bullet> Loss or loss of use of one lower extremity together 
with: 1) residuals of organic disease or injury, or 2) the loss or loss 
of use of one upper extremity, affecting balance or propulsion as to 
preclude locomotion without the aid of braces, crutches, cases, or a 
wheelchair; <bullet> Loss or loss of use of both upper extremities at 
or above the elbows; or <bullet> A severe burn injury.
    Additionally, Public Law 112-154 authorized a temporary expansion 
of eligibility for a Veteran or Servicemember who served after 
September 11, 2001, and is entitled to compensation for a permanent 
service-connected disability that was incurred on or after September 
11, 2001, and that is due to the loss or loss of use of one or more 
lower extremities which so affects the functions of balance or 
propulsion as to preclude ambulating without the aid of braces, 
crutches, canes, or a wheelchair. This expansion is set to expire on 
September 30, 2014, and VA may not approve more than 30 applications 
for assistance in fiscal year 2014.

                     QFR submitted by Coffman, Mike
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren

    7) What are VA unique requirements for the electronic health record 
that you don't feel a commercial solution addresses and requires 
continued investment in a VA-specific solution?

    VA's rich history and success with its internally-developed 
electronic health record (EHR) can be attributed to the outstanding 
collaboration that has, and continues to, exist between our clinical 
users and the software developers. VA clinicians play a pivotal role in 
defining and prioritizing the EHR enhancements that most directly 
impact delivery of care to the Veterans we are proud to serve. Our VA 
system intentionally and necessarily contains software specific to the 
eligibility of our unique patient population. For example, VA providers 
document in the EHR whether care is related to a Veteran's service-
connected condition and this information then determines whether the 
Veteran pays a co-pay for the visit and whether we send a bill to a 
third party insurance company. The EHR contains VA-specific 
determinations related to exposures such as ionizing radiation or Agent 
Orange and is currently being expanded to capture care for health 
conditions that may be related to time on the Camp Lejeune Base. VA's 
EHR has also been modified over time to capture and continually improve 
treatment for military sexual trauma, posttraumatic stress disorder, 
traumatic brain injury, amputations, and an evolving list of conditions 
that our Veteran population faces based on their military service. By 
having an internally-developed core, we are able to rapidly implement 
additional VA-specific changes when needed to meet internal or external 
demands and we are able to rapidly share treatment best practices in 
new and evolving areas in order to improve care for our Veterans. Such 
modifications would not be made quickly, if at all, by a commercial 
vendor. VA's EHR is published in the open source and is used by many 
non-VA health facilities. Those non-VA facilities, in turn, enhance the 
software to meet industry-wide evolving health management needs and 
contribute those changes back to the open source community. By using an 
open Source EHR, VA is able to integrate enhancements made by others 
immediately without the significant planning and financial investments 
that would have to be made to have such enhancements made by a 
commercial vendor.
    Having core EHR functionality built and maintained by VA enables us 
to continue to rapidly expand our health data exchanges with private 
health care providers to expand the amount of health care data used in 
clinical decision-making. In an environment of rapidly evolving health 
IT solutions, having a VA-specific EHR core allows VA to integrate with 
best-of-breed components rather than purchasing a single, commercial 
EHR solution which may excel in some capabilities, but fall far short 
in others. VA feels strongly that a continued investment in a VA-
specific EHR core with integration of appropriate open source and 
commercial products provides the best solution for our patients, our 
providers, and the taxpayers. VA is committed to developing an EHR 
record that can exploit the value of a service-based architecture 
(SOA). SOA will enable us to modify clinical decision support in near-
real time, improve care coordination, and facilitate the integration of 
new software applications into our health information technology stack.

                   QFR submitted by Maffei, Daniel B.
                   House Committee on Armed Services
    Question for: Honorable Frank Kendall

    8) The DoD and VA are now working to implement a Service-Oriented 
Architectures (SoA) suite to achieve interoperability. Can you speak to 
the progress of this effort and why a SoA suite is the best solution 
for interoperability? What issues stand in the way for 
interoperability?

    An SOA can facilitate the delivery and use of healthcare data 
services by the Department of Defense (DoD) and the Department of 
Veterans Affairs (VA) by ``transporting'' messages between any DoD and 
VA electronic health record systems implemented in the future and the 
numerous information management systems used by private providers. 
Because of the complexities of medical record exchanges, such as 
mediating terminologies, simply transmitting messages is insufficient 
to provide interoperability between applications or even within the 
same application. To overcome these challenges, an SOA is envisioned to 
provide messaging services that ensure access for applications via 
standard protocols and support interoperability and data sharing.
    The SOA suite efforts completed to date include design, testing, 
engineering demonstration (proof of concept), security certification, 
and accreditation. Key milestones achieved include:

    <bullet>  Award of an SOA suite acquisition contract in March 2012; 
<bullet>  Establishment of commercial and Government development test 
environments to allow DoD and VA product developers and other approved 
users an opportunity to develop trial integrations with the SOA suite 
(the Government test site is in the Pacific-Joint Information 
Technology Center; the commercial test site is located in a contractor 
facility in Melbourne, Florida); and, <bullet> Implementation of the 
SOA suite at DoD sites in Hampton Roads and San Antonio.
    There are two challenges associated with achieving this level of 
interoperability. First, there is a technical challenge to ensure all 
Government and commercial capabilities adhere to the same data exchange 
standards required for interoperability. Second, the business process 
engineering efforts required of both parties must ensure the successful 
integration of standardized data.

                   QFR submitted by Maffei, Daniel B.
                   House Committee on Armed Services
    Question for: Honorable Frank Kendall

    9) As DoD and VA continue to address health records 
interoperability, it would seem that a modular approach that allows the 
departments to choose and integrate the best of each electronic health 
records provider would be ideal - delivering the best product at the 
best price. Have your offices studied this approach?

    Yes, the Interagency Program Office has considered modular 
development, as highlighted in the February 2013 Request for 
Information. The Department of Defense will continue to consider the 
appropriate degree of system modularity and its inherent trade-offs in 
the forthcoming competitive source selection process. It is important 
to note that there are significant benefits to acquiring a more tightly 
coupled group of key capabilities that will have been developed and 
tested to be both secure and fully integrated. Conversely, increased 
modularity brings with it increased development and integration risks 
which may introduce patient safety risks in addition to measured costs 
that would be borne by the Government.

                     QFR submitted by Scott, Austin
                   House Committee on Armed Services
    Question for: Honorable Jonathan Woodson

    10) A recent GAO report sites that acceptance of TRICARE by 
civilian physicians has declined to an estimated 70% between 2008 and 
2011. In some areas of the nation, TRICARE acceptance is under 50% for 
doctors accepting new TRICARE patients.
    There is also a disparity between Medicare and TRICARE 
reimbursement rates, and fourteen percent of civilian physicians in the 
GAO study said they do not take TRICARE because of the low 
reimbursement rates.
    What factors do you attribute to the declining acceptance of 
TRICARE?
    What factors account for the disparity between TRICARE and Medicare 
reimbursement rates?

    The number of TRICARE participating providers has actually risen 
slightly. In Fiscal Year 2012, the number of participating providers 
increased to a total of 415,500 providers. This followed a similar 
increase in Fiscal Year 2011, when there were 399,200 participating 
providers. The total number of participating providers increased by 15% 
in areas near military bases and by 2% in areas not near military 
bases.
    About 90% of the 9.6 million Uniformed Services beneficiaries enjoy 
access to a contracted provider network near where they work or live. 
However, we remain concerned with access for our beneficiaries and have 
submitted a legislative proposal to require providers who participate 
with Medicare to also participate with TRICARE. By law, TRICARE is 
required to follow Medicare's reimbursement fee schedule. Although we 
have not experienced any significant issues with contracting for 
sufficient numbers of providers to meet the health care needs of 
beneficiaries that live or work near our contracted networks (military 
bases or base closure sites), the intent of the legislative proposal is 
to improve access for our TRICARE Standard beneficiaries who live 
outside of the network areas.
    Our surveys indicate that, on average, only three to seven percent 
of a provider's practice in the United States, particularly those 
practices not located near military installations, is dedicated to 
treating TRICARE beneficiaries. We believe survey results indicating 
that seven of ten physicians are accepting TRICARE patients, if they 
are accepting new patients at all, is actually a good news story 
considering the small percentage of TRICARE patients seen in any 
typical provider practice. Beneficiaries may easily find providers who 
have accepted TRICARE patients in the recent past by using the online 
TRICARE Provider Search Tool, maintained by TRICARE contractors, that 
lists non-network providers who have submitted one or more TRICARE 
claims during the previous 14 months.

                      QFR submitted by Barber, Ron
                   House Committee on Armed Services
    Question for: Honorable Jonathan Woodson

    11) Secretary Woodson, I wanted to ask a question about TRICARE and 
our beneficiaries in the Philippines. For years, the Department of 
Defense has said there has been a problem of fraud by providers to 
TRICARE Management Activity in that country. TMA has implemented a 
number of policies that has had the result of reducing access to care, 
yet failing to combat fraud. At this time, TMA is six months into a new 
demonstration project, and a constituent of mine has kept me well 
informed on how it is proceeding. Mr. Secretary, I must say I am 
dismayed to report that the demonstration program has seen many flaws 
and I am quite concerned that beneficiaries are being limited to a 
number of providers, for example, one authorized hospital in a city 
larger than New York City. Many have seen their fees doubled or have 
had to pay up front for office visits. What is the Department's 
response to this situation? Can you please provide me a detailed report 
on the implementation of TMA's demonstration program since January 
2013, how much fraud DoD has found in TMA's work with Philippine 
providers, and how this new demonstration program is combating this 
fraud? Thank you for your timely consideration to these questions.

    (1) Providers have a choice to participate as approved providers, 
which may result in an insufficient mix of primary and specialty 
providers. The TRICARE Management Activity has approved specialty 
waivers in designated demonstration areas for beneficiaries to receive 
inpatient services at hospitals that are approved providers for 
outpatient services only. As of July 2013, there are 8 institutional 
providers and 151 professional providers delivering health care in 
designated demonstration areas for Phase I. Beneficiaries can still 
seek care from certified providers, professional and institutional, 
outside designated demonstration areas.
    TRICARE reimburses health care costs based on the lesser of billed 
charges or the Philippine fee schedule located online at http://
www.tricare.mil/CMAC/ProcedurePricing/SearchResults.aspx. To 
participate in the TRICARE Department of Defense Philippine 
Demonstration Project, providers have agreed to bill at the lesser of 
the billed charges or the Philippine Foreign Fee Schedule. Approved 
providers have agreed to collect only the appropriate deductible and 
cost-shares from TRICARE Standard under the Demonstration Project. 
According to TRICARE policy, beneficiaries who use TRICARE Standard, 
whether they reside overseas or in the United States may be required to 
pay their deductible and cost-shares up front when receiving medical 
services.
    (2) In response to your request for a detailed report on the 
implementation of TMA's demonstration program, we have enclosed a 
document outlining the Philippine Demonstration Project.
    (3) In 2008, the Department's aggressive action resulted in 
seventeen individuals convicted of defrauding the TRICARE program of 
more than $100 million. The Department's health care antifraud 
initiatives have resulted in a cost avoidance of approximately $255 
million from 2006 through the end of Fiscal Year 2011.
    (4) To combat fraud under the Demonstration Project, the 
establishment of an approved provider network allows the TOP contractor 
to screen out providers under prepayment review because of the 
providers' historical fraudulent claims activity before they become 
approved demonstration providers for TRICARE. Approved providers must 
comply with the on-site verification, certification, and credentialing 
requirements. The TOP contractor provides one-to-one education to 
approved providers to ensure the approved providers understand how to 
submit accurate claims. To date, there have been no identified 
fraudulent billing activities under the Demonstration Project.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    12) How many disability claims is the VA processing annually which 
were filed by sexual assault victims? Of those, what percentage is 
submitted by male victims?

    VA tracks ``sexual assault'' claims as posttraumatic stress 
disorder (PTSD) disability claims based on military sexual trauma 
(MST). The number of PTSD/MST claims processed varies. However, from 
August 2012 through July 2013, VA processed approximately 5,060 PTSD/
MST claims. Male Veterans filed approximately 1,480 (29 percent) of 
these claims.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    13) How many disability claims is the VA processing annually which 
were filed by sexual assault victims? Of those, what percentage is 
submitted by male victims?

    VA tracks ``sexual assault'' claims as posttraumatic stress 
disorder (PTSD) disability claims based on military sexual trauma 
(MST). The number of PTSD/MST claims processed varies. However, from 
August 2012 through July 2013, VA processed approximately 5,060 PTSD/
MST claims. Male Veterans filed approximately 1,480 (29 percent) of 
these claims.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Honorable Frank Kendall

    14) We are hearing a lot about musculoskeletal injuries that come 
as a result of long term wear of body armor and/or other equipment. How 
many disability claims are you processing annually that involve 
musculoskeletal injuries incurred as a result of the wear of heavy body 
armor and/or equipment? What are some of the most common ailments cited 
by veterans?
    The Department of Defense (DoD) continues to look for ways to 
reduce the load weight carried by its troops. More specifically, the 
Army is leveraging new material construction and design approaches to 
reduce the weight of the Improved Outer Tactical Vest (IOTV) and 
Soldier Plate Carrier System (SPCS). The current Generation III IOTV, 
which weighs 31 pounds (lbs) (with plates) for a size medium, is four 
percent lighter than the previous IOTV variant. These same approaches 
are applied to the SPCS, which weighs 23 lbs (with plates) for a size 
medium, to reduce the weight by three percent. As newer weight saving 
technologies become available, DoD will incorporate them to lessen the 
burden on the troops. DoD defers to the Department of Veterans Affairs 
for specifics regarding disability claims processing and common 
ailments cited by veterans.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    15) We are hearing a lot about musculoskeletal injuries that come 
as a result of long term wear of body armor and/or other equipment. How 
many disability claims are you processing annually that involve 
musculoskeletal injuries incurred as a result of the wear of heavy body 
armor and/or equipment? What are some of the most common ailments cited 
by veterans?

    VA does not track musculoskeletal injuries that are caused 
specifically by the wearing of heavy body armor and/or equipment, only 
these injuries generally. For all Veterans, the most common ailments 
are: 1. Tinnitus, recurring; 2. Hearing loss; 3. Post-traumatic stress 
disorder; 4. Scars, other; 5. Diabetes mellitus; 6. Lumbosacral or 
cervical strain; 7. Hypertensive vascular disease; 8. Limitation of the 
flexion of the leg; 9. Degenerative arthritis of the spine; and 10. 
Limited motion of the ankle.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    16) We are hearing a lot about musculoskeletal injuries that come 
as a result of long term wear of body armor and/or other equipment. How 
many disability claims are you processing annually that involve 
musculoskeletal injuries incurred as a result of the wear of heavy body 
armor and/or equipment? What are some of the most common ailments cited 
by veterans?

    VA does not track musculoskeletal injuries that are caused 
specifically by the wearing of heavy body armor and/or equipment, only 
these injuries generally. For all Veterans, the most common ailments 
are: 1. Tinnitus, recurring; 2. Hearing loss; 3. Post-traumatic stress 
disorder; 4. Scars, other; 5. Diabetes mellitus; 6. Lumbosacral or 
cervical strain; 7. Hypertensive vascular disease; 8. Limitation of the 
flexion of the leg; 9. Degenerative arthritis of the spine; and 10. 
Limited motion of the ankle.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    17) Information technology is critical to helping tackle the 
backlog of disability claims. What percentage of veterans are currently 
able to retrieve their Official Military Personnel File through the 
eBenefits online portal? What is the timeline and strategy to make this 
an option for all veterans (going back to Vietnam, Korea, World War 
II)?

    The Official Military Personnel File (OMPF) records are maintained 
in each of the military service's records management systems. Active 
duty Servicemembers and Veterans (including Reserve and National Guard 
members) who separated or retired from their respective branch of 
service on or after the dates specified below may access their OMPFs 
through the eBenefits online portal: <bullet> Army - Since October 
1994, 4.2 million OMPF records have been uploaded in its Interactive 
Personnel Electronic Records Management System. <bullet> Air Force - 
Since October 2004, 1.6 million OMPF records have been uploaded in its 
Automated Records Management System. <bullet> Navy - Since January 
1995, 1.6 million OMPF records have been uploaded in its Electronic 
Military Personnel Record System. <bullet> Marine Corps - Since January 
1999, nearly 900 thousand OMPF records have been uploaded in its 
Optical Digital Imaging-Records Management System. <bullet> Coast Guard 
- The Personnel Data Record (PDR), the Coast Guard's equivalent to 
DoD's OMPF, is unavailable electronically. The PDR is still maintained 
in paper format and is sent to National Personnel Records Center upon 
separation or retirement.
    As of July 22, 2013, 8.3 million OMPF records were available 
through the eBenefits online portal. VA does not have any information 
as to whether the Department of Defense plans on making this option 
available to all Veterans. If a Veteran's OMPF is not available 
electronically through eBenefits due to his or her military service 
ending prior to the date when his or her service branch digitalized its 
OMPF records, the records are maintained in paper form at the National 
Archives and Records Administration's National Personnel Records Center 
(NPRC) in St. Louis, Missouri. In these instances, eBenefits provides 
the Veteran with links to the request form (SF 180) and to the NPRC Web 
site.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    18) Information technology is critical to helping tackle the 
backlog of disability claims. What percentage of veterans are currently 
able to retrieve their Official Military Personnel File through the 
eBenefits online portal? What is the timeline and strategy to make this 
an option for all veterans (going back to Vietnam, Korea, World War 
II)?

    The Official Military Personnel File (OMPF) records are maintained 
in each of the military service's records management systems. Active 
duty Servicemembers and Veterans (including Reserve and National 
Guardsmen) who separated or retired from their respective branch of 
service on or after the dates specified below may access their OMPFs 
through the eBenefits online portal: <bullet> Army - Since October 
1994, 4.2 million OMPF records have been uploaded in its Interactive 
Personnel Electronic Records Management System. <bullet> Air Force - 
Since October 2004, 1.6 million OMPF records have been uploaded in its 
Automated Records Management System. <bullet> Navy - Since January 
1995, 1.6 million OMPF records have been uploaded in its Electronic 
Military Personnel Record System. <bullet> Marine Corps - Since January 
1999, nearly 900 thousand OMPF records have been uploaded in its 
Optical Digital Imaging-Records Management System. <bullet> Coast Guard 
- The Personnel Data Record (PDR) is unavailable electronically. The 
PDR (Coast Guard's equivalent to DoD's OMPF) is still maintained in 
paper format which is sent to National Personnel Records Center upon 
separation or retirement.
    As of July 22, 2013, 8.3 million OMPF records were available 
through the eBenefits online portal. VA does not have any information 
as to whether the Department of Defense plans on making this option 
available to all Veterans. If a Veteran's OMPF is not available 
electronically through eBenefits due to his or her military service 
ending prior to the date when his or her service branch digitalized its 
OMPF records, the records are maintained in paper form at the National 
Archives and Records Administration's National Personnel Records Center 
(NPRC) in St. Louis, Missouri. In these instances, eBenefits provides 
the Veteran with links to the request form (SF 180) and to the NPRC Web 
site.

                     QFR submitted by Tsongas, Niki
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren

    19) Information technology is critical to helping tackle the 
backlog of disability claims. What percentage of veterans are currently 
able to retrieve their Official Military Personnel File through the 
eBenefits online portal? What is the timeline and strategy to make this 
an option for all veterans (going back to Vietnam, Korea, World War 
II)?

    The Official Military Personnel File (OMPF) records are maintained 
in each of the military service's records management systems. Active 
duty Servicemembers and Veterans (including Reserve and National 
Guardsmen) who separated or retired from their respective branch of 
service on or after the dates specified below may access their OMPFs 
through the eBenefits online portal: <bullet> Army - Since October 
1994, 4.2 million OMPF records have been uploaded in its Interactive 
Personnel Electronic Records Management System. <bullet> Air Force - 
Since October 2004, 1.6 million OMPF records have been uploaded in its 
Automated Records Management System. <bullet> Navy - Since January 
1995, 1.6 million OMPF records have been uploaded in its Electronic 
Military Personnel Record System. <bullet> Marine Corps - Since January 
1999, nearly 900 thousand OMPF records have been uploaded in its 
Optical Digital Imaging-Records Management System. <bullet> Coast Guard 
- The Personnel Data Record (PDR) is unavailable electronically. The 
PDR (Coast Guard's equivalent to DoD's OMPF) is still maintained in 
paper format which is sent to National Personnel Records Center upon 
separation or retirement.
    As of July 22, 2013, 8.3 million OMPF records were available 
through the eBenefits online portal. VA does not have any information 
as to whether the Department of Defense plans on making this option 
available to all Veterans. If a Veteran's OMPF is not available 
electronically through eBenefits due to his or her military service 
ending prior to the date when his or her service branch digitalized its 
OMPF records, the records are maintained in paper form at the National 
Archives and Records Administration's National Personnel Records Center 
(NPRC) in St. Louis, Missouri. In these instances, eBenefits provides 
the Veteran with links to the request form (SF 180) and to the NPRC Web 
site.

                     QFR submitted by Kilmer, Derek
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    20) Please outline the difficulties in replacing staff in field 
offices. I have been told it takes as many as nine months. 
Specifically: a. How long does it take to replace a staff member? Are 
there any particular obstacles that make it more difficult to staff 
field offices? b. During that length of time, what happens to the 
caseload and the referrals that the vacant field staff position would 
normally work on?

    A) According to the Office of Personnel Management, a position 
should be filled within 80 days of being announced. The Veterans 
Benefits Administration is in-line with this guidance and typically 
fills positions at regional offices within 2-3 months of being 
announced. A number of factors may impact the time required to fill 
these positions. For example, bargaining unit positions must be posted 
for a specific length of time. Also, labor markets greatly vary from 
one geographic location to the next. Regional offices in large cities 
may face challenges recruiting and retaining qualified employees based 
on a higher cost of living. Regional offices in rural areas may be an 
employer of choice but have fewer applicants with necessary skill sets.
    B) During periods of time when field positions are vacant, the 
caseloads are redistributed to other employees who continue to work on 
them until new staff are hired and fully trained. Management takes 
necessary steps to adjust workload and help staff keep up with 
increased demands.

                     QFR submitted by Kilmer, Derek
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    21) I have heard from a number of stakeholders concern over how 
HUD-VASH vouchers are allocated and the data that both HUD and the VA 
use to make these determinations. In order to help promote better 
understanding of how decisions are made, please explain: a. how the VA 
uses state point-in-time data to determine number of homeless veterans 
who need vouchers, b. the method used by the VA to allocate this data 
to regions, and c. how the regions are ranked within the VA to 
determine need.

    The Department of Housing and Urban Development - Veterans Affairs 
Supportive Housing (HUD-VASH) program is an interagency effort to end 
Veteran homelessness, where HUD provides Section 8 Housing Choice 
Vouchers and VA provides wrap around case management and supportive 
services to promote Veteran participants' sustainment in permanent 
housing. Although the HUD-VASH program has been a notable success in 
the Administration's efforts to end Veteran homelessness, HUD-VASH 
vouchers are a finite resource that must be allocated in areas where 
the most need is identified, and these vouchers must be targeted to the 
most vulnerable and chronically homeless Veterans. VA and HUD work 
collaboratively to fairly and objectively determine the location of 
HUD-VASH vouchers based on the best data presently available to HUD and 
VA.
    A) It is clear that in order to end Veteran homelessness, the 
finite and limited number of HUD-VASH vouchers must be targeted towards 
those Veterans who are chronically homeless and/or especially 
vulnerable. Thus, to determine the location of fiscal year (FY) 2013 
HUD-VASH vouchers, HUD and VA formulated data methodology to target 
these valuable HUD-VASH resources towards the chronically homeless and/
or especially vulnerable homeless Veteran population. HUD uses a 
formula to assess relative need for HUD-VASH vouchers throughout the 
United States. HUD runs the point-in-time (PIT) data, VA data related 
to contacts with homeless Veterans, and PHA and VAMC performance data 
through the formula to determine the proportional allocation of 
relative need for each HUD continuum of care (CoC). Because HUD 
distributes HUD-VASH vouchers through local Public Housing Authorities 
(PHA), it is critical that the proportionate allocation of relative 
need is determined for each CoC. To better target chronically homeless 
and vulnerable homeless Veterans, the FY 2013 allocation of the HUD-
VASH vouchers had greater weight applied to the local PIT number of 
unsheltered homeless Veterans and the percent of chronically homeless 
Veterans served in the VA medical centers (VAMC).
    B)HUD and VA use applicable data resources to determine the 
proportional allocation of relative need by each CoC. The CoCs are then 
matched with VAMC and Community-Based Outpatient Clinics (CBOC) that 
serve Veterans in the CoCs' geographic area. It is through this 
matching process that HUD determines that a CoC within a particular 
VAMC or CBOC catchment area should be allocated HUD-VASH vouchers. Once 
the CoC allocations are determined, HUD begins the process of 
identifying PHAs that cover each CoC location to be invited to 
participate in the HUD-VASH program by administering the voucher 
allocations
    C)During the collaborative allocation process, VA and HUD do not 
rank regions to determine need. VA and HUD process data to determine 
the locations with the highest relative need. Vouchers are allocated 
proportionally through the data formula that HUD and VA use. This 
allows locations with the highest relative need to get a proportionally 
higher number of HUD-VASH vouchers than a location with fewer 
chronically homeless Veterans and less relative need.

                  QFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    22) Is a recently discharged, combat wounded, amputee prioritized 
or triaged in a way that his/her claim is reviewed and processed 
before, for example, a 45 year old vet discharged 20 years ago claiming 
a service connected disability for knee pain?
    Servicemembers who are separated due to wounds, injuries, or 
illness are evaluated in the Integrated Disability Evaluation System 
(IDES). This system started in 2007 when DoD and VA collaborated to 
design a more seamless transition for Servicemembers who could no 
longer continue their military careers for medical reasons. Claims for 
VA benefits from Servicemembers enrolled in IDES are adjudicated by 
staff solely dedicated to this mission. For Servicemembers enrolled in 
IDES and identified as seriously injured or very seriously injured, VA 
prioritizes their claims at all stages of processing to ensure benefits 
decisions are issued as quickly as possible.

                  QFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel

    23) Is there an administrative triage process in place to service 
our combat wounded or members seriously injured in training accident 
claims first?

    Servicemembers who are separated due to wounds, injuries, or 
illness are evaluated in the Integrated Disability Evaluation System 
(IDES). This system started in 2007 when DoD and VA collaborated to 
design a more seamless transition for Servicemembers who could no 
longer continue their military careers for medical reasons. Claims for 
VA benefits from Servicemembers enrolled in IDES are adjudicated by 
staff solely dedicated to this mission. For Servicemembers enrolled in 
IDES and identified as seriously injured or very seriously injured, VA 
prioritizes their claims at all stages of processing to ensure benefits 
decisions are issued as quickly as possible.

                  QFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    24) Are you looking at sleep apnea as a disability, which may be 
treated with a CPAP machine and yet still rates a 50% disability?

    : The rating criteria for sleep apnea were published in the Federal 
Register as a Final Rule on September 5, 1996, and have remained 
unchanged since that time. However, significant medical advances 
regarding the diagnosis, classification, and management of this 
disability have occurred since the initial introduction of the 
diagnostic code. VA has established a Respiratory Workgroup for the 
purpose of evaluating all diagnostic codes and rating criteria in the 
Respiratory System under the Schedule for Rating Disabilities (38 Code 
of Federal Regulations, Part 4), to include sleep apnea. The references 
relied upon by the Respiratory Workgroup for proposed revisions to the 
rating schedule criteria comprise a reflection of the current medical 
standards for the diagnosis, measurement of severity, and response to 
treatment of sleep apnea.

                  QFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    25) Would you please expand on what a ``buddy statement'' is and 
the process for validating this type of statement?

    A ``buddy statement'' is lay testimony from any person who knows 
facts relevant to a claimant's claim. They most often relate to a 
sickness, disease, injury, or event in service which may support a 
Veteran's claim for service-connected disability compensation benefits. 
A ``buddy statement'' can serve as a secondary or alternative source of 
evidence to corroborate certain elements of a Veteran's claim when 
considered in light of all available evidence, such as corroborating an 
in-service stressor, establishing proof of service in the Republic of 
Vietnam, supporting involvement in combat, or establishing that service 
treatment records (STR) have been destroyed. Most often they are 
submitted by, but not restricted to, fellow Servicemembers who can 
corroborate the Veteran's claim. Under VA regulations, a lay person is 
competent to testify to issues that do not require specialized 
education, training, or experience, so long as the person providing the 
testimony has knowledge of the facts or circumstances of the matter at 
hand and the matter can be observed and described by a lay person. 
While each statement is evaluated on a case-by-case basis in accordance 
with individual facts, ``buddy statements'' in general are accepted if 
the statement is consistent with the times, places, and circumstances 
of the service of both the Veteran and the ``buddy.'' If the evidence 
available calls into question the qualifications of the ``buddy'' to 
make such a statement, the ``buddy'' is asked to submit his or her DD 
Form 214, or other evidence of service with the claimant.

                  QFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill

    26) You indicated your willingness to work with pro-bono law 
clinics such as the Lewis B. Puller, Jr. Veterans Benefit Clinic at 
William and Mary's Law School. At this point pro-bono law clinics are 
able to help veterans compile their claims and could significantly 
assist the VA's efforts to process claims. Are you willing, with 
appropriate privacy release forms, to have regional offices interact 
with pro-bono law clinics regarding specific cases both for initial 
claims and for appeal claims to help work through specific details on 
claims as they are being processed through the system? What are your 
thoughts on developing a pilot program to work on a Fully Developed 
Claims type program for appeal cases? Have you considered working to 
establish Centers of Excellence to disseminate information and training 
on how pro-bono clinics might best work with the VA to support out 
nation's veterans?

    VA appreciates the assistance of organizations like William and 
Mary's Puller Veterans Benefits Law Clinic in helping Veterans complete 
their claims. This assistance also helps reduce the claims backlog. 
Although our primary focus is currently on eliminating the backlog, we 
are also actively seeking ways to expedite the appeals process. We are 
evaluating several proposals submitted by the Puller Clinic, which 
include establishing a Center of Excellence as well as developing an 
integrated training program that could be used as a model for improving 
collaboration between VA and law school clinics. Although VA shares 
your interest in having law schools serve Veterans nationwide, we are 
also mindful of constraints to entering a formal partnership with a 
private entity. As such, we are carefully considering the various 
options available. In the meantime, we have established a Community of 
Practice, which is a partnership between VA and organizations that 
commit to submitting claims as Fully Developed Claims (FDC). On August 
22, 2013, the Puller Clinic was welcomed to the FDC Community of 
Practice. The Puller Clinic joins The American Legion and Disabled 
American Veterans, both Veterans Service Organizations who are charter 
members of the community.

                   IFR submitted by Forbes, J. Randy
                   House Committee on Armed Services
    Question for: Ms. Jessica Wright
    1) Page 47 Line 1116

    The Department of Defense and the Department (DoD) of Veterans 
Affairs (VA) agreed on 22 February 2013 to certify that Service 
Treatment Records (STR) are complete with all known medical record 
information at the time they are transferred to VA, within 45 days of 
Service member's separation from the military. VA previously measured 
DoD compliance based on the percentage of Complete STRs--those 
containing both medical and dental components--that also contained a 
Certification Letter. Between April and June 2013, DoD improved from 
26% the first week the metric was tracked, to over 99%.
    The VA introduced a new metric on 24 June 2013. DoD and VA agreed 
to use a more stringent metric for certifying STRs and have developed 
the new DD Form 2963 to attach to all STRs sent to VA from DoD. This 
will verify that the STR is complete, and will ensure that VA has all 
proper documents to process STRs. This new metric is effective as of 1 
August 2013 and it is our intent to be 100% by 1 Nov 2013.

                  IFR submitted by Conaway, K. Michael
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren
    2) page 64 line 1522

    VA Performance Rating FY2012 Total On Board at VA GS Employees 
Rated Outstanding 89,456 204,142 SES Employees Rated Outstanding 111 
459

                  IFR submitted by Conaway, K. Michael
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren
    3) Page 64 Line 1531

    VA Performance Rating FY2012 Total On Board at VA GS Employees 
Rated Outstanding 89,456 204,142 SES Employees Rated Outstanding 111 
459

                   IFR submitted by Wenstrup, Brad R.
                   House Committee on Armed Services
    Question for: Honorable Jonathan Woodson
    4) Page 73 Line 1754

    A narrated, close captioned online demonstration of the Joint 
Legacy Viewer (JLV) can be viewed at the following link: http://
www.pacifichui.org/hui/ext/JLV--Demo/JLV--demo.html JLV provides an 
integrated, read-only view of health data from DoD and VA sources in a 
common viewer.
    An important stepping stone toward modernizing our VA and DoD 
health information systems, JLV supports care of our Wounded Warriors 
and Veterans by improving access to electronic patient records and 
reducing the need to transfer information by fax, mail or CD.
    The JLV will be accessible to DoD and VA clinicians at nine sites 
using their DoD or VA credentials by the end of this month.

                   IFR submitted by Duckworth, Tammy
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren
    5) Page 93 Line 2246

    As Mr. Frank Kendall stated in testimony, VA and DoD seek help on 
this issue in the following ways: ``If I may, Mr. Chairman, what I 
would ask from you is that you not over-constrain us. So I am very 
concerned, as I mentioned in my opening statement, about some of the 
language in various bills right now... For example, tying us to a 
strategic plan that was written last fall, which is very much overcome 
by events now, is not particularly helpful ... It was only submitted to 
Congress relatively recently, but that plan does not really reflect 
some very fundamental changes that have been made since it was 
initially written. So there are things like that ... tie our hands. 
There are also a lot of reporting requirements. We have no problem with 
keeping the committees informed. We are happy to do that. The withholds 
that are in some of the language ... are becoming increasingly 
problematic for us. And particularly, right now for VA, that is a 
concern we have that is somewhat imminent. So [we are] very happy to 
work with the committees, very happy to work with the members and their 
staffs, and to be very transparent about what we are doing, but we ask 
that, in return, you relieve some of the constraints that you have in 
mind right now and allow us to take the best path forward and give us 
the opportunity to explain that to you.''

                IFR submitted by Gibson, Christopher P.
                   House Committee on Armed Services
    Question for: Honorable Frank Kendall
    6) Page 96 Line 2318

    No Answer

              IFR submitted by Johnson, Henry C. ``Hank''
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel
    7) Page 98 Line 2373

    Please see attached list of SES and SES-Equivalent FY 2012 
Performance Awards for the Department of Veterans Affairs. (Attachment 
B).

              IFR submitted by Johnson, Henry C. ``Hank''
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel
    8) Page 98 Line 2381

    Please see attached list of SES and SES-Equivalent FY 2012 
Performance Awards for the Department of Veterans Affairs. (Attachment 
B).

                  IFR submitted by Wittman, Robert J.
                   House Committee on Armed Services
    Question for: Mr. Stephen Warren
    10) Page 99 Line 2413

    The timeline outlined in the hearing transcript only applies to 
service treatment record (STR) requests for Veterans currently serving 
in the National Guard and Reserves. National Guard and Reserve STRs are 
maintained at the unit level, and the 60/30-day timeframe was 
established to allow unit record custodians adequate time to gather 
records and appropriately reply to requests. VA's duty to assist 
claimants, an obligation created by 38 U.S.C. Sec.  5103A, requires VA 
to undertake certain efforts to obtain Federal records as outlined in 
paragraph (c)(2):
    Whenever the Secretary attempts to obtain records from a Federal 
department or agency under this subsection, the efforts to obtain those 
records shall continue until the records are obtained unless it is 
reasonably certain that such records do not exist or that further 
efforts to obtain those records would be futile.
    To obtain National Guard and Reserve STRs VA takes the following 
steps: 1. The VA regional office mails a letter to the Veteran's 
assigned National Guard State Adjutant General's Office or Reserve Unit 
requesting the military records necessary to process the claim. An 
internal 60-day suspense is set in VA claim processing records. 2. If 
no response is received after 60 days, VA phones the National Guard or 
Reserve Unit to request the records again, and the call is documented 
in VA systems. An internal 30-day suspense is set in VA claim 
processing records. 3. If no response is received, or if the response 
is not legally adequate, VA phones the Veteran and asks him/her to 
contact the National Guard or Reserve Unit to request that the unit 
send the records to VA for processing. An internal 30-day suspense is 
set in VA claim processing records. 4. To satisfy VA's duty-to-assist 
obligations, VA must continue to request records from all Federal 
agencies until the records or a negative response from the Federal 
record custodian is received. VA conducts follow-up requests to the 
National Guard, Reserve Unit, and Veteran every 30 days until the duty-
to-assist obligation is satisfied.
    As service department records are being digitized, VA can build and 
update systems and revise its procedures to take advantage of digital-
to-digital transfer capabilities. While VA continues to rely on paper 
service records (the only records available in many cases), current 
procedures must be continued.

                  IFR submitted by Langevin, James R.
                   House Committee on Armed Services
    Question for: Honorable Robert Petzel
    11) Page 102 Line 2483

    Outcomes data collected in the VA Spinal Cord Injury/Disorders 
(SCI/D) and Polytrauma/Traumatic Brain Injury (TBI) Systems of Care 
show that Veterans with SCI/D and TBI that receive rehabilitation in VA 
medical centers meet or exceed external non-Veteran benchmarks in 
functioning, community participation, and satisfaction with life. These 
outcomes reflect the outstanding rehabilitative care, prosthetic 
services, benefits, and adaptive modifications to the home and 
automobile that help Veterans with these severe disabilities to 
overcome common obstacles to achieve personal independence, positive 
life adjustment, and opportunities in meaningful areas of life. VA 
provides a wide variety of mobility aids for Veterans with functional 
limitations due to neurological traumas and other health conditions. 
Mobility aids, like all other prosthetic devices and sensory aids, are 
made available based on a treatment plan developed by health care 
providers to address the specific needs of the Veteran to optimize 
independent mobility and home and community accessibility, and assist 
with other activities of daily living. Mobility aids provided by VA 
range from simple items, such as transfer boards and canes, to complex 
devices and installations, such as wheeled mobility and overhead lift 
systems that can help maneuver Veterans with severe mobility 
limitations around the home. Mobility aids are often augmented by 
devices that support activities of daily living such as environmental 
controls for activating home mechanisms and appliances, adaptive 
bathroom equipment to support self-care, and alternative communication 
devices and adaptive computer access for persons with communication 
challenges. Supplemental adaptations and specialized devices are 
provided for Veterans with cognitive difficulties such as memory lapses 
due to TBI. The Veteran and caregivers receive comprehensive education 
and training from VA clinical providers to ensure the provided 
equipment is used effectively and safely.
    Additionally, VA has a robust Housing Adaptation program that 
serves to modify a Veteran's or Servicemember's residence to 
accommodate their disability. Such adaptations afford individuals with 
functional limitations the capability to live at home in a barrier-free 
environment.

                  IFR submitted by Langevin, James R.
                   House Committee on Armed Services
    Question for: Mr. Danny Pummill
    12) Page 103 Line 2498

    The Veterans Benefits Administration's Specially Adapted Housing 
(SAH) staff routinely review the program to ensure the program is 
meeting the needs of eligible Veterans. SAH staff also work closely 
with Veterans Service Organizations to incorporate their feedback.
    Veterans and Servicemembers with neurological traumas such as 
traumatic brain injuries or spinal cord injuries may be eligible for 
SAH grants if they meet the statutorily defined medical eligibility 
criteria. Specifically, the SAH grant is available to Veterans and 
Servicemembers who are entitled to disability compensation for a 
service-connected, permanent and total disability due to:

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
